<html>
<title> - CURRENT AND FUTURE WORLDWIDE THREATS TO THE NATIONAL SECURITY OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 110-284]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-284
 
 CURRENT AND FUTURE WORLDWIDE THREATS TO THE NATIONAL SECURITY OF THE 
                             UNITED STATES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2007

                               __________

         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
40-703 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 Current and Future Worldwide Threats to the National Security of the 
                             United States

                           february 27, 2007

                                                                   Page

McConnell, VADM John M., USN (Ret.), Director, National 
  Intelligence; Accompanied by Thomas Fingar, Ph.D., Deputy 
  Director of National Intelligence for Analysis, and Chairman, 
  National Intelligence Council..................................     5
Maples, LTG Michael D., USA, Director, Defense Intelligence 
  Agency.........................................................    21

                                 (iii)


 CURRENT AND FUTURE WORLDWIDE THREATS TO THE NATIONAL SECURITY OF THE 
                             UNITED STATES

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Lieberman, Reed, Akaka, Bill Nelson, Bayh, Clinton, Pryor, 
Webb, Warner, Inhofe, Sessions, Collins, Graham, Cornyn, Thune, 
and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; Gerald J. Leeling, counsel; Thomas K. McConnell, 
professional staff member; William G.P. Monahan, counsel; and 
Michael J. Noblet, research assistant.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Derek J. Maurer, minority counsel; David M. 
Morriss, minority counsel; Lynn F. Rusten, professional staff 
member; and Richard F. Walsh, counsel.
    Staff assistants present: Fletcher L. Cork, Micah H. 
Harris, and Jessica L. Kingston.
    Committee members' assistants present: Joseph Axelrad and 
Sharon L. Waxman, assistants to Senator Kennedy; James Tuite, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Richard Kessler and Darcie Tokioka, assistants to Senator 
Akaka; Sherry Davich and Caroline Tess, assistants to Senator 
Bill Nelson; Todd Rosenblum, assistant to Senator Bayh; Andrew 
Shapiro, assistant to Senator Clinton; Lauren Henry, assistant 
to Senator Pryor; Gordon I. Peterson, assistant to Senator 
Webb; John A. Bonsell, assistant to Senator Inhofe; Arch 
Galloway II, assistant to Senator Sessions; Mark J. Winter, 
assistant to Senator Collins; Adam G. Brake, assistant to 
Senator Graham; Lindsey Neas, assistant to Senator Dole; Stuart 
C. Mallory, assistant to Senator Thune; and Brian W. Walsh, 
assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. First we would 
like to welcome our witnesses to today's hearing, and 
congratulate Director McConnell on his confirmation, and note 
this is the first time that he will be testifying as the 
Director of National Intelligence (DNI). Of course, we are also 
glad to have General Maples from the Defense Intelligence 
Agency (DIA) appearing here again, and also Dr. Tom Fingar, who 
is the Deputy Director of National Intelligence for Analysis as 
well as the Chairman of the National Intelligence Council.
    We have asked our witnesses to address current and longer-
term threats and intelligence challenges around the world. This 
committee has a special responsibility to the men and women of 
our Armed Forces to be vigilant on intelligence programs 
because decisions on whether or not to use military force and 
the planning for military operations depend so heavily on 
intelligence.
    At the same time the Intelligence Community (IC) bears this 
heavy responsibility, it is burdened by skepticism about the 
accuracy of its assessments due to poor performance and 
manipulation of intelligence on Iraq prior to the invasion.
    The conflict in Iraq is consuming a large share of our 
intelligence capabilities, diminishing the ability of the IC to 
support diplomacy, monitor threats, and prepare for other 
contingencies. Regarding Iraq, we need a thorough understanding 
of the extent to which the Iraqi government is living up to its 
commitments to support the President's surge plan, including 
achieving political reconciliation, and the IC's assessments of 
the prospects for success in Iraq.
    We also need to know what are the IC's assessments 
concerning sources of outside support for the contending 
parties in Iraq, for the Sunni insurgents as well as the Shiite 
militias; what countries are providing weapons, funding, and 
personnel to the insurgency; who is organizing, receiving, and 
using this assistance; and on the Shiite side what is the 
nature and extent of Iranian al-Quds Force involvement in Iraq.
    Administration officials have stated that coalition forces 
have taken some al-Quds Force officers into custody. What were 
these people doing in Iraq? If they were engaged in threatening 
activities, have they nonetheless been released? Who do we 
believe is approving the transfer of weapons to Iraqi Shiite 
militia forces?
    Turning to Iran's nuclear program, we need to know the IC's 
current estimate for when Iran could acquire a nuclear weapons 
capability and its assessment of the circumstances under which 
Iran might give up its weapons program.
    In Afghanistan, the resurgence of the Taliban, the 
deteriorating security situation, and the flourishing sanctuary 
across the border in Pakistan drive home the fragile hold that 
we have in this volatile region. In the short-term, the Afghan 
government and coalition forces must steel themselves for a 
Taliban spring offensive. Long-term prospects for eliminating 
the Taliban threat appear dim so long as the sanctuary remains 
in Pakistan and there are no encouraging signs that Pakistan is 
eliminating it.
    Pakistan is an ally in the war on terrorism, but, as 
Director McConnell's prepared statement emphasizes, it is a 
major source of Islamic extremism, it is a sanctuary for al 
Qaeda, the Taliban, and extremists operating against India over 
Kashmir, and a past and potential future source of dangerous 
nuclear proliferation.
    We are pleased with the progress of the Six-Party Talks on 
North Korea's nuclear disarmament, although it is equally clear 
that there is a long way still to go before we can be confident 
that we are even on the road to a real resolution of this 
longstanding crisis. Just one illustration of the distance not 
yet traveled: the Department of State acknowledges that nothing 
has been conceded by North Korea about the uranium enrichment 
program that was the immediate cause for the Bush 
administration's abandonment of the Clinton administration's 
Agreed Framework, which successfully froze North Korea's 
plutonium-based weapons program for an extended period.
    Secretary of State Powell declared at the beginning of the 
Bush presidency that North Korean nuclear policy would build on 
the foundation left by President Clinton, only to be famously 
rebuked by the White House. The return to diplomacy is welcome, 
but the ideologically-driven interlude resulted in a dramatic 
expansion of North Korea's nuclear potential.
    I want to remind all of my colleagues that we have arranged 
for a closed session in S-407 of the Capitol following this 
open session, if that is necessary. I would also note that our 
committee will be holding a hearing a week from today on the 
conditions at Walter Reed Army Medical Center.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I think it is very important that this committee address 
the situation at Walter Reed. I was privileged to go out there 
on Friday, at which time the Secretary of Defense, Secretary 
Gates, addressed the situation. I felt that he did that with 
unusual candor and was quite open to not only congressional 
oversight, but to correct these tragic situations very quickly. 
So I compliment the chair and the ranking member for arranging 
that hearing.
    Chairman Levin. I join you, Senator Warner, in your 
compliment of Secretary Gates. I thought he was very direct and 
nondefensive.
    Senator Warner. Now, Mr. Chairman, on behalf of Senator 
McCain, I join you in welcoming our witnesses today. I would 
particularly like to welcome Admiral McConnell, whom I have 
known for many years, as far back as when I was privileged to 
be Secretary of the Navy and you were a young officer staying 
as far away from the Navy Secretary as you possibly could.
    Admiral McConnell, I also want to recognize your return to 
government service and your willingness to take on one of the 
most important and difficult positions in the entire Federal 
Government. I wish you and your lovely family good luck.
    I would like to thank the other witnesses for their long 
and distinguished service to our Nation and to convey to you my 
personal commendation and deep admiration for the dedicated men 
and women of your intelligence services. Yesterday I had the 
privilege to have a meeting with General Maples and his top 
team surveying the situation in Iraq and to some extent 
Afghanistan, and I thank you, General, for that opportunity.
    Their efforts are vital to our homeland defense, to the 
protection of our national interest, and to the men and women 
in uniform who are deployed the world over in harm's way. Our 
Nation has never asked more from its intelligence agency than 
it does today. Our witnesses and all members of the IC know 
this clearly and understand that they are truly the first line 
of our Nation's defense.
    The attacks on September 11 were a massive intelligence 
failure, which remind us all too clearly of the significance 
intelligence can and should play. The IC has come a long way 
since September 11 and we are all aware of the work it takes to 
strengthen and reform the IC while in the midst of one of the 
most challenging chapters in the national security history of 
our Nation and indeed the entire world.
    These intelligence reforms require, among other changes, 
greater collaboration between the various agencies and their 
subordinates, not only within the IC but with our foreign 
partners as well. In addition, we will need more and better 
human intelligence (HUMINT) capacity, improved language 
abilities and cultural awareness--underline ``cultural 
awareness.'' How clearly that has come to the forefront in our 
struggle to understand the situations in Iraq and Afghanistan.
    We are not at war with the Muslim community. It is only a 
minor fraction of that community who have abandoned all their 
precedents, all of the teachings of the Koran, and are 
promulgating terror in many places in the world.
    In addition, we need more and better cooperation, as I say, 
with our allies, and I hope that that can be strengthened.
    As the fight continues in Iraq and Afghanistan, one 
understands the role that rapid, accurate, and detailed 
intelligence plays in combat operations. Intelligence is 
essential to the conduct of any form of warfare. It is the 
force multiplier that can make the difference.
    We will ask our witnesses to give us their estimate of the 
threats our forces face in Iraq and Afghanistan, and their 
assessment of the progress in those two countries and elsewhere 
in the world. In addition, the witnesses should be prepared to 
discuss the adequacy of our intelligence capabilities in Iraq 
and Afghanistan and the aspects of today's global struggle that 
extend beyond the borders of these two countries.
    We must not, however, lose sight of other threats to our 
Homeland and national interests. These symmetric and asymmetric 
threats include: rising regional hegemonies; emerging peer 
competitors; the proliferation and use of weapons of mass 
destruction (WMD); new missile technologies; threats to our 
space-based systems; humanitarian crises; natural disasters; 
and the activities of violent extremists around the world.
    While vigilance is imperative and excellence in terms of 
results is vital, so too is your candor, not only to Congress 
but to the executive branch and the American people. You must 
speak the truth to decisionmakers and policymakers. Tell them 
what you know and what you do not know, so long as we do not 
compromise sources and other means of collection. President 
Reagan accurately said, ``The goal of our intelligence analysts 
can be nothing short of the truth, even when that truth is 
unpleasant and unpopular.''
    I wish you luck. Thank you very much.
    Chairman Levin. Thank you, Senator Warner.
    Admiral McConnell.

  STATEMENT OF VADM JOHN M. McCONNELL, USN (RET.), DIRECTOR, 
  NATIONAL INTELLIGENCE; ACCOMPANIED BY THOMAS FINGAR, Ph.D., 
  DEPUTY DIRECTOR OF NATIONAL INTELLIGENCE FOR ANALYSIS, AND 
            CHAIRMAN, NATIONAL INTELLIGENCE COUNCIL

    Admiral McConnell. Thank you, sir. Chairman Levin, Senator 
Warner, and distinguished members of the committee: It is an 
honor to appear before you today and I appreciate the 
opportunity to offer my assessment of the threats facing our 
Nation in my first testimony as the DNI. In my confirmation 
hearing I committed to consulting with Congress often, seeking 
your counsel when appropriate, and taking your advice 
seriously. I am pleased to begin that dialogue today.
    This morning I am joined by Lieutenant General Michael 
Maples, Director of the DIA, and Dr. Tom Fingar, the Deputy DNI 
for Analysis.
    We come here in a week rich with history for the United 
States IC. 60 years ago today, or 60 years ago yesterday, 
President Truman submitted to Congress legislation that would 
become the 1947 National Security Act, the foundation for 
today's American intelligence structure. Then, like now, our 
leaders were face-to-face with historic challenges. Recovering 
from World War II while the Cold War loomed, our Nation 
established an infrastructure to guard against catastrophic 
surprise. Those leaders knew, as we know today, the necessity 
of putting accurate intelligence in the right hands at the 
right time.
    We are a community shaped by our past, proud of the work 
done by our brave men and women, and mindful of the continued 
and developing threats that we face today. I will briefly 
highlight the principal threats facing our Nation and I have 
submitted a detailed statement for the record that addresses 
more of the issues at greater depth.
    Terrorism remains the preeminent threat to the Homeland, to 
our security interests globally, and to our allies. Al Qaeda 
continues to be the terrorist organization that poses the 
greatest threat. Nevertheless, in the last year we have 
developed a deeper understanding of the enemy that we face. Our 
community has worked hard to discover and to disrupt terrorist 
intentions and, while many of al Qaeda's senior leadership have 
been killed or captured, its core elements are resilient. They 
continue to plot attacks against the Homeland and other targets 
with the aim of inflicting mass casualties. Indeed, al Qaeda 
along with other terrorist groups continues to seek chemical, 
biological, radiological, and nuclear weapons or materials.
    Al Qaeda also is forging stronger operational connections 
that radiate outward from their camps in Pakistan to affiliated 
groups and networks throughout the Middle East, North Africa, 
and Europe.
    In addition to al Qaeda and other Sunni jihadists, 
Hezbollah, the Shiite-based organization backed by Iran and 
Syria, remains a source of serious concern. Last summer's 
hostilities between Israel and Hezbollah have increased 
Hezbollah's self-confidence.
    We know particularly since September 11 that countering 
terrorist threats depends on good intelligence and broad and 
effective international cooperation. Our success to date 
against al Qaeda and other terrorists, along with our ability 
to prevent attacks abroad and at home, have been aided 
considerably by cooperation from many foreign governments, 
among them Iraq, United Kingdom, Australia, Saudi Arabia, 
Turkey, Afghanistan, and Pakistan.
    In Iraq and Afghanistan, where the United States military 
is engaged in combat, we face challenges that are exacerbated 
by terrorism. Earlier this month, the IC delivered to Congress 
a national intelligence estimate (NIE) on Iraq. It is a 
thorough and detailed assessment of a complex, dynamic 
situation, but here I will summarize the four principal 
judgments presented in the NIE.
    First, the current security and political trends in Iraq 
are moving in a negative direction. Particularly after the 
February 2006 bombing of the mosque at Samarra, sectarian 
violence has become self-sustaining. Unless efforts to reverse 
these conditions gain real traction during the 12- to 18-month 
timeframe of this estimate, we assess that the security 
situation will continue to deteriorate at a rate comparable to 
the latter half of 2006.
    Second, success by the stronger and more loyal Iraqi 
security forces, supported by the coalition, in reducing 
violence could give Iraqi political leaders breathing space to 
pursue political compromise needed for progress and stability. 
But even if the violence declines, the current level of 
sectarian animosity will make political reconciliation 
difficult over the next 12 to 18 months.
    Third, if coalition forces were withdrawn rapidly during 
the timeframe of this estimate, we judge that this almost 
certainly would lead to a significant increase in the scale and 
scope of sectarian conflict, intensify Sunni resistance to the 
Iraqi government, and have adverse consequences for national 
reconciliation. In addition, al Qaeda would be likely to use 
Anbar Province to plan for increased attacks.
    Fourth, while outside actors are not likely to be a major 
driver of violence or the prospects of stability, Iranian 
lethal support for select groups of Iraqi Shiite militants 
clearly intensifies the conflict in Iraq. Additionally, Syria 
continues to provide safe haven for expatriate Iraqi Baathists 
and to take less than adequate measures to stop the flow of 
foreign jihadists into Iraq.
    As in Iraq, Afghanistan's leaders face a pivotal year 
ahead. They must build central and provincial government 
capacity, confront perverse drug cultivation and trafficking, 
and, with North Atlantic Treaty Organization (NATO) and the 
United States, arrest the resurgence of the Taliban. The 
Taliban was successful in increasing the level of violence in 
2006. Progress in Afghanistan will not come easily. There is a 
chronic shortage of resources and of qualified, motivated 
government officials. Once more, although the insurgency 
probably does not now directly threaten the government, it is 
deterring economic development and undermining popular support 
for President Karzai.
    The drug trade contributes to endemic corruption and 
undercuts public confidence. In addition, a dangerous nexus 
exists between drugs, the insurgents, and warlords, who derive 
funds from cultivation and trafficking.
    Terrorism is not the only threat we face. The IC judges the 
efforts by both state and non-state actors to develop or 
acquire dangerous weapons and delivery systems constitute the 
second greatest threat to our Nation and to our allies. Iran 
and North Korea are of particular concern and these regimes 
have pursued nuclear programs in defiance of United Nations 
Security Council restrictions.
    We assess that Tehran seeks to develop nuclear weapons and 
has shown greater interest in drawing out the negotiations 
rather than in reaching an acceptable diplomatic solution. This 
is a very dangerous situation as a nuclear Iran could prompt 
destabilizing countermoves by other states in this volatile 
region. While our information is incomplete, we estimate Iran 
could produce a nuclear weapon by early to mid next decade.
    Regarding North Korea, the February 13 Six-Party Talks in 
Beijing resulted in an agreement intended to lead to a 
declaration of all North Korean nuclear programs and disabling 
all existing nuclear facilities. The agreement is in the 
initial step in the denuclearization process and will be 
closely observed as we watch for its implementation.
    As we assess threats to U.S. security interests, Iran is of 
concern beyond the reasons of nuclear aspirations. The fall of 
the Taliban and Saddam, increased oil revenues, Hamas's 
electoral victory, and Hezbollah's perceived success in 
fighting against Israel all extend Iran's influence in the 
Middle East. This disturbs our Arab allies, who are concerned 
about worsening tensions between Shiite and Sunni Islam.
    Iran's growing influence has coincided with a generational 
change in Tehran's leadership. Under the Ahmadinejad 
government, staffed largely by hardliners who are deeply 
distrustful of the United States, Iran is growing its ability 
to project military power, with the goal of dominating the Gulf 
region.
    Iran is also working to disrupt the operations and 
reinforcement of United States forces in the region, thereby 
raising the political, financial, and human cost of our 
presence. To this end, Tehran views its mounting inventory of 
ballistic missiles as an integral part of its strategy to deter 
and, if necessary, retaliate against forces in the region, to 
include United States forces.
    Tehran believes its capability to project power abroad, 
including through terrorist operations, helps safeguard its 
regime by deterring U.S. or Israeli attacks, distracting and 
weakening Israel, enhancing Iran's regional influence through 
intimidation, and helps to drive the United States from the 
region.
    Central to Iran's terrorism strategy is the Lebanese 
Hezbollah. This group shares Iran's world view and receives 
budgetary support, military equipment, and specialized training 
from Tehran. While Hezbollah is focused on its agenda in 
Lebanon and supporting anti-Israeli Palestinian terrorists, it 
could decide to conduct attacks against U.S. interests if in 
the event it feels its survival is threatened or if Iran, its 
sponsor, is threatened.
    Syria has also reinforced its ties with Iran, while growing 
more confident in its regional policies. This stems primarily 
from what Syria sees as vindication of its support to Hezbollah 
and Hamas, coupled with the perception of success in overcoming 
international attempts to isolate the regime. Damascus has 
failed to stem militant infiltration into Iraq and continues to 
interfere inside Lebanon. Indeed, Lebanon remains in a 
politically perilous situation while Damascus, as well as 
Hezbollah and other pro-Syrian groups, endeavor to topple the 
government of Prime Minister Siniora.
    The situation in the Palestinian territories is equally 
delicate. Since the establishment in March 2006 of the Hamas-
led Palestinian Authority government, inter-factional violence 
has intensified in the Gaza Strip and the West Bank. Absent 
success in implementing a national unity government, this 
violence threatens to escalate further. Hamas continues to 
reject recognition of Israel, renunciation of armed resistance 
in Israel, and acceptance of Palestinian Liberation 
Organizations and international agreements. Hamas continues to 
maintain that Israel should not exist.
    I turn next to the world's fastest growing humanitarian 
crisis, the situation in Darfur, where more than 200,000 people 
have been killed, 1.85 million have been internally displaced, 
and another 234,000 have taken refuge in neighboring Chad. 
Multiple rebel groups who feel that the existing peace 
agreement does not meet their security, power-sharing, or 
compensation concerns are continuing to fight against the 
government. The Sudanese military, unable to force the rebels 
to sign the peace accord and with the help of local militia, is 
attacking civilian villages suspected of harboring the rebels. 
Chadian and Central African Republic rebel groups have also 
become entangled in the Darfur crisis. The spillover of 
violence in the past 10 months threatens to destabilize an 
already weak regime in both of those countries.
    In Somalia, the rapid collapse of the Council of Islamic 
Courts and the arrival of the Trans-Federal Government (TFG); 
in Mogadishu has shifted the political landscape. The obstacles 
confronting the TFG are many of the same problems that have 
kept any one group from forging a viable government in Somalia 
since the country's collapse in 1991. Somali society is divided 
into numerous clans and sub-clans and none want to see one 
group rise above the others. If the TFG is to be successful in 
winning the support of the population and restoring order, it 
will need to be more inclusive and make some successful strides 
toward governance.
    Without mechanisms to replace the temporary Ethiopian 
presence with an internationally supported Somali solution, 
more turmoil could enable extremists to regain their footing. 
At the same time, al Qaeda remains determined to exploit the 
situation in Somalia.
    In Latin America, the gradual consolidation of democracy 
has remained the prevailing tendency. While some have spoken of 
a lurch to the left in the region, last year's numerous 
elections reveal no dominant ideological bent. Moderate 
leftists who promote macroeconomic stability, poverty 
alleviation, and the building of democratic institutions fared 
well. So did able right-of-center leaders.
    At the same time, individuals critical of free markets won 
the presidency in two of Latin America's poorest countries, 
Ecuador and Nicaragua. In Venezuela, Chavez is using his 
popularity to undercut the opposition and eliminate checks on 
his authority. He is among the most strident anti-American 
leaders anywhere in the world and will continue to try to 
undercut U.S. influence in Latin America and internationally.
    In Mexico, President Calderon of the ruling National Action 
Party was inaugurated on December 1 after a razor-thin victory 
over his closest opponent, the leftist populist Obrador. The 
July election illustrated the country's polarization along 
socioeconomic lines, but the new government has initiated steps 
to address the problems that affect both Mexican and U.S. 
security interests, including drug smuggling, human 
trafficking, and associated violence.
    In Cuba, this year will mark the end of the long domination 
of that country by Fidel Castro. Significant positive change 
immediately following Castro's death is unlikely. The long 
period of transition following Fidel's operation in July 2006 
has given his brother Raoul the opportunity to solidify his 
position as Fidel's successor.
    In 2006, Chinese leaders moved to align Beijing's foreign 
policy with the needs of domestic development. In doing so, 
they are identifying opportunities to strengthen economic 
growth, gain access to new sources of energy and markets, and 
mitigate what they see as potential external threats to social 
stability. At the same time, China places a great priority on 
positive relations with the United States while also 
strengthening ties outside the region, to include the European 
Union, Russia, Africa, and Latin America.
    The People's Republic of China leaders continue to 
emphasize development of friendly relations with the states on 
China's periphery, in hopes of assuring peaceful borders and to 
avoid perceived containment by any other power. In the past 
year, China achieved notable success in improving relations 
with Japan under newly elected Prime Minister Abe. 
Additionally, prospects for cross-straits conflict with Taiwan 
diminished. In addition to establishing strong bilateral ties, 
Beijing actively engages with many multilateral organizations, 
including the Association of Southeast Asian Nations.
    As Beijing continues its rapid rate of military 
modernization, which began in 1999, we assess that its 
aspirations for great power status and its security strategy 
will drive the modernization effort even if the Taiwan problem 
were resolved. The Chinese are developing more capable long-
range conventional strike systems and short- and medium-range 
ballistic missiles with terminally guided maneuverable warheads 
able to attack land targets and U.S. carriers at sea.
    China faces an array of domestic and economic problems. 
Some prospects for its financial system are unhealthy, with 
state-owned banks maintaining large balances of nonperforming 
loans. Nonetheless, we see low risk of severe financial crisis 
over the next 5 years. China is introducing market measures to 
its financial sector and has massive foreign exchange reserves, 
current and capital account surpluses, and low exposure to 
short-term foreign currency debt.
    We have entered a new era in which energy security will 
become an increasing priority for the United States, the West, 
and the fast-developing major energy consumers, like China and 
India. Oil prices have fallen by more than 25 percent since 
their peak last July, while spare production capacity has grown 
to more than 2 million barrels per day. But escalating demand 
for oil and gas has resulted in windfall profits for some 
producer nations that are openly hostile to our interests. Iran 
and Venezuela fall into that category.
    Russia now sees itself as an energy superpower, a status 
with broad ramifications that include strong-arm tactics in its 
relations with neighboring states.
    Today in my remarks I have summarized some of the 
challenges that we face. In a world marked by ever more rapidly 
changing and more widely reverberating events, and while events 
anywhere can and often do affect us, it is the responsibility 
of the IC to sort through this swirl of emerging trends. 
Indeed, we sort and as needed we shift to focus on the events 
which most affect this Nation and our allies and our safety.
    Senators, that concludes my opening remarks. I look forward 
to your questions and I thank you for your attention.
    [The prepared statement of Admiral McConnell follows:]

      Prepared Statement by VADM J. Michael McConnell, USN (Ret.)

                              INTRODUCTION

    Chairman Levin, Ranking Member McCain, and members of the 
committee, thank you for the invitation to offer my assessment of 
threats to our Nation.
    I am joined today by LTG Mike Maples, the Director of the Defense 
Intelligence Agency and Dr. Tom Fingar, the Chairman of the National 
Intelligence Council.

        REFORMS PROMOTE INFORMATION SHARING, SENSE OF COMMUNITY

    The judgments I will offer the committee are based on the efforts 
of thousands of patriotic, highly skilled professionals, many of whom 
serve in harm's way. I am proud to lead the world's best Intelligence 
Community and pleased to report that it is even better than it was last 
year as a result of reforms mandated by the President and Congress. 
These reforms promote better information sharing, the highest standards 
of analytic rigor, the most innovative techniques of acquiring 
information, and a stronger sense of community across our 16 agencies.

       DIVERSITY OF THREATS/GLOBALIZATION MANDATE GLOBAL COVERAGE

    We know that the Nation requires more from our Intelligence 
Community than ever before because America confronts a greater 
diversity of threats and challenges than ever before. Globalization, 
the defining characteristic of our age, mandates global intelligence 
coverage. Globalization is not a threat in and of itself; it has more 
positive than negative characteristics. But globalization does 
facilitate the terrorist threat, increases the danger of weapons of 
mass destruction proliferation, and contributes to regional instability 
and reconfigurations of power and influence--especially through 
competition for energy. Globalization also exposes the United States to 
mounting counterintelligence challenges. Our comparative advantage in 
some areas of technical intelligence, where we have been dominant in 
the past, is being eroded. Several nonstate actors, including 
international terrorist groups, conduct intelligence activities as 
effectively as capable state intelligence services. A significant 
number of states also conduct economic espionage. China and Russia's 
foreign intelligence services are among the most aggressive in 
collecting against sensitive and protected U.S. targets.
    This array of challenges to our national security is shaped by 
dramatic advances in telecommunications, technology, new centers of 
economic growth, and the consequences of crises within traditional 
cultures.

    NON-STATE ACTORS AND HOSTILE STATES ASSAULT INTERNATIONAL ORDER

    As a result of these and other challenges exacerbated by 
globalization, many nation states are unable to provide good governance 
and sustain the rule of law within their borders. This enables non-
state actors and hostile states to assault these fundamental building 
blocks of international order, creating failed states, proxy states, 
terrorist safehavens, and ungoverned regions that endanger the 
international community and its citizens. More to the point, it 
threatens our national security and support for freedom and democracy, 
notably in Iraq and Afghanistan, where our troops and those of our 
allies are helping to defend freely elected governments and sovereign 
peoples against determined insurgents and terrorists.

              TERRORIST THREATS--THE PRE-EMINENT CHALLENGE

    Terrorist threats to the homeland, to our national security 
interests, and to our allies remain the pre-eminent challenge to the 
Intelligence Community, operationally and analytically. Working closely 
with our international partners, we have scored remarkable successes 
and disrupted terrorist plots aimed at murdering thousands of U.S. and 
allied citizens. Despite these successes, we must maintain maximum 
vigilance, flexibility, and operational aggressiveness to counter the 
constant evolution and adaptive capability of our enemies. To support 
these efforts, we must understand the enemy, his intentions, and his 
capabilities. Much of what the Intelligence Community has learned in 
the past year underscores its previous judgments; but we now have a 
deeper understanding of the enemy we face.

                     AL QAEDA--THE GREATEST THREAT

    Al Qaeda is the terrorist organization that poses the greatest 
threat to U.S. interests, including to the homeland. We have captured 
or killed numerous senior al Qaeda operatives, but we also have seen 
that al Qaeda's core elements are resilient. They continue to plot 
attacks against our homeland and other targets with the objective of 
inflicting mass casualties. They continue to maintain active 
connections and relationships that radiate outward from their leaders' 
hideout in Pakistan to affiliates throughout the Middle East, northern 
Africa, and Europe.

         CONVENTIONAL EXPLOSIVES MOST PROBABLE AL QAEDA ATTACK

    Use of conventional explosives continues to be the most probable al 
Qaeda attack scenario. The thwarted U.K. aviation plot last summer and 
the other major threat reports that we have been tracking all involve 
conventional bombs. Nevertheless, we receive reports indicating that al 
Qaeda and other groups are attempting to acquire chemical, biological, 
radiological, and nuclear weapons or materials.

                            HIZBALLAH THREAT

    In addition to al Qaeda, its networks and affiliates, I mention the 
terrorist threat from Hizballah, which is backed by Iran and Syria. As 
a result of last summer's hostilities, Hizballah's self-confidence and 
hostility toward the U.S. as a supporter of Israel could cause the 
group to increase its contingency planning against U.S. interests.

                       INTERNATIONAL COOPERATION

    We know from experience since September 11 that countering 
terrorism depends on unprecedented levels of international cooperation. 
Our successes so far against al Qaeda and other jihadists--and our 
ability to prevent attacks abroad and at home--have been aided 
considerably by the cooperation of foreign governments, among them 
Iraq, the U.K., Saudi Arabia, Turkey, Pakistan, Afghanistan, and many 
others. They, too, are targets of terror. As illustrated by al Qaeda's 
plots in the U.K., Kurdish separatist attacks in Turkey, and the recent 
bombings in Algeria, terror is a worldwide scourge.

                         MAJOR ACCOMPLISHMENTS

    It is important to note our shared successes, with a focus, not on 
taking credit, but on demonstrating results. I will highlight four 
major accomplishments.

        <bullet> In the U.K., as noted earlier, a plot to perpetrate 
        the worst terrorist slaughter of innocent civilians since 
        September 11 was thwarted.
        <bullet> And in Pakistan Abd al-Rahman al-Muhajir and Abu Bakr 
        al-Suri, two of al Qaeda's top bomb makers were killed last 
        April.
        <bullet> We eliminated al Qaeda in Iraq's (AQI) murderous 
        leader, Abu Musab al'Zarqawi.
        <bullet> Also in Iraq, we have severely damaged Ansar al 
        Sunna's leadership and operational capacity.

    Again, let us emphasize that we, the United States, do not and 
could not accomplish our counterterrorism mission unilaterally. Our 
role varies from situation to situation. What does not vary is our 
requirement for good intelligence and committed partners, which we have 
in all parts of the world--because terrorists have killed far more non-
Americans than Americans and far more Muslims than non-Muslims.

                    IRAQ, AFGHANISTAN, AND PAKISTAN

    The two countries where the United States military is engaged in 
combat--Iraq and Afghanistan--face challenges that are significantly 
exacerbated by terrorism but not exclusively attributable to it. And 
Pakistan, despite its ongoing efforts, continues to face terrorism's 
many challenges, while that country also raises other concerns for us.

               IRAQ--SECTARIAN DIVISIONS, SECURITY FORCES

    In Iraq, sectarian divisions are widening but the multiparty 
government of Nuri al-Maliki continues to seek ways to bridge the 
divisions and restore commitment to a unified country. The effort to 
build a ``moderate front'' of major parties from the country's three 
ethno-sectarian groups has underscored moderates' interest in bridging 
the gaps between Iraq's communities by appealing to non-violent actors. 
Iraqi security forces have become more numerous and more capable since 
last year. Six division headquarters, 30 brigades, and more than 90 
battalions have taken the lead in their operational areas, have battled 
insurgents on their own, and have stood up to the militias in some 
cases.

                     IRAQ AT A PRECARIOUS JUNCTURE

    Despite these positive developments, Iraq is at a precarious 
juncture. Communal violence--accelerated by AQI's attack on the Samarra 
mosque in February 2006--and scant common ground between Shias, Sunnis, 
and Kurds have polarized politics. Indeed, the term ``civil war'' 
accurately describes key elements of the Iraqi conflict, including the 
hardening of ethnosectarian identities, a sea change in the character 
of the violence, ethno-sectarian mobilization, and population 
displacements.
    Prime Minister Maliki's national reconciliation agenda is still at 
its initial stages. The Iraqi security forces are struggling to 
complete preparations for Operation Peace and Security in Baghdad. The 
various parties have not yet shown the ability to compromise 
effectively on the thorny issues of de-Baathification, constitutional 
reform, federalism, and central versus regional control over 
hydrocarbon revenues. Provision of essential public services is 
inadequate; oil output remains below pre-war levels; hours of 
electrical power available have declined and remain far below demand; 
and inflationary pressures have grown since last year.
    With political reconciliation stalled, Iraqis increasingly resort 
to violence. The struggle among and within Iraqi communities over 
national identity and the distribution of power has eclipsed attacks by 
Iraqis against the coalition forces as the greatest impediment to 
Iraq's future as a peaceful, democratic, and unified state.

              IRAQ--PROSPECTS FOR STABILITY AND KEY ISSUES

    As the Intelligence Community states in the recent National 
Intelligence Estimate, the current security and political trends in 
Iraq are moving in a negative direction. Particularly after the 
February 2006 bombing of the mosque in Samarra, sectarian violence has 
become self-sustaining.
    Unless efforts to reverse these conditions gain real traction 
during the 12-18 month timeframe of the estimate, we assess that the 
security situation will continue to deteriorate at rates comparable to 
the latter half of 2006.
    But with reduced violence and a window created for political 
compromises, increased stability in Iraq would then depend on how 
several issues evolve. Among them:

        <bullet> The ability of the Iraqi government to establish and 
        nurture effective national institutions that are based on 
        national rather than religious or ethnic interests; and within 
        this context, the willingness of the security forces to pursue 
        extremist elements of all kinds.
        <bullet> The extent to which the Shiite feel sufficiently 
        secure in their political position: despite their recent 
        electoral victories and overall political ascendancy, the 
        Shiite at present remain deeply insecure about their hold on 
        power. This insecurity is manifested in the Shiites refusal to 
        make real concessions to the Sunnis on a range of issues, such 
        as easing of de-Baathification and clamping down on radical 
        Shiite militias.
        <bullet> The extent to which Arab Sunnis develop trust and 
        participate in the new political order: now, many remain 
        unwilling to accept their minority status, continue to resist 
        violently this new political order, and distrust the Shiite-led 
        government and its commitment to their security.
        <bullet> The extent to divisions within the Shiite and the 
        Sunni are addressed: profound intra-group divisions among the 
        Shiite and Sunnis complicate the situation, because no single 
        leader can speak for or exert control over these groups.
        <bullet> The extent to which extremists--most notably AQI--are 
        suppressed: these groups continue to conduct high-profile, 
        often mass casualty attacks that are effective accelerants for 
        the self-sustaining sectarian struggle between Shiite and 
        Sunnis.
        <bullet> Lastly, the extent to which Iraq's neighbors can be 
        persuaded to stop the flow of militants and munitions across 
        their borders: Iran's lethal support for select groups of Iraqi 
        Shiite militants clearly exacerbates the conflict in Iraq, as 
        does Syria's continued provision of safehaven for expatriate 
        Iraqi Ba'thists and less-than-adequate measures to stop the 
        flow of foreign jihadists into Iraq.

                           REGIONAL CONCERNS

    Indeed, our friends in the region are concerned about the 
consequences of growing instability in Iraq. Many are increasingly 
apprehensive about ethno-sectarian strife spilling out of Iraq and 
infecting their minority populations and all in the region are nervous 
about the growing role of radical Islamists.

                 AFGHANISTAN--RESURGENCE OF THE TALIBAN

    As in Iraq, 2007 will be a pivotal year for Afghanistan. Afghan 
leaders must build central and provincial government capacity, confront 
pervasive drug cultivation and trafficking, and, with the North 
Atlantic Treaty Organization and the United States, arrest the 
resurgence of the Taliban. At present, the insurgency probably does not 
directly threaten the government, but it is deterring economic 
development and undermining popular support for President Karzai.

                       DRUG TRADE AND CORRUPTION

    Afghan leaders also face critical challenges in building central 
and provincial government capacity and in confronting pervasive drug 
cultivation and trafficking. Neither task will be easy. The country 
faces a chronic shortage of resources and of qualified and motivated 
government officials. Further, the drug trade contributes to endemic 
corruption at all levels of government, undercutting public confidence. 
A dangerous nexus exists between drugs and the insurgents and warlords 
who derive funds from cultivation and trafficking.
    Many of our most important interests intersect in Pakistan, where 
the Taliban and al Qaeda maintain critical sanctuaries. As I noted 
earlier, Pakistan is our partner in the war on terror and has captured 
several al Qaeda leaders. However, it is also a major source of Islamic 
extremism.

              PAKISTAN--ELIMINATING THE TALIBAN SAFEHAVEN

    Eliminating the safehaven that the Taliban and other extremists 
have found in Pakistan's tribal areas is not sufficient to end the 
insurgency in Afghanistan but it is necessary. We recognize that 
aggressive military action, however, has been costly for Pakistani 
security forces and appreciate concerns over the potential for sparking 
tribal rebellion and a backlash by sympathetic Islamic political 
parties. There is widespread opposition among these parties to the U.S. 
military presence in Afghanistan and Iraq. With elections expected 
later this year, the situation will become even more challenging--for 
President Musharraf and for the U.S.

                  PROLIFERATION: STATES OF KEY CONCERN

    After terrorism, the ongoing efforts of nation-states and 
terrorists to develop and/or acquire dangerous weapons and delivery 
systems constitute the second major threat to the safety of our Nation, 
our deployed troops, and our friends.

                    TRACKING DANGEROUS TECHNOLOGIES

    The time when only a few states had access to the most dangerous 
technologies has been over for many years. Dual-use technologies 
circulate easily in our globalized economy, as do the scientific 
personnel who design and use them. As a consequence, it is more 
difficult for us to track efforts to acquire, for nefarious purposes, 
these widely available components and technologies.

         IRAN ASSESSED AS DETERMINED TO DEVELOP NUCLEAR WEAPONS

    Iran and North Korea are the states of most concern to us. The 
United States' concerns about Iran are shared by many nations, 
including Iran's neighbors. We assess that Tehran is determined to 
develop nuclear weapons--despite its international obligations and 
international pressure. It is continuing to pursue uranium enrichment 
and has shown more interest in protracting negotiations than reaching 
an acceptable diplomatic solution. This is a grave concern to the other 
countries in the region whose security would be threatened by Iranian 
nuclear weapons.

                          NORTH KOREAN THREAT

    North Korea's threat to international security is also grave. In 
July, Pyongyang flight-tested missiles and in October it tested a 
nuclear device. We remain concerned it could proliferate these weapons 
abroad. Indeed, it has a long history of selling ballistic missiles, 
including to several Middle Eastern countries. If its nuclear weapon 
and missile programs continue, North Korea threatens to destabilize a 
region that has known several great power conflicts over the last 100 
years and now includes some of the world's largest economies.
    On 13 February, the Six-Party Talks in Beijing resulted in an 
agreement on steps intended to lead to a declaration of all Democratic 
People's Republic of Korea nuclear programs and a disablement of all 
existing nuclear facilities. The agreement is the initial step in the 
denuclearization process, and we will be looking closely at 
implementation.
    Should additional countries in Northeast Asia or the Middle East 
seek nuclear weapons in reaction to Iran's or North Korea's nuclear 
programs, the global nonproliferation regime could unravel. We are 
watching several states for signs of nuclear weapons aspirations, in 
part because of reporting of past contact with A.Q. Khan and his 
network when it was active. We also are concerned about rogue or 
criminal elements willing to supply materials and technology--alone or 
with a network--without their government's knowledge.

  REGIONAL CONFLICTS, INSTABILITY, AND RECONFIGURATIONS OF POWER AND 
                               INFLUENCE

    As noted at the outset of this statement, globalization is 
contributing to conflicts, instability, and reconfigurations of power 
and influence. These consequences of globalization manifest themselves 
most clearly at the regional level, although at times we can see the 
effects across regions. Again, the attempt by states or non-state 
actors to co-opt, dominate, turn into proxies, or destroy other nation 
states is our primary concern. This is the explicitly stated goal of al 
Qaeda's leadership vis-a-vis Iraq and the Levant, and it is an accurate 
appraisal of the foreign policy aims of states like Iran. However they 
occur, violent conflicts in a given state--as we see in Africa today--
can swiftly lead to massive humanitarian tragedies and, potentially, 
regional wars.

                  THE MIDDLE EAST--AN EMBOLDENED IRAN

    In the Middle East, Iran and its neighbors see a strategic shift: 
Iran's influence is rising in ways that go beyond the menace of its 
nuclear program. The fall of the Taliban and Saddam, increased oil 
revenues, HAMAS's electoral victory, and Hizballah's perceived recent 
success in fighting against Israel all extend Iran's shadow in the 
region. Our Arab allies fear Iran's increasing influence, are concerned 
about worsening tensions between Shite and Sunni Islam, and face 
heightened domestic criticism for maintaining their decades-old 
strategic partnerships with Washington.
    Iran's growing influence has coincided with a generational change 
in Tehran's leadership. Iranian President Ahmadinejad's 
administration--staffed in large part by second-generation hardliners 
imbued with revolutionary ideology and deeply distrustful of the U.S.--
has stepped up the use of more assertive and offensive tactics to 
achieve Iran's longstanding goals.

                          IRAN--ETHNIC UNREST

    However, Ahmadinejad's supporters suffered setbacks in the recent 
Assembly of Experts and local council elections. Moreover, ethnic 
tensions in Iran's Baloch, Kurdish, and, to a lesser extent, Arab and 
Azeri areas continue to fester, creating concern in Tehran about the 
potential for broader ethnic unrest to generate large-scale anti-regime 
activity. While record oil revenues and manageable debt suggest that 
Iran is capable, for now, of weathering shocks to the economy, 
inflationary pressures, exacerbated by Ahmadinejad's expansionary 
fiscal and monetary policies, are harming Iran's consumer and 
investment climates and causing employment opportunities to decline.

                          IRAN--ACTIVE IN IRAQ

    Regarding Tehran's regional policies, Iran continues to be active 
in Iraq, seeking to influence political, economic, religious, and 
cultural developments to ensure a nonthreatening, cooperative, and 
Shiite-dominated regime to its west.

        <bullet> Iran uses radio, television, and print media to 
        influence Iraqi public opinion and help promote pro-Iranian 
        individuals in the Iraqi government at all levels. It has 
        offered financial and other support to its political allies in 
        the United Iraqi Alliance, but its electoral impact appears to 
        have been marginal, given the likelihood that Shiite voters 
        would have voted for the unified Shiite ticket anyway.

                         IRANIAN MILITARY POWER

    Iranian conventional military power threatens Persian Gulf states 
and challenges U.S. interests. Iran is enhancing its ability to project 
its military power--primarily with ballistic missiles and naval power--
with the goal of dominating the Gulf region and deterring potential 
adversaries. It seeks a capacity to disrupt the operations and 
reinforcement of U.S. forces based in the region--potentially 
intimidating regional allies into withholding support for U.S. policy--
and raising the political, financial, and human costs to the U.S. and 
our allies of our presence in Iraq. Tehran views its growing inventory 
of ballistic missiles (it already has the largest inventory of these 
missiles in the Middle East), as an integral part of its strategy to 
deter--and if necessary retaliate against--forces in the region, 
including U.S. forces.

                     IRAN--TERRORISM AND HIZBALLAH

    We assess that Iran regards its ability to conduct terrorist 
operations abroad as a key element of its national security strategy: 
it considers this capability as helping to safeguard the regime by 
deterring U.S. or Israeli attacks, distracting and weakening Israel, as 
enhancing Iran's regional influence through intimidation, and as 
helping to drive the U.S. from the region.
    At the center of Iran's terrorism strategy is Lebanese Hizballah, 
which relies on Tehran for a substantial portion of its annual budget, 
military equipment, and specialized training. Hizballah is focused on 
its agenda in Lebanon and supporting anti-Israeli Palestinian 
terrorists, but, as I indicated earlier, it has in the past made 
contingency plans to conduct attacks against U.S. interests in the 
event it feels its survival--or that of Iran--is threatened.

                       SYRIA'S REGIONAL POLICIES

    Syria has strengthened ties with Iran and grown more confident 
about its regional policies, largely due to what it sees as vindication 
of its support to Hizballah and HAMAS and its perceptions of its 
success in overcoming international attempts to isolate the regime. 
Damascus has failed to crack down consistently on militant infiltration 
into Iraq and continues to meddle in Lebanon. Lebanon remains in a 
politically dangerous situation as Damascus, Hizballah, and other pro-
Syrian groups attempt to topple the government of Prime Minister 
Siniora.

                     PALESTINIAN TERRITORIES/HAMAS

    In the Palestinian territories, inter-factional violence, which has 
intensified in the Gaza Strip and the West Bank since the establishment 
of the HAMAS-led Palestinian Authority (PA) government in March, 
threatens to escalate further absent success in forming a national 
unity government. HAMAS has continued to reject Quartet and Israeli 
demands for exp licit recognition of Israel, renunciation of armed 
resistance to Israeli occupation, and acceptance of previous 
Palestinian Liberation Organization and international agreements.

                    TURMOIL IN MAJOR AFRICAN STATES

    In sub-Saharan Africa, the picture is mixed. We see the 
consolidation of democracy in some countries and the persistence of 
political crises and violent conflict in others. Many of Africa's past 
and present crises have occurred in countries run by entrenched regimes 
with little to no real democratic foundations and weak control of areas 
outside the capital. Sudan and Somalia are cases in point. Turmoil and 
conflict threaten large portions of the sub-Saharan region, stretching 
from the Horn of Africa in the east to Nigeria in the west.

                            DARFUR CONFLICT

    The Darfur conflict is the world's fastest-growing humanitarian 
crisis, with more than 200,000 people killed, 1.85 million internally 
displaced and another 234,000 refugees in neighboring Chad. Internally 
divided rebel groups continue to fight against the government because 
the existing peace agreement fails to provide security and power 
sharing. The Sudanese military has been unable to force the rebels to 
sign the peace accord and, with assistance from local militia, is 
conducting a dry season campaign against civilian villages suspected of 
harboring the rebels.

                             SUDANESE FEARS

    Already facing the prospect that its southern region will choose to 
secede in a referendum scheduled for 2011, the Sudanese government 
fears that additional concessions to the Darfur rebels and the 
deployment of U.N. peacekeepers to the region would lead to further 
disintegration of Sudan. Chadian and Central African Republic (CAR) 
rebel groups have become entangled in the Darfur crisis, and the 
spillover of violence in the past 10 months threatens to destabilize 
already weak regimes in both countries.

                            SOMALIA TURMOIL

    The rapid collapse of the Council of Islamic Courts and arrival in 
Mogadishu of the Transitional Federal Government (TFG) has altered the 
political dynamics in southern Somalia. The TFG faces many of the same 
obstacles that have kept any single group from establishing a viable 
government in Somalia since the country collapsed in 1991. Somali 
society is divided into numerous clans and sub-clans that are reluctant 
to see one group rise above the others. To win the confidence and 
support of the population and have any chance of restoring order, the 
TFG will need to be more inclusive and demonstrate effective 
governance. More turmoil could enable extremists to regain their 
footing absent mechanisms to replace the temporary Ethiopian presence 
with an internationally-supported Somali solution. Al Qaeda remains 
determined to exploit turmoil in Somalia.

                 NIGERIA--DANGER OF DEMOCRATIC COLLAPSE

    Nigeria's fragile democratic transition is in danger of collapsing 
in the coming months due to a lack of preparations for elections 
scheduled for April. Tensions are rising over concerns that President 
Obasanjo is manipulating the process to maintain his political 
influence after his term officially ends. The government's 
institutional foundations are hollow from decades of neglect and 
corruption and will continue to make the country susceptible to 
recurring crises in the coming years. Abuja has been unable to stem 
rising lawlessness and insecurity in its oil-producing region, and the 
Nigerian population is increasingly demoralized from worsening living 
conditions in the face of much publicized improvements in the country's 
macroeconomic indicators. Major political unrest in Nigeria would 
threaten other countries in the region.

           LATIN AMERICA--GRADUAL CONSOLIDATION OF DEMOCRACY

    Gradual consolidation of democracy remained the prevailing tendency 
in Latin America over the election-packed year that concluded in 
December, despite the challenge to core democratic tenets in a few 
countries. Although some commentators spoke of a ``lurch to the left'' 
in the region, the election results point to no dominant ideological 
trend. Moderate leftists who promote macroeconomic stability, poverty 
alleviation, and the building of democratic institutions fared well, as 
did able right of center leaders. Indeed, the overall health of Latin 
American democracy is reflected in the results of a recent survey by a 
reputable Latin America polling organization: 58 percent of the 
respondents said that democracy is the best system of government. This 
number is up 5 percentage points, compared to results from the same 
poll in 2005.
    At the same time, individuals who are critical of free market 
economics and have friend ly relations with Venezuela's President 
Chavez won the presidency in two of Latin America's poorest countries, 
Ecuador and Nicaragua--both after Evo Morales' victory in Bolivia in 
December 2005.

                  STRONG SHOWING OF LEFTIST CANDIDATES

    The strong showing of presidential candidates with leftist populist 
views in several other countries speaks to the growing impatience of 
national electorates with the failure of incumbent governments to 
improve the living standards of large elements of the population. 
Public dissatisfaction with the way democracy is working is especially 
troubling in the Andes, most notably in Ecuador and Peru.

            VENEZUELA--STRUGGLE AGAINST U.S. ``IMPERIALISM''

    Democracy is most at risk in Venezuela and Bolivia. In both 
countries, the elected presidents, Chavez and Morales, are taking 
advantage of their popularity to undercut the opposition and eliminate 
checks on their authority.
    In Venezuela, Chavez has reacted to his sweeping victory on 
December 3 by increasing efforts to deepen his self-described 
Bolivarian Revolution while maintaining the struggle against U.S. 
``imperialism.'' He has announced plans to prevent a leading opposition 
television station from continuing to broadcast and moved to 
nationalize the country's main telecommunications enterprise and 
largest private electric power company. Chavez is among the most 
stridently anti-American leaders anywhere in the world, and will 
continue to try to undercut U.S. influence in Venezuela, in the rest of 
Latin America, and elsewhere internationally.

                       CHAVEZ'S WEAPONS PURCHASES

    Chavez's effort to politicize the Venezuelan Armed Forces and to 
create a large and well-armed Territorial Guard and military Reserves 
is another sign that he is breaking with the trend in the region toward 
more professional and apolitical militaries. His purchase of modern 
military equipment from Russia, including 24 SU-30 advanced fighter-
bombers, and moves toward developing his own weapons production 
capability are increasingly worrisome to his neighbors. These weapons 
purchases could fuel an arms race in the region.
    Fidel Castro's Cuba continues to be Venezuela's closest ally. 
Castro's physical debilitation will deprive Chavez of a valued mentor 
and strategic adviser. The post-Castro transition in Cuba has begun. 
Key drivers in influencing events in post-Fidel Cuba will be how 
cohesive the governing elite will remain in the absence of Cuba's 
iconic leader, how astute Raul Castro proves to be as his brother's 
successor, and how much pressure the population will exert on the 
government in seeking economic and political reforms. This year is 
likely to mark the end of Fidel Castro's domination of Cuba; but 
significant, positive change is unlikely immediately following his 
death: the period following his July 2006 operation afforded Raul 
Castro the opportunity to solidify his own position as successor.

                         MEXICO--NEW PRESIDENT

    In Mexico, President Felipe Calderon of the ruling National Action 
Party (PAN) was inaugurated on December 1 after a razor-thin margin of 
victory over his closest opponent, leftist populist Andres Manuel Lopez 
Obrador of the Party of the Democratic Revolution. The July election 
illustrated the country's polarization along socioeconomic lines. The 
new government has initiated steps to address problems that affect both 
Mexican and U.S. security concerns, including drug smuggling, human 
trafficking, and associated violence.

                         CROSSCURRENTS IN ASIA

    The rise of China and economic prosperity more generally--except 
for North Korea--are changing Northeast Asia in unprecedented ways. 
Trade and investment, driven by China's successful integration into the 
world economy through the World Trade Organization framework, is 
rapidly bringing the countries of this region closer together; but it 
still lacks mature, integrating security mechanisms, beyond the U.S. 
security treaties with Japan and South Korea.

                    CHINA--BEIJING'S FOREIGN POLICY

    In 2006, Chinese leaders increasingly moved to align Beijing's 
foreign policy with the needs of domestic development, identifying 
opportunities to strengthen economic growth, gain access to new sources 
of energy, and mitigate what they see as potential external threats to 
social stability. At one and the same time, China places a priority on 
positive relations with the United States while strengthening ties to 
the other major powers, especially the European Union and Russia.
    The Peoples Republic of China leaders continue to emphasize 
development of friendly relations with the states on China's periphery 
to assure peaceful borders. In the past year, China achieved notable 
success in improving relations with Japan under newly elected Prime 
Minister Abe and prospects for cross-straits conflict with Taiwan 
diminished. In addition to establishing strong bilateral ties, Beijing 
actively engages with many multilateral organizations, including ASEAN.

                  CHINA--RAPID MILITARY MODERNIZATION

    Beijing continues its rapid rate of military modernization, 
initiated in 1999. We assess that China's aspirations for great power 
status, threat perceptions, and security strategy would drive this 
modernization effort even if the Taiwan problem were resolved. The 
Chinese are developing more capable long-range conventional strike 
systems and short- and medium-range ballistic missiles with terminally 
guided maneuverable warheads able to attack U.S. carriers and airbases.

       CHINA--MAINTAINING DOMESTIC STABILITY AND ECONOMIC GROWTH

    Maintaining domestic social stability remains one of Beijing's top 
priorities. Rural discontent, which has erupted in an increasing number 
of local demonstrations and riots, could undermine continued rapid 
economic growth if not addressed. Hu Jintao's ``harmonious society'' 
program is an attempt to address these concerns by enhancing 
environmental protection, social service, and rule of law, while 
strengthening the Communist Party's position. The 11th 5-Year Plan 
enacted in 2006 seeks to put economic growth on a more secure footing 
by attempting to address rural complaints and extending economic 
prosperity to more disadvantaged segments of Chinese society. 
Implementation of this program would require a major shift of resources 
to the countryside, greater accountability of provincial leaders to 
Beijing, and stronger efforts to root out local corruption.
    Lastly, some aspects of China's financial system are unhealthy, 
with state-owned banks maintaining large balances of non-performing 
loans. We nevertheless see a low risk of severe financial crisis over 
the next 5 years; China is introducing market measures to the financial 
sector, and has massive foreign exchange reserves, current and capital 
account surpluses and low exposure to short-term foreign currency debt.

                INDIA--ECONOMIC GROWTH AND REGIONAL ROLE

    We expect that India's growing confidence on the world stage as a 
result of its sustained high rates of economic growth will make New 
Delhi a more effective partner for the United States but also a more 
formidable interlocutor in areas of disagreement, particularly in the 
WTO.
    New Delhi seeks to play a role in fostering democracy in the 
region, especially in Nepal and Bangladesh, and will continue to be a 
reliable ally against global terrorism, given the fact that India is a 
major target for jihadists in part because of the insurgency in 
Kashmir.

                       INDIA-PAKISTANI RELATIONS

    The 3-year peace process between India and Pakistan has lessened 
tensions in the region and both sides appear committed to improving the 
bilateral relationship. New Delhi's threshold for responding militarily 
to terrorist attacks has apparently increased since the two countries 
last approached the brink of war in 2002. The Mumbai train bombings 
last year disrupted but ultimately did not derail the composite 
dialogue and a mechanism for exchanging information on terrorist 
attacks has been established. Yet, the prospect of renewed tensions 
between the two remains despite these improved relations, and we are 
mindful that Pakistan was a major source of nuclear proliferation until 
our efforts disrupted A.Q. Khan's network.
    Nonetheless, New Delhi's concerns about Pakistan's tolerance, at a 
minimum, of terrorist attacks on Indian soil remains a dominant theme 
in relations, and risks derailing rapprochement. An attack on a high-
profile target might lead New Delhi to take action to curtail militant 
capabilities in Pakistan or Pakistani Kashmir and punish Islamabad for 
its continued support to Pakistan-based militants. We remain concerned 
about the potential that such a conflict could escalate.
    Although both New Delhi and Islamabad are fielding a more mature 
strategic nuclear capability, they do not appear to be engaged in a 
Cold War-style arms race based on a quest for numerical superiority.

               PAKISTAN--TERRORISM AND LEADERSHIP ISSUES

    For its part, as noted previously, Pakistan is a frontline partner 
in the war on terror. Nevertheless, it remains a major source of 
Islamic extremism and the home for some top terrorist leaders. The 
prospect of renewed tensions with nuclear-armed India remains despite 
improved relations, and Pakistan had been a major source of nuclear 
proliferation until the disruption of the A.Q. Khan's network. 
Meanwhile, democracy has not been fully restored since the Army took 
power in 1999. With elections expected later this year, Musharraf 
continues to be criticized for remaining both the President and Chief 
of the Army Staff, but there are no political leaders inside the 
country able to challenge his continued leadership. Musharraf's secular 
opponents are in disarray, and the main Islamic parties continue to 
suffer from internal divisions and an inability to expand their support 
base.

                            EURASIA IN FLUX

    Fifteen years after the dissolution of the U.S.S.R., post-Soviet 
Eurasia remains in a state of flux--more so than even a year ago--but 
increasingly subject to Russian assertiveness.

                     RUSSIA--SUCCESSION MANEUVERING

    As Russia moves toward a presidential election in March 2008, 
succession maneuvering has intensified and increasingly dominates 
Russian domestic and foreign policy. Against that backdrop, the last 
year has seen expanded Kremlin efforts to stifle political opposition 
and widen state control over strategic sectors of the economy. Those 
trends are likely to deepen as the succession draws closer.
    Meanwhile, high energy prices and abundant oil and gas Reserves 
continue to fan Kremlin aspirations for Russia to become an energy 
super-power. A flush economy and perceived policy successes at home and 
abroad have bolstered Russian confidence, enabled increased defense 
spending, and emboldened the Kremlin to pursue foreign policy goals 
that are not always consistent with those of Western institutions. 
Indeed, Russia is attempting to exploit the leverage that high energy 
prices has afforded it, increasingly using strong-arm tactics against 
neighboring countries.

                  RELATIONSHIP WITH U.S. AND THE WORLD

    Russian assertiveness will continue to inject elements of rivalry 
and antagonism into U.S. dealings with Moscow, particularly our 
interactions in the former Soviet Union, and will dampen our ability to 
cooperate with Russia on issues ranging from counterterrorism and 
nonproliferation to energy and democracy promotion in the Middle East. 
As the Litvinenko murder demonstrates, the steady accumulation of 
problems and irritants threatens to harm Russia's relations with the 
west more broadly.

                   OTHER EURASIAN STATES AND BALKANS

    Ukraine's political situation is also unsettled. The power struggle 
between President Yushchenko and recently re-installed Prime Minister 
Yanukovych continues to buffet Ukrainian politics and national policy.

                      UKRAINE'S ORANGE REVOLUTION

        <bullet> Ukraine's Orange Revolution brought lasting changes, 
        including greater media freedom and a strengthened role for 
        civil society. Improvements to the political process resulted 
        in free and fair parliamentary elections in March 2006. 
        However, Yanukovych's re-emergence after his party won that 
        election increased cynicism in the region about the promise of 
        ``colored'' revolutions, bolstered Russia's position in the 
        region and leaves Georgia isolated as virtually the only former 
        Soviet republic fully-committed to Euro-Atlantic integration.

    The future development of the Caucasus is likely to be intertwined 
with what may happen outside the region in Kosovo. If Kosovo gains 
independence this year--as seems likely--Russia has signaled that it 
might respond by recognizing breakaway regions in Georgia, a risky 
step.

                    CENTRAL ASIA--AMERICAN INTERESTS

    American interests in Central Asia also face increasing challenges. 
Of the five countries in the region, three--Kazakhstan, Tajikistan, and 
especially Uzbekistan--are authoritarian; another, Kyrgyzstan, is semi-
authoritarian and increasingly fearful of losing control; and the last, 
Turkmenistan, a dictatorship whose new leader is still consolidating 
power. All view our democratization agenda with suspicion. The 
repression, leadership stasis, and corruption that tend to characterize 
these regimes provide fertile soil for the development of radical 
Islamic sentiment and movements, and raise questions about the Central 
Asian states reliability as energy and counterterrorism partners.

         There is no guarantee that elite and societal turmoil across 
        Central Asia will stay within the confines of existing 
        autocratic systems. In the worst, but not implausible case, 
        central authority in one or more of these states could 
        evaporate as rival political factions, clans, or regions vie 
        for power--opening the door to a dramatic expansion of 
        terrorist and criminal activity along the lines of a failed 
        state.

              ENERGY SECURITY AND COMPETITION FOR SUPPLIES

    Energy resources have long been a critical element of national 
security but globalization, unprecedented increases in demand, and the 
interactive effects of energy and other issues have both magnified and 
broadened the significance of developments in the global energy system. 
Oil prices have fallen by more than 25 percent since their peak last 
July and spare production capacity has grown to more than 2 million 
barrels per day. Nevertheless, we have entered a new era in which 
energy security has become an increasing priority not only for the U.S. 
and the West, but also rapidly developing economies like China and 
India that are becoming major energy consumers.
    This means that developments in the energy arena, narrowly defined, 
have significant and often multiple consequences in other areas. For 
example, high and surging demand for oil and gas fueled by 5 years of 
unusually robust world economic growth have resulted in higher prices 
and windfall profits for producers. Producer nations benefiting from 
higher prices, and the potential political, economic, and even military 
advantages include several countries that are hostile to U.S. 
interests.

               INTELLIGENCE READINESS AND GLOBAL COVERAGE

    Each of these national security challenges is affected by the 
accelerating change and transnational interplay that are the hallmarks 
of 21st century globalization. Globalization has transformed the way we 
communicate and conduct business, but it has also transformed the way 
we think about challenges and opportunities and in the way we define 
and confront our foes. Indeed, it is not too much of a stretch to say 
that events anywhere can--and often do--affect our interests and the 
security of our Nation and our people. As a result, the Intelligence 
Community must maintain global coverage and the highest level of 
readiness to anticipate challenges and respond to them.

                  INTELLIGENCE TRANSFORMATION EXAMPLES

    Therefore, I offer a few examples that demonstrate the extent to 
which the Intelligence Community is transforming the way we work with 
one another and are achieving a higher level of intelligence readiness 
than was the case before September 11.

                    NATIONAL COUNTERTERRORISM CENTER

    The first example is a strengthened National Counterterrorism 
Center (NCTC), which in last 2 years has fully assumed its central role 
in our Nation's efforts against global terrorism worldwide.

         The key agencies involved are physically present and 
        integrated into NCTC's work.
         NCTC draws on 30 different networks in performing its 
        analytic and information-sharing functions.
         NCTC convenes all the key players in our counterterrorism 
        intelligence mission three times a day to ensure complete 
        coordination and face-to-face communication.

                          INFORMATION SHARING

    The second improved readiness example is the impact of our 
information sharing reform initiatives. Nothing improves intelligence 
readiness faster than information sharing with the right authorities, 
friends, and allies. Under the new Senate-confirmed Chief Information 
Officer and the Program Manager for the Information Sharing 
Environment, we have:

         Implemented a classified information sharing initiative with 
        key U.S. allies.
         Established the Unified Cross Domain Management office with 
        the Department of Defense to oversee development and 
        implementation of common technologies that enable highly 
        classified networks to share information with users and systems 
        that have lower or no clearances;
         Developed and rolled out ``blue pages'' that provide contact 
        information for all agencies with counterterrorism 
        responsibilities in the U.S. Government;
         Released the Information Sharing Environment Implementation 
        Plan and Privacy Guidelines, which provide the vision and road 
        map for better information sharing within the Intelligence 
        Community and with our fellow Federal, State, local, and tribal 
        counterparts, as well as with the private sector; and
         We are nearing completion of a significant simplification of 
        ``Sensitive but Unclassified'' rules for the U.S. Government, 
        which should further improve information sharing with State and 
        local partners.

             COVERAGE OF SUDDEN FLARE-UPS, EMERGING CRISES

    A third example of our intelligence readiness addresses the 
critical question of global coverage and dealing with sudden flare-ups. 
We have developed a new model for assessing and then tasking 
Intelligence Community organizations to ``lift and shift'' collection 
resources in response to emerging crises.
         Application of this process in support of intelligence 
        efforts against the summer 2006 Lebanon/Hizballah/Israel crisis 
        proved very effective in focusing community efforts.
         The same model is being used against the ongoing Darfur 
        crisis and in Somalia.

                            MISSION MANAGERS

    Finally, we have established Mission Managers for Terrorism, Iran, 
North Korea, Counterproliferation, Counterintelligence, Cuba and 
Venezuela. These are senior executives, empowered to act across the 
Intelligence Community, to achieve full coordination, synergy, and 
cooperation. In two cases cited earlier--Iraq and China--where the 
United States has, justifiably, the largest intelligence investment, 
and where I will join the most senior Intelligence Community members in 
being deeply and directly engaged as a team.

                               CONCLUSION

    This requirement for readiness and global coverage does not mean 
that all places and problems are equally important at a given point in 
time. We must and do accord greater attention to those that are most 
dangerous, most difficult, and most important to the policymakers, 
warfighters, and first responders who depend on information and 
insights from the Intelligence Community. The challenge we face is not 
catching up to globalization or getting ahead of globalization--it is 
recognizing the degree to which our national security is inextricably 
woven into the fabric of globalization.
    In intelligence, our focus on the military, foreign, 
counterintelligence, and domestic dimensions of the threat must be all 
of a piece, seamlessly integrated to thwart attacks, prevent surprises, 
and provide policymakers with the time and insight they need to make 
decisions that will keep Americans safe. Thank you very much.

    Chairman Levin. Thank you so much, Director.
    General Maples.

  STATEMENT OF LTG MICHAEL D. MAPLES, USA, DIRECTOR, DEFENSE 
                      INTELLIGENCE AGENCY

    General Maples. Thank you, Chairman Levin, Senator Warner, 
and members of the committee. Thank you for this opportunity to 
testify today and for your continued support to our Armed 
Forces and to the DIA. My testimony, which I have submitted for 
the record, outlines our assessments of the state of the 
insurgencies in Iraq and Afghanistan, the current threat from 
global terrorism, and proliferation of WMD. It also addresses 
defense-related developments in states and regions of concern 
and other transnational issues. As you requested, I will 
summarize a few of these issues.
    The situation in Iraq will remain an extremely complex and 
challenging security environment, as the conflict remains 
fundamentally a sectarian struggle for power and the right to 
define Iraq's future identity. We have seen recent positive 
developments, including continued development and increased 
capability of Iraq security forces, efforts to address problems 
associated with de-Baathification, and increased cooperation 
between the Sunni Arab tribes and the government in al-Anbar 
Province.
    Prime Minister Maliki has made gestures to the Sunni 
minority such as offers to reinstall some Saddam-era military 
leaders and the issuance of arrest warrants for Ministry of 
Interior personnel accused of abuses. Sadrist members of the 
Council of Representatives ended their boycott of the Council 
and the Council passed a national budget. The Government of 
Iraq seems committed and is making initial efforts to move 
forward with the Baghdad security plan.
    Despite these developments, significant challenges to U.S. 
and coalition forces remain. The Sunni Arab-based insurgency 
remains fundamentally strong, adaptable, and capable despite 
ongoing security operations, some limited progress in the 
political arena, and some improvements in the Iraqi security 
forces.
    We have noted a change in the character and the dynamics of 
the conflict. The perception of unchecked violence is creating 
an atmosphere of fear, hardening sectarianism, empowering 
militias and vigilante groups, and undermining confidence in 
government and security forces. Conflict in Iraq is in a self-
sustaining cycle in which violent acts increasingly generate 
retaliation. Insecurity rationalizes and justifies militias, in 
particular Shiite militias, which increases fears in the Sunni 
Arab community. The result is additional support or at least 
acquiescence to insurgents and terrorists such as al Qaeda in 
Iraq (AQI). Shiite militants, most notably Jaysh al-Mahdi, also 
are responsible for the increase in violence.
    Attacks by terrorist groups account for only a limited 
portion of insurgent violence. Yet the high profile nature of 
their operations and tactics have a disproportionate impact. 
AQI is the largest and most active of the Iraq-based terrorist 
groups. AQI's attacks against Iraqi government targets and 
coalition forces continue with a particular intent to 
accelerate sectarian violence and to destabilize Baghdad. AQI 
will continue to attempt to dominate the news cycle with 
sensational attacks.
    The situation in Iraq is complex and difficult, involving 
counterinsurgency operations, counterterrorism, stability 
operations, and nation-building. In this tenuous environment, 
DIA judges that continued coalition presence is the primary 
counter to a breakdown in central authority. Such a breakdown 
would have grave consequences for the people of Iraq, stability 
in the region, and U.S. strategic interests. No major political 
figure in Iraq has endorsed the notion of civil war or 
partition and most political and religious leaders continue to 
restrain their communities.
    In Afghanistan, the Taliban-led insurgency is a capable and 
resilient threat to stability, particularly in the Pashtun 
south and east. Despite absorbing heavy combat losses in 2006, 
the insurgency has strengthened its military capabilities and 
influence with its core base of rural Pashtuns. Overall attacks 
doubled in 2006 from the previous year and suicide attacks 
quadrupled from 2005. Large-scale operations increased 
significantly as well.
    DIA assesses that the Taliban-led insurgency will remain a 
threat in 2007 and its attacks will increase this spring. Al 
Qaeda remains the most dominant terrorist organization and the 
most significant threat to U.S. interests worldwide. Despite 
being forced to decentralize its network, al Qaeda retains the 
ability to organize complex mass casualty attacks and to 
inspire others. Al Qaeda's increasing cooperation with like-
minded groups has improved its ability to facilitate, support, 
and direct its objectives.
    AQI is the largest and the most deadly of the Iraq-based 
terrorist groups. It conducts the most provocative anti-Shiite 
attacks in Iraq, a hallmark of its strategy since 2003. It has 
instigated cycles of sectarian violence by characterizing its 
operations as defending Sunni interests. AQI continues to pose 
a regional threat and aspires to become a global threat.
    Pakistan's direct assistance has led to the elimination or 
capture of numerous al Qaeda terrorists. Nevertheless, the 
Afghanistan-Pakistan border area remains a haven for al Qaeda's 
leadership and other extremists.
    After global terrorism, the proliferation of WMD remains 
the most significant threat to our Homeland, deployed forces, 
allies, and interests. Increased availability of information 
together with technical advances have the potential to allow 
additional countries to develop nuclear, biological, and 
chemical weapons, and this is an area of increasing concern.
    North Korea's October 2006 detonation of a nuclear device 
marked its first nuclear test and an attempt to win 
international recognition as a nuclear power after a decades-
long program to develop these weapons. Iran also continues to 
develop WMD capabilities. Although Iran claims its program is 
focused on producing commercial capabilities, DIA assesses with 
high confidence that Iran remains determined to develop nuclear 
weapons.
    DIA expects China's nuclear weapons stockpile to grow over 
the next 10 years as new ballistic missile systems reach 
operational status. We also believe China has produced 
sufficient weapon-grade fissile material to meet its military 
nuclear weapons requirements for the immediate future.
    We expect Russia to meet strategic nuclear warhead limits 
mandated by the 2002 Strategic Offensive Reduction Treaty. 
Russia's nuclear warhead and material security programs have 
improved. However, we continue to be concerned with internal 
threats, potential of terrorist attack, and a commitment to 
maintaining security improvements.
    Ballistic missiles remain a threat to U.S. interests. North 
Korea has an ambitious ballistic missile development program 
and has exported missiles and missile technology to other 
countries. On July 4 and 5, 2006, North Korea conducted seven 
missile launches. The Taepodong 2 space launch vehicle and 
intercontinental ballistic missile (ICBM) was flight tested for 
the first time and failed shortly after launch. Despite the 
failure of the Taepodong 2, North Korea successfully tested six 
theater ballistic missiles.
    Iran's ballistic missile forces continue to train 
extensively in highly publicized exercises. These exercises 
enable Iranian ballistic missile forces to hone wartime 
operations skills and test new tactics. Iran is fielding 
increased numbers of theater ballistic missiles.
    In conventional military forces, North Korea's military 
continues to suffer the consequences of the North's economic 
decline. Nevertheless, they remain capable of initiating an 
attack on South Korea. North Korea's large force provides the 
regime with an effective deterrent and a basis to employ 
threats to further its national security goals.
    Iran's armed forces intend to rely on asymmetric tactics, 
using ballistic missiles, naval attacks in the restricted 
waters along its coasts, and possibly a strategic terror 
campaign.
    The Peoples Republic of China is in the midst of a more 
than decade-long military modernization program. China's 
leaders remain focused on improving the quality of military 
personnel and developing or acquiring long-range precision 
strike missiles, modern fighter aircraft, a blue-water navy, 
and improved amphibious forces.
    Russian leaders view a strong military as a necessary 
component to return their country to great power status. In 
general purpose forces, training activity within units of the 
permanently ready force which form the backbone of Russia's 
conventional capability is at the highest post-Soviet level. 
Modernizing the country's outdated equipment and planning 
conversion to all-contract manning remain significant 
challenges despite increased defense spending.
    Non-U.S. global defense spending grew in real terms by 2.5 
percent in 2006, amounting to an estimated $738 billion. China 
ranked first with estimated spending of $80 to $115 billion and 
Russia was second at about $90 billion. Russia is a leading 
arms exporter, with major sales of advanced weapons and 
military-related technology to China, India, Iran, and 
Venezuela.
    Russia and China continue to be the primary states of 
concern regarding developing military space and counter-space 
programs. However, as the availability of space technology and 
services continue to increase, other nations can be expected to 
acquire military and commercial space-based assets.
    Over the past few years the DIA, like the rest of the IC, 
has made major strides to improve our capabilities in 
intelligence collection, all-source analysis, and information 
management. Much has been accomplished. However, much more 
needs to be done. With your continued support, I am confident 
we will achieve greater levels of security for our citizens and 
for our national interests.
    Thank you.
    [The prepared statement of General Maples follows:]

            Prepared Statement by LTG Michael D. Maples, USA

                              INTRODUCTION

    Good afternoon Chairman Levin, Senator McCain, and members of the 
committee. Thank you for this opportunity to testify today and your 
continued support to the dedicated men and women of the Defense 
Intelligence Agency (DIA). Our Nation faces a variety of complex 
national and transnational threats and challenges. My testimony will 
outline the state of the insurgencies in Iraq and Afghanistan, the 
current threat from global terrorism and proliferation of weapons of 
mass destruction (WMD). Finally, I will discuss defense related 
developments in states and regions of concern and other transnational 
issues.

                            CONFLICT IN IRAQ

    The situation in Iraq will remain an extremely complex and 
challenging security environment as the conflict remains fundamentally 
a sectarian struggle for power and the right to define Iraq's future 
identity. We have seen recent developments that give hope for progress. 
These include efforts to address problems associated with de-
Baathification and increased cooperation between Sunni Arab tribes and 
the government in al Anbar Province. Prime Minister Maliki has made 
gestures to the Sunni minority such as offers to reinstall some Saddam-
era military leaders and the issuance of arrest warrants for Ministry 
of Interior personnel accused of abuses. Sadrist members of the Council 
of Representatives ended their boycott of the council and the council 
passed a national budget. Some rogue elements from Muqtada al-Sadr's 
movement have also been expelled from his organization. Finally, the 
Government of Iraq seems committed and is making initial efforts to 
move forward with the Baghdad Security Plan.
    We note the continued development and increased capability of the 
Iraqi security forces (ISF) and police. The ISF will meet initial 
manning, training, and equipment milestones, improving unit 
capabilities. Nevertheless, the ISF will remain dependent on coalition 
support. ISF units continue to struggle with sectarian militia 
influence and instilling discipline in their formations to gain 
legitimacy with the population.
    Despite these positive developments, significant challenges to U.S. 
and coalition forces remain. As the recent Iraq National Intelligence 
Estimate noted, Iraqi society's growing polarization, the persistent 
weakness of the security forces--and the state in general--and all 
sides' ready recourse to violence are collectively driving an increase 
in violence. Unless efforts at reversing these conditions show 
measurable progress in the next 12 to 18 months, the security situation 
will continue to deteriorate at rates comparable to late 2006.
    The Sunni Arab-based insurgency remains fundamentally strong, 
adaptable, and capable despite ongoing security operations, some 
limited progress in the political arena and some improvements in the 
ISF. Improvised Explosive Devices (IED) use increased in 2006 and was 
responsible for roughly 60 percent of coalition casualties. Greater 
insurgent emphasis on anti-helicopter tactics is responsible for 
downing approximately eight coalition and contractor helicopters in the 
past month. Insurgents also began combining toxic industrial chemicals, 
such as chlorine gas, with their IEDs. Overall attacks averaged 
approximately 180 per day in January 2007, equal to the previous high 
in October 2006. The daily average of attacks against ISFs in January 
remained consistent with recent months averaging approximately 30 per 
day. Daily attacks on civilians in January averaged almost 50 per day, 
up from the previous high in October 2006 of approximately 40 per day.
    We have noted a change in the character and dynamics of the 
conflict. The perception of unchecked violence is creating an 
atmosphere of fear, hardening sectarianism, empowering militias and 
vigilante groups, hastening a middle-class exodus, and shaking 
confidence in government and security forces. The sectarian violence, 
an inexperienced and weak central government, immature institutions, 
problems in providing basic services, and high unemployment are 
encouraging more Iraqis to turn toward sectarian groups, militias, and 
insurgents for basic needs, threatening the unity of Iraq. Moreover, 
robust criminal networks act as insurgent and terrorist force 
multipliers. Many Sunni Arabs, motivated by fear, financial incentive, 
perceptions of marginalization, and exclusion from Iraqi government and 
security institutions, act as insurgent sympathizers, capable of 
supporting the insurgency.
    Since 2003, the fight to define post-Saddam Iraq has been primarily 
an intra-Arab conflict to determine how power and authority will be 
distributed. We note that conditions for the further deterioration of 
security and stability exist within this ongoing struggle. Although a 
significant breakdown of central authority has not occurred, Iraq has 
moved closer to this possibility because of weak governance, increasing 
security challenges, and the lack of a national compact.
    Conflict in Iraq is in a self-sustaining cycle in which violent 
acts increasingly generate retaliation. Insecurity rationalizes and 
justifies militias, in particular Shiite militias and increases fears 
in the Sunni Arab community. The result is additional support, or at 
least acquiescence, to insurgents and terrorists such as al Qaeda in 
Iraq (AQI). Shiite militants, most notable Jaysh al-Mahdi, account for 
some of the increases in violence.
    Baghdad is the center of the Shiite and Sunni Arab conflict as both 
groups fight for territory and political influence. Sectarian attacks 
constitute most of the violence in mixed-ethnic areas in and around the 
capital, while coalition forces remain the primary target in the Shiite 
south and Sunni west.
    ISF, particularly the Ministry of Interior forces, are infiltrated 
and influenced by members of the Supreme Council for Islamic Revolution 
in Iraq's Badr organization and Muqtada al-Sadr's Jaysh al-Mahdi. The 
Jaysh al-Mahdi often operates under the protection or approval of Iraqi 
police. Many Sunnis view the ISF as a Shiite led tool of oppression. 
Some Jaysh al-Mahdi cells may operate outside Sadr's direct guidance 
and conduct independent operations.
    Attacks by terrorist groups account for only a fraction of 
insurgent violence, yet the high-profile nature of their operations and 
tactics have a disproportionate impact. AQI is the largest and most 
active of the Iraq-based terrorist groups. AQI's attacks against Iraqi 
government targets and coalition forces continue with a particular 
intent to accelerate sectarian violence and destabilize Baghdad. AQI is 
one of the most visible perpetrators of anti-Shiite attacks in Iraq and 
has capitalized on the current cycle of sectarian violence by 
increasing perceptions its operations are in defense of Sunni 
interests. AQI will continue to attempt to dominate the news cycle with 
sensational attacks. Ansar al-Sunna, the second most prominent 
terrorist group in Iraq, also poses a threat to stability in Iraq; 
however its longstanding ties to AQI are increasingly strained. Hard 
numbers for foreign fighters in the Iraq insurgency are unavailable. 
DIA judges less than 10 percent of insurgents are foreign fighters. The 
majority of these individuals are used as suicide bombers.
    The building, training, and deploying of ISF and police is 
progressing, although politicization of the security ministries remains 
a challenge. The ISF are meeting the initial manned, trained, and 
equipped milestones, have improved unit capabilities, and are 
increasingly taking the lead in security operations. They remain 
generally dependent on coalition support. We judge the ISF are 
presently unable to stand alone against Sunni insurgents, AQI and 
Shiite militias.
    Iraqi government officials continue attempts to achieve national 
reconciliation, but attacks against civilians, a key driver of ethno-
sectarian conflict, also continue. Political leaders' inability to 
resolve key issues such as federalism, de-Baathfication, amnesty for 
insurgents, and militia integration also contribute to continued Sunni 
Arab discontent, fueling support for terrorist and insurgent groups. 
Sectarian differences limit the effectiveness of government as groups 
maintain hard-line stances on contentious issues.
    The Iraqi economy has experienced moderate growth despite the 
security situation, which continues to impede and increase overall 
costs of reconstruction. However, the inability to realize significant 
improvements in the oil and fuels sector and in electricity production 
and distribution creates drag on the economy while undermining the 
average Iraqi citizen's support for the central government and 
coalition.
    The situation in Iraq is complex and difficult, involving 
counterinsurgency operations, counterterrorism, stability operations, 
and nation building. In this tenuous environment, DIA judges that 
continued coalition presence is the primary counter to a breakdown in 
central authority. Such a breakdown would have grave consequences for 
the people of Iraq, stability in the region, and U.S. strategic 
interests. No major political figure in Iraq has endorsed the notion of 
civil war or partition, and most political and religious leaders 
continue to restrain their communities. Although leaders across the 
political spectrum who are participating in the government continue to 
talk and search for a positive way forward, the challenges to bringing 
stability and security with a cohesive, unified, and effective 
government remain significant.

                        CONFLICT IN AFGHANISTAN

    The Taliban-led insurgency is a capable and resilient threat to 
stability in Afghanistan, particularly in the Pashtun south and east. 
Despite absorbing heavy combat losses in 2006, the insurgency 
strengthened its military capabilities and influence with its core base 
of rural Pashtuns. Overall attacks doubled in 2006 from the previous 
year. Suicide attacks quadrupled from 2005 levels and large-scale 
operations--those involving 50 or more fighters--increased 
significantly as well. A sustained international military and Afghan 
security presence in the volatile Pashtun south and east alongside 
credible civil administration is essential for solidifying central 
government control. Otherwise, the Afghan government may find itself in 
a stalemate with insurgents where it maintains control over cities and 
insurgents retain freedom of movement in the Pashtun dominated 
countryside.
    Al Qaeda's strategic objectives--re-establishing the Islamic 
caliphate, unified by a common ideology rooted in a violent rejection 
of apostasy and characterized by fervent opposition to Western 
influence in traditionally Islamic countries--compel al Qaeda's 
commitment to the Afghan jihad, help shape its strategy there, and help 
to recast Afghanistan as a critical battleground in a broader battle 
against the West and apostate regimes. In a July 2005 letter, Ayman al-
Zawahiri framed the jihad in Afghanistan as a vanguard for ultimately 
establishing an Islamic state in the Levant, Egypt and neighboring 
states in the Arabian Peninsula and Iraq; multiple public statements by 
Zawahiri have since repeated this point.
    The Afghan government is maintaining generally favorable and stable 
relations with most, but not all, of its neighbors. Afghanistan's 
relations with Pakistan are strained due to continued Taliban reliance 
on safe-haven in Pakistan.
    In 2006, efforts by the government and provincial governors 
resulted in the greatest poppy eradication in 4 years. However, the 
Afghan drug trade remains a major source of revenue for insurgents and 
is a corrupting influence over government officials. Poppy cultivation 
will continue unless improved alternative livelihood programs, law 
enforcement, and judicial reform are implemented.
    President Karzai's administration has been struggling to improve 
its performance and expand its presence. Although the Afghan government 
has established national-level political institutions by drafting a new 
constitution, holding a legitimate presidential election, and creating 
a democratically elected National Assembly, local governments receive 
limited resources from Kabul and struggle to provide effective 
governance. Additionally, the Afghan National Army and Police have been 
unable to effectively promote security, particularly in the volatile 
south and east. They remain hindered by a shortage of skilled 
personnel, tribal and ethnic rivalries, and corruption.
    Nearly 5 years after the Taliban's fall, many Afghans expected the 
situation to be better by now and are beginning to blame President 
Karzai for the lack of greater progress. These unrealized expectations 
contributed to an erosion of support for his administration. 
Nevertheless, President Karzai is still the most powerful political 
figure in Afghanistan. President Karzai will need to secure successes 
in the months ahead to convince Afghans that his administration can 
counter and eventually defeat the Taliban. DIA assesses the Taliban led 
insurgency will remain a threat in 2007 and its attacks will increase 
this spring.

                            WAR ON TERRORISM

Al Qaeda and Sunni Extremists
    Developments over the last year have highlighted the continuing 
threat posed by terrorism to the security of the United States. The 
United States and its allies achieved major successes against al Qaeda 
and its associated movement, including the elimination or capture of 
key leaders and the disruption of major plots. These achievements 
unfortunately highlight the resiliency of these groups and resonance of 
their message. In June 2006, Canadian authorities detained 17 
individuals who were planning a series of attacks in Ontario province 
to include bombings, seizing Canadian Parliamentary buildings and a 
broadcast center, and taking hostages. Also, documents captured in a 
raid on an AQI safehouse in Iraq revealed AQI was planning terrorist 
operations in the U.S. The disrupted plots underscore both the 
accomplishments achieved in union with our partners in the war on 
terrorism and the continuing danger posed by al Qaeda. Despite being 
forced to decentralize its network, al Qaeda retains the ability to 
organize complex, mass-casualty attacks and inspire others.
    Al Qaeda remains the most dominant terrorist organization and the 
most significant threat to U.S interests worldwide. In 2006, al Qaeda 
remained a loose network, broadly defined by the strategic objective of 
re-establishing their version of an Islamic caliphate, and unified by a 
common ideology rooted in the violent rejection of Western influence, 
especially in traditionally Islamic countries. Al Qaeda has 
consistently recovered from losses of senior leadership. Despite the 
deaths and capture of key operatives, new but less experienced leaders 
step forward and remain committed to transnational terrorist 
operations, including in the United States. Additionally, al Qaeda's 
increasing cooperation with like-minded groups has improved its ability 
to facilitate, support, and direct its objectives. For example, in his 
2006 September 11 anniversary video, Zawahiri announced that the 
Algerian Group for Salafist Preaching and Combat formally aligned 
itself with al Qaeda.
    Al Qaeda senior leadership in Afghanistan and Pakistan remain under 
pressure from U.S. and our global war on terrorism partners' military 
and intelligence efforts, hindering their ability to direct global 
operations. The increased number of statements issued last year by al 
Qaeda leadership, in particular Ayman al-Zawahiri, indicate the 
continuing strategic role Osama bin Ladin and al-Zawahiri seek to play 
despite their isolation. This rhetoric is designed primarily to provoke 
Arab and Islamic audiences to undertake militant activities, regardless 
of locale or affiliation, in order to broaden and deepen their 
perceived global struggle; it is also designed to maintain influence 
over that struggle, to maintain recruitment and morale, and to place 
local insurgencies into the context of the wider global struggle.
    AQI is the largest and most deadly of the Iraq-based terrorist 
groups. It continues to target Iraqi government interests and coalition 
forces. AQI conducts the most provocative anti-Shiite attacks in Iraq--
a hallmark of its strategy since 2003. It has instigated cycles of 
sectarian violence by characterizing its operations as defending Sunni 
interests. Furthermore, AQI continues to pose a regional and a desire 
to become a global threat. Seized documents and interrogations reveal 
AQI's intent to continue external attack planning.
Chemical, Biological, Radiological, and Nuclear Terrorism
    Some terrorist groups see employing chemical, biological, or 
radiological materials as low-cost, high-impact options for achieving 
their goals. Even an inefficient dissemination of these materials, or a 
hoax incident, could have a substantial psychological and economic 
impact. Reporting continues to indicate that non-state actors, 
specifically al Qaeda, continue to pursue chemical, biological, 
radiological, and nuclear (CBRN) options. Osama bin Laden has openly 
declared his interest in such materials since the 1990s. The recent 
press claim made by the AQI leader asking for nuclear scientists to 
make `germ' and `dirty' weapons reinforces al Qaeda's interest and 
desire to acquire CBRN materials. CBRN-related information is widely 
available, and if terrorists were to use unconventional materials in an 
attack, we believe they likely would use low-level biochemical agents 
such as ricin, botulinum toxin or toxic industrial chemicals such as 
cyanide. In addition to these low-level biochemical agents, al Qaeda 
exhibited an interest in anthrax, mustard, and sarin prior to Operation 
Enduring Freedom. We also judge that al Qaeda and other terrorist 
groups have the capability and intent to develop and employ a 
radiological dispersal device. At this time, we do not believe that al 
Qaeda has a nuclear weapon capability, although acquisition remains a 
goal; the acquisition of sufficient weapons usable nuclear material 
remains al Qaeda's key obstacle to an improvised nuclear capability.
Other Terrorist Groups
    Lebanese Hizballah continues training Iraqi Shiite militias. 
Hizballah also continues to provide support to Palestinian terrorist 
elements to facilitate attacks in Israel. Iran's Islamic Revolutionary 
Guard Corps-Qods Force has the lead for its transnational terrorist 
activities, in conjunction with Lebanese Hizballah and Iran's Ministry 
of Intelligence and Security.
    The Revolutionary Armed Forces of Colombia (FARC) continues to view 
U.S. Government and DOD personnel as legitimate targets in Latin 
America. The FARC has held three U.S. DOD contractors hostage since 
2003. The possibility of the FARC targeting U.S. interests and persons 
will remain as long as we are directly involved in Colombian 
counterdrug and counterterrorism efforts.
Islamic World
    Favorable opinion of Sunni extremists is waning among Muslims 
worldwide. Muslim casualties in the 2005 Amman bombings accelerated the 
decline that began in response to al Qaeda's attacks against Iraqi 
civilians. In a summer 2006 multi-country poll conducted by a U.S. 
nongovernmental organization, approximately 25 percent of Jordanians 
expressed a lot or some confidence in Osama bin Laden compared to 60 
percent the year before. In Pakistan, approximately 38 percent of 
respondents stated they had some level of confidence in Osama bin 
Laden, compared to 51 percent in May 2005.
    Opinions of the west remain low in many Muslim countries. The 
caricatures of the Prophet Muhammad eroded the good will gleaned from 
U.S. relief efforts. Many Muslims believe the cartoons were deliberate 
insults and part of a western besiegement of Islam. Muslim public 
opinion will continue to be sensitive to perceived affronts to Muslim 
values.
    The Sunni-Shiite divide remains largely a vehicle for Muslim power 
politics. Sunni and Shiite governments will continue cooperation 
through their surrogates when presented with a common enemy, such as 
the coalition in Iraq or Israel. Where the sponsors' interests 
diverge--as with their spheres of influence in Iraq or on the African 
periphery of the Islamic world--conflict will increase as competition 
for influence intensifies.
    Islamic extremist groups will continue to attempt to gain popular 
support by exploiting governments' shortcomings in governance, 
corruption, economic development, and provision of critical services.
    Extremism in Europe remains more a secular issue than a religious 
one. Many within Europe's burgeoning Muslim population increasingly 
voice discontent through extremism and violence with Europe's 
integration attempts. Extremism throughout the West will continue to be 
spread primarily through radical clerics, the Internet, and in prisons.
Egypt
    Egypt is generally supportive of U.S. goals and objectives. Most 
recently, President Mubarak's government has tried to mediate between 
HAMAS and Israel to secure the release of a captured Israeli soldier. 
Egypt's overall security environment is generally stable although 
susceptible to terrorist attacks as demonstrated by the April attacks 
on the Multinational Forces and Observers mission and on civilian 
targets in the Sinai Peninsula.
Other Persian Gulf States
    Gulf Cooperation Council (GCC) states are stable, but leaders are 
concerned that instability in Iraq, the threat of terrorism, and a more 
aggressive Iran will directly affect them. Counterterrorism cooperation 
is improving, with pledges being made to increase regional 
effectiveness in the war on terrorism. There has also been progress in 
developing legal frameworks for the prosecution of terror planners and 
facilitators, although prosecution in the courts remains difficult. 
Despite GCC-wide acknowledgement of the Sunni extremist threat, two 
Sunni regimes with substantial Shiite minorities--Saudi Arabia and 
Kuwait--and one with a Shiite majority--Bahrain--have a fear of their 
Shiite population's ability to threaten internal stability; a concern 
likely related to their fear of Iranian hegemony.
Pakistan
    Pakistan's direct assistance has led to the death or capture of 
numerous al Qaeda terrorists. A series of counterterrorism successes 
earlier this year delayed al Qaeda attack planning and temporarily 
diminished leadership resources. Nevertheless, the Afghanistan Pakistan 
border area remains a haven for al Qaeda's leadership and other 
extremists. In a September accord with the Pakistan government, North 
Waziristan tribes agreed to curtail attacks into Afghanistan, cease 
attacks on Pakistani forces, and expel foreign fighters. However, the 
tribes have not abided by most terms of the agreement. Al Qaeda's 
network may exploit the agreement for increased freedom of movement and 
operation.
    The Pakistan government remains at odds with Afghanistan over the 
Taliban's presence in Pakistan. Additionally, Pakistan-based militants 
continued attacks against India undermine Pakistan's ability to make 
lasting peace with its neighbor.
Southeast Asia
    Thailand continues to struggle with entrenched Muslim separatist 
unrest in its southern-most provinces. Approximately 400 individuals 
were killed in shootings, arson attacks, and bombings in 2006--
approximately the same number as 2005--although we cannot confirm that 
all such incidents were insurgency related. The insurgency is home 
grown, although local Muslim extremists have sought to emphasize 
solidarity with ``oppressed'' Muslims worldwide in order to incite 
hatred against Thailand's Buddhist majority. The government, installed 
following the September coup, has adopted a conciliatory approach that 
it hopes will ease tensions; but the insurgency is a decentralized 
movement and many younger militants appear intent to continue the 
struggle.
    Separatist unrest elsewhere in Southeast Asia has been largely 
contained, in part, through government reconciliation efforts. 
Indonesia continues to successfully advance last year's historic peace 
accord that ended the 29-year conflict in the Aceh province, with 
elections on December 11. Sporadic separatist violence in Indonesia's 
Papua province poses no serious security threat. The Philippines also 
achieved success sustaining a ceasefire in its Muslim south with the 
Moro Islamic Liberation Front, although a risk of resumed fighting 
persists in the absence of an agreement. Elsewhere in the south, 
Philippine military operations since August have increased pressure on 
the terrorist Abu Sayyaf Group and Jemaah Islamiyah operatives on Jolo 
Island. These groups nonetheless are intent on continuing attacks, 
posing a persistent threat to American interests.

                      WEAPONS OF MASS DESTRUCTION

NBC Weapons
    After global terrorism, the proliferation of WMD remains the most 
significant threat to our Homeland, deployed forces, allies, and 
interests. Increased availability of information together with 
technical advances has the potential to allow many new countries to 
develop nuclear, biological, and chemical weapons. This is an area of 
increasing concern.
    North Korea continued to develop its WMD capability in 2006. North 
Korea's October detonation of a nuclear device marked its first nuclear 
test and an attempt to win international recognition as a nuclear power 
after a decades-long program to develop these weapons. North Korea 
could have produced several nuclear weapons from plutonium produced at 
its Yongbyon facilities. While North Korea may agree to give up 
plutonium production, major uncertainties surround the conditions under 
which the North would entirely abandon its nuclear weapons capability 
or of the likelihood of the North transferring nuclear weapons-related 
technology abroad. North Korea's resources include a biotechnical 
infrastructure that could support the production of various biological 
warfare agents. DIA believes North Korea has had a longstanding 
chemical weapons stockpile of nerve, blister, blood, and choking 
agents.
    Iran also continues to develop its WMD capabilities. Although Iran 
claims its program is focused on producing commercial electric power, 
DIA assesses with high confidence Iran remains determined to develop 
nuclear weapons. In 2007, DIA expects further progress including 
completion of a nuclear reactor Fuel Manufacturing Plant and 
installation of additional centrifuges at Natanz. Iran has a growing 
biotechnology industry, significant pharmaceutical experience, and the 
overall infrastructure that could be used to support a biological 
warfare program. DIA believes Iran is pursuing development of 
biological weapons. Iran has a large and growing commercial chemical 
industry that could be used to support a chemical agent mobilization 
capability.
    DIA expects China's nuclear weapons stockpile to grow over the next 
10 years as new ballistic missile systems reach operational status. DIA 
also believes China has produced sufficient weapon-grade fissile 
material to meet its military nuclear weapons requirements for the 
immediate future. DIA believes China continues to maintain some 
elements of an offensive biological weapons program. China possesses a 
sufficiently advanced biotechnology infrastructure to allow it to 
develop and produce biological agents.
    Russia maintains a full compliment of nuclear weapons. Although 
thousands of warheads have been dismantled, Russia relies on nuclear 
weapons as its primary means of deterrence and will continue to 
maintain and improve its forces and warheads. While we expect Russia to 
meet strategic nuclear warhead limits mandated by the 2002 Strategic 
Offensive Reduction Treaty (Moscow Treaty), we also believe they will 
continue to maintain a relatively large stockpile of non-strategic 
nuclear warheads. Russia's nuclear warhead and material security 
programs have improved. However, we continue to be concerned with the 
insider threat, terrorist attacks, and Russia's commitment to 
maintaining security improvements. We judge Russia also continues 
research and development that could support its chemical and biological 
warfare programs.
    India and Pakistan are building larger stockpiles of fission 
weapons and are likely to work on advanced warhead and delivery system 
designs to increase the effectiveness of these weapons. Both nations 
have the infrastructure to support biological and some aspects of their 
chemical warfare programs.
    Syria has pursued development of a strategic deterrent principally 
based on ballistic missile, chemical, and, to a limited extent, 
biological warfare programs, as a means of countering Israel's 
conventional force superiority. Syria's biotechnical infrastructure is 
capable of supporting limited biological agent development. DIA 
assesses Syria has a program to develop select biological agents. Syria 
has had a chemical weapons program for many years and already has a 
stockpile of the nerve agent sarin, which can be delivered by aircraft 
or ballistic missiles.
Ballistic Missiles
    North Korea has an ambitious ballistic missile development program 
and has exported missiles and missile technology to other countries, 
including Iran and Pakistan. North Korea continues to develop the Taepo 
Dong 2, which could reach parts of the United States and is capable of 
carrying a nuclear payload. On 4-5 July 2006, North Korea conducted 
seven widely-published launches. The Taepo Dong 2 space launch vehicle/
intercontinental ballistic missile was flight-tested for the first time 
and failed shortly after launch. Despite the failure of the Taepo Dong 
2, North Korea successfully tested six theater ballistic missiles, 
demonstrating the capability to target U.S. forces and our allies in 
South Korea and Japan. North Korea is also developing a new 
intermediate-range ballistic missile and a new short-range, solid-
propellant ballistic missile. Export of North Korea ballistic missiles 
will continue to be a concern.
    Iran's ballistic missile forces continue to train extensively in 
highly publicized exercises. These exercises enable Iranian ballistic 
missile forces to hone wartime operations skills and new tactics. Iran 
continues its efforts to develop and acquire ballistic missiles capable 
of striking Israel and central Europe. It is fielding increased numbers 
of theater ballistic missile, and claimed it has incorporated anti-
missile defense tactics and capabilities into its ballistic missile 
forces.
    China continues to modernize and expand its ballistic missile 
forces to improve survivability and conventional war-fighting 
capabilities. It also continues to field a large number of conventional 
short-range ballistic missiles opposite Taiwan and is currently 
developing a number of new mobile conventional medium range systems. 
Beyond increasing the capabilities of its theater ballistic missile 
force, China continues to develop and test three strategic long-range 
missile systems--the DF-31 and DF-31A road-mobile Intercontinental 
Ballistic Missiles (ICBMs) and the JL-2 Submarine-Launched Ballistic 
Missile (SLBM). China remains committed to developing conventional 
ballistic missiles capable of targeting U.S. and allied military assets 
in the region to deter intervention in a Taiwan crisis.
    Russia remains committed to maintaining formidable strategic 
nuclear forces as a credible nuclear deterrent and symbol of great 
power status. Russia began fielding its new road-mobile SS-27 
intercontinental ballistic missile in 2006 and fielding silo-based 
variants is ongoing.
Cruise Missiles
    Advances in anti-ship cruise missiles, land-attack cruise missiles, 
and armed unmanned aerial vehicles will continue to threaten deployed 
U.S. forces and our allies. The number of systems achieving operational 
status, exports, and the sale of dual-use technology continues to fuel 
this threat. Advancements in anti-ship cruise missiles including the 
capability for land-attack will present a challenge in countering these 
missiles.
    China's development of a Tomahawk-class ground-launched land-attack 
cruise missile continues and will enable it to execute strikes in the 
Asian theater. Iran continues to pursue development and production of 
improved anti-ship cruise missiles. During the conflict with Israel, 
Lebanese Hizballah became the first non-state actor to launch an anti-
ship cruise missile. In several unsuccessful attacks, Hizballah also 
launched probable Iranian-supplied unmanned aerial vehicles; at least 
one was armed with explosives. Pakistan continues flight-testing 
indigenous land-attack cruise missiles. The Indian Navy has begun 
taking delivery of the ship-launched version of the Russian/Indian 
Brahmos supersonic anti-ship cruise missile.
Major Exporters
    North Korea and entities in Russia and China continue to sell 
technologies applicable to WMD and missiles for revenue and diplomatic 
influence. Russian entities continue to support missile programs and 
civil nuclear and biotechnology projects in other countries. Some of 
these projects can have weapons applications.
    Chinese entities continue to supply key technologies to countries 
with WMD and missile programs, though it appears to be living up to its 
1997 pledge to limit nuclear cooperation with Iran.
    North Korea remains committed to selling missiles and related 
technologies. Although sales have declined to most customers due to its 
increasing international isolation, North Korea's relationship with 
Iran and Syria remain strong and of principal concern.
    Nongovernmental entities and individual entrepreneurs remain a 
concern. Past revelations regarding the A.Q. Khan nuclear proliferation 
network demonstrate how a complex network of suppliers with the 
requisite expertise and access to the technology, middlemen, and front 
companies can successfully circumvent international controls and 
support multiple nuclear weapons programs. Other examples of WMD-
related supplier networks include those headed by Chinese national Q.C. 
Chen, which operated various supplier organizations over the past 
several years. Chen has been subjected to U.S. sanctions in violation 
of the Iran Non-Proliferation Act.

                  OTHER STATES AND REGIONS OF CONCERN

North Korea
    North Korean military forces continue to suffer the consequences of 
the North's economic decline. Nevertheless, they remain capable of 
initiating an attack on South Korea. Its large force provides the 
regime with an effective deterrent against the prosperous and modern 
South and the self-perceived option of employing threats to further 
North Korean national security goals.
    No immediate prospect of regime collapse is evident. Kim Jong Il 
continues to maintain tight control over the military, government, and 
communist party. North Korea's pervasive ideological indoctrination has 
helped foster extreme nationalism which contributes to the strength of 
the regime.
Levant Conflict
    The Israel Defense Forces damaged some of Hizballah's arsenal and 
many of its buildings, but Hizballah's leadership remains unscathed and 
probably has already replenished its weapons stockpiles with Iranian 
and Syrian assistance. Lebanon was compelled to deploy the Lebanese 
Armed Forces (LAF) to the south, though the LAF has not moved to disarm 
Hizballah. Additionally, the Lebanese government has now been told it 
is accountable for what occurs on all Lebanese territory as a result of 
U.N. Security Council Resolution 1701.
    Hizballah leaders claimed victory and grew more assertive in their 
political demands as demonstrated by opposition demonstrations in 
Beirut. Hizballah is currently focused on asserting political dominance 
in Lebanon. Iran and Syria remain committed to Hizballah's survival. 
Israeli defense officials have publicly opined that due to the fluid 
situation, the conflict could reignite during the summer of 2007.
Iran
    Iran continues to push for a reduced U.S. military presence in the 
Persian Gulf and Central Asia and weakened ties between the U.S. and 
its key Arab allies. Iran does not expect to militarily defeat any US-
led coalition in the event of a conflict. Rather, it seems intent on 
imposing greater costs than western leaders and publics are willing to 
bear. As shown in its highly publicized Noble Prophet exercises, Iran 
intends to rely on asymmetric tactics, using its ballistic missiles, 
naval attacks in the restricted waters along its coast against U.S. 
forces, and possibly a strategic terror campaign to disrupt U.S. war 
plans. Iran has sought to improve its capabilities through equipment 
upgrades, procurement, and exercises. Iran may be in the process of 
receiving the SA-15 air defense system from Russia, adding to its 
short-range air defense capability. Iran may also eventually acquire 
other advanced defense systems. Anti-ship cruise missiles, a small boat 
fleet, sea mines, and submarines comprise Iran's efforts to contest 
access to the Persian Gulf.
    Meanwhile, Iran is attempting to expand its own regional influence. 
Iran seeks to bring Iraq into its sphere of influence and is providing 
economic aid to both win Iraqi hearts and minds and to gain an economic 
foothold. Iran is assisting Iraq's infrastructure needs; it recently 
agreed to supply kerosene to Kurdish areas, and intends to build a gas 
pipeline and rail lines between the two countries. Iran is also 
providing lethal aid to some Shiite elements.
    Iran probably is pursing a dual-track policy in Afghanistan of 
publicly promoting Afghan stability, while possibly supporting some 
insurgent groups. This approach reflects Iran's intent to maximize 
political influence, hedge against uncertainty in Afghanistan by 
building relationships with several groups, and maintain pressure on 
U.S. forces.
    Iran also continues to support Hizballah for countering Israeli and 
U.S. efforts in the region, especially after Hizballah's perceived 
success against Israel during clashes in July 2006.
Syria
    Syria continues to support and help arm Hizballah to protect Syrian 
interests in Lebanon and provide leverage against Israel, which it 
continues to view as its greatest threat. Syrian interference in 
Lebanon is likely to continue, aimed at influencing Lebanon's policies 
on Hizballah, Israel, and the U.N. investigation of the assassination 
of former Lebanese Prime Minister Hariri.
    The Syrian leadership is trying to balance a complex mix of 
objectives in Iraq. These include preventing U.S. success in Iraq and 
encouraging our eventual withdrawal, while at the same time improving 
relations with the Baghdad government, supporting a unified Iraq, and 
avoiding a full-blown Iraqi civil war. Syria remains the primary 
insurgent gateway into Iraq due to corruption, smuggling networks, and 
cross-border tribal ties.
    Syria continues to make minor improvements to its conventional 
forces. It did not make any major weapons acquisitions in 2006, 
continuing a trend begun in the mid-1990s. Instead, the Syrian military 
has focused its limited defense procurement dollars on low cost-high 
impact weapons such as anti-tank guided missiles, advanced tactical 
surface-to-air missiles like the SA-24, and upgrades to existing 
platforms. Syria also maintains an active chemical weapons program.
    We judge the regime is generally stable with no cohesively 
organized opposition supported by a domestic constituency. The regime 
considers Islamic extremism its greatest internal threat.
China
    The People's Republic of China (PRC) is in the midst of a more-
than-decade-long military modernization program. The program's 
announced defense budget in 2006 was approximately $35 billion--a 14 
percent increase from 2005--but we assess actual spending to be higher. 
PRC leaders remain focused on improving the quality of military 
personnel and developing or acquiring long-range, precision-strike 
missiles, modern fighter aircraft, a blue-water navy, and improved 
amphibious forces. China took delivery of the final three SS-N-27B-
capable Kilo-class submarines over the past year, completing its 
contract with Russia for eight of these submarines. China continued 
fielding its first indigenously built fourth-generation F-10 fighters. 
In addition, China remains focused on counterterrorism, domestic 
security, and maritime deployments, which hone its ability to respond 
to domestic instability and tensions in the East China or South China 
Seas.
    China's strategic course appears to focus primarily on internal 
issues, and its foreign policy is driven by several related internal 
concerns: continuing economic development, maintaining communist party 
control, and safeguarding internal stability. Recent PRC publications 
assert China's commitment to peaceful development. However, a major 
driver of Chinese foreign policy is the acquisition of adequate 
supplies of resources and materials for its development. China's energy 
demands, particularly petroleum, have risen sharply. China is the 
world's second largest consumer and third largest importer of oil, 
importing over 40 percent of its needs. China's continued search for 
energy may become a point of contention between itself and the West, 
potentially affecting its policy towards Iran, a key Chinese energy 
supplier.
    Unification with Taiwan remains a long-term national goal. China's 
cross-strait policy through the Taiwan Presidential Elections in 2008 
is to ``prevent Taiwan independence.'' As long as Taiwan takes no 
further action toward independence, we judge China--assessing long-term 
military, economic, and diplomatic trends favors its interests--will 
not try to force unification. Also, recent political difficulties by 
Taiwan's President Chen Shui-bian probably reassured China's leaders 
over the course of its present policy.
    China remains committed to resolving North Korea's nuclear issue 
through the Six-Party Talks and voted in the UN Security Council to 
support international sanctions on the Kim Jong Il regime after North 
Korea's provocative nuclear weapons test and multiple missile launches. 
The talks produced an agreement in February 2007 on initial actions to 
implement the September 2005 Joint Statement on denuclearizing the 
Korean Peninsula.
Russia
    Presidential succession politics will preoccupy Russia over the 
next 2 years. As the end of President Putin's second term draws near in 
2008, the battle for power and property will take increasing precedence 
over policymaking. We judge defense policy will not be a significant 
issue in the campaign and, whichever candidate is elected, it will not 
likely result in significant changes in Russian defense policy the 
first year in office.
    Russian leaders view a strong military as a necessary component to 
return their country to great power status. They believe Russian 
strategic and non-strategic nuclear capabilities are key factors in 
deterring aggression. To meet future mission requirements, 
modernization initiatives are ongoing, with primary emphasis on the SS-
27 ICBM and Bulava SLBM strategic systems. In the general purpose 
forces, training activity within units of the Permanently Ready Force 
(PRF), which form the backbone of Russia's conventional capability, is 
at their highest post-Soviet level. In 2006, Russian military 
participation in exercises with foreign militaries increased by over 50 
percent over the 2005 level. No 2006 exercise rose to the significance 
of the 2005 Russo-Chinese exercise, although additional Russian naval 
exercises in the Black Sea and an increased number of air/ground 
exercises with Central Asian and European countries were notable. 
Modernizing the country's outdated equipment and planning conversion to 
all-contract manning remain significant challenges despite increased 
defense spending. Converting the PRF to an All-Volunteer Force is 
likely to take longer than planned, since Russia is having significant 
problems in both attracting new and retaining already-signed 
contractees. Dissatisfaction comes primarily from perceived low pay, 
hostile service conditions, inadequate housing, poor family support, 
and other unfulfilled government promises.
    Russia has made progress in suppressing North Caucasus separatists 
by employing more effective counterinsurgency operations and co-opting 
insurgents to fight former compatriots. Although weakened, small 
insurgent groups continue attacks on Russian targets in the region.
    Russia opposes closer integration of former Soviet countries with 
the west. It has been especially adamant that Georgia abandon its 
western-leanings and has condemned the Georgian government for its 
``anti-Russian'' policies. Russia remains steadfast in its peacekeeping 
commitments in the Georgian separatist area of Abkhazia and South 
Ossetia, although its presence there is a source of contention between 
Russia and Georgia.
    Russia opposes comprehensive sanctions on Iran, in part to protect 
its own economic interests with Iran. Russia continues to press Iran to 
cease uranium enrichment activities, if only temporarily, and tone down 
its inflammatory rhetoric.
    Russia's primary focus on the North Korean nuclear issue is to 
prevent an escalation to war. It stresses the necessity of the Six-
Party Talks to resolve the conflict in a peaceful way. Russia viewed 
North Korea's October 2006 nuclear test as a blow to the 
nonproliferation regime.
Latin America
    Nearly a dozen presidential elections in 2006 produced winners 
ranging from pro-business center-right to market-friendly social 
democrats and radical populists. Venezuela's President Chavez won re-
election and is following his mentor, Cuban President Fidel Castro, and 
President Chavez's vision for the continent. Venezuela cooperates with 
Cuban projects abroad. Key to this ideology is President Chavez's 
agenda to neutralize U.S. influence throughout the hemisphere. Regional 
military spending is increasing, Venezuelan purchased weapons and 
services from Russia, Iran, and China. Since 2005, Venezuela signed 
contracts with Russia for 24 Su-30MK2 advanced fighter aircraft, 50 
transport and attack helicopters, and 100,000 assault rifles. President 
Chavez found allies in the newly-elected presidents of Bolivia and, to 
a lesser extent, Ecuador and Nicaragua.
    In Cuba, Raul Castro is firmly in control as Cuba's acting 
president and will likely maintain power and stability after Fidel 
Castro dies, at least for the short-term. Raul Castro has widespread 
respect and support among Cuban military leaders who will be crucial in 
permanent government succession.
Africa
    While there has been progress towards democracy and the diplomatic 
resolution of conflict in much of Africa, such advances remain fragile. 
In Sudan, despite a peace agreement that ended a 21-year long civil war 
between the north and south, violence and human insecurity in Darfur, 
Sudan are the worst since 2003-2004. Sudan is pursuing a military 
solution, using Arab ``Janjaweed'' militias to attack rebels and 
civilians. The African Union Mission in Sudan (AMIS) lacks the capacity 
to contain the violence, but the Sudanese government continues to 
oppose converting AMIS into a U.N. force. Since 2003, fighting has 
displaced over 2.2 million people, resulted in over 200,000 deaths, and 
contributed to instability in neighboring Chad and Central African 
Republic. Finally, statements from senior al Qaeda leaders have 
advocated attacks against U.N. or North Atlantic Treaty Organization 
peacekeepers if deployed to Darfur, creating an additional threat to 
Western forces.
    In Nigeria, upcoming presidential elections will test the strength 
of the fledgling democracy as the public prepares for the first 
civilian-to-civilian transfer of power since independence. The 
potential for violence remains high as candidates from the 
predominantly Muslim north and Christian south compete for office. 
Among the leading issues is administration of Nigeria's oil wealth. 
Violence over control and access to oil in the Niger Delta has resulted 
in the kidnapping of oil workers, destruction of oil facilities, and a 
25-percent reduction in oil production over the past year. Nigerian 
security forces have been unable to secure the vast oil infrastructure 
from militant attacks. Some oil companies warn that continued violence 
may prompt them to curtail future operations.
    Somalia's Transitional Federal Government (TFG) is attempting to 
establish its legitimacy, and provide security and governance in 
Mogadishu. Somali nationalists and reorganizing remnants of the former 
Council of Islamic Courts (CIC) are initiating insurgent-style attacks 
to undermine the TFG and drive Ethiopian forces out of Somalia. We 
assess members of East Africa al Qaeda (EAAQ) and former CIC forces 
fled south to Kismayo and Ras Kamboni on the Kenyan border with 
Ethiopian forces in pursuit, intending to eliminate senior EAAQ leaders 
and their training camps before withdrawing. In January, the Ethiopian 
government announced it achieved its goals in Somalia and began 
redeploying a major portion of its combat forces to Ethiopia.

                          TRANSNATIONAL ISSUES

Insurgencies
    Insurgencies continue in other parts of the world. The only major 
insurgency in Latin America is the FARC. Its power and scope has waned 
under President Uribe's counterinsurgency efforts and that trend is 
expected to continue in 2007. Additionally, President Uribe may reach a 
peace agreement with the National Liberation Army, Colombia's second 
largest insurgent group. Colombia will also continue efforts to 
complete the complex paramilitary demobilization. In Sri Lanka, 
fighting between government forces and the Liberation Tigers of Tamil 
Eelam (LTTE) intensified since last summer. The situation is likely to 
remain unstable, marked by flare-ups of fighting and LTTE bombings and 
assassinations. Clashes between government and rebel forces in Eastern 
Chad continue. The looting of the U.N. humanitarian key supply point in 
Abeche during the most recent attacks has impeded international 
humanitarian efforts in eastern Chad. Recent government successes 
against rebels have diminished insurgent violence in eastern Chad and 
reduced the prospects of an imminent rebel attack toward N'djamena. 
Inter-tribal violence between black African and Arab tribes continues 
fueling tensions along the Chadian-Sudanese border.
Global Defense Spending
    Non-U.S. global defense spending grew in real terms by 2.5 percent 
in 2006, amounting to an estimated $738 billion. China ranked first 
with spending of $80-115 billion, according to DIA estimates. Russia 
was second at about $90 billion. The top 10 countries account for 
almost two-thirds of total spending, or $480 billion. Of the top ten 
spenders, China and South Korea increased spending in real terms the 
most, by 9.6 percent and 9.9 percent respectively. Surging economies 
allowed Russian defense spending to grow an estimated 6.4 percent and 
Indian by 4.2 percent. Defense spending by oil exporters, Iran and 
Venezuela, grew 6.7 percent and 12.5 percent respectively. We judge 
these trends will continue in 2007.
    China and India are major buyers of advanced weapons systems and 
military technology, with acquisitions for the past 2 years of $3.4 
billion and almost $12 billion, respectively. When combined with joint 
doctrine, increased training, and supported by adequate logistics, 
these advanced systems have the ability to significantly improve 
military capabilities. Venezuela emerged as a major arms buyer with 
acquisitions valued at $4.3 billion for the past 2 years. Venezuela has 
turned to Russia for hi-tech weaponry, including multi-role fighters 
with advanced air-launched missiles. Pakistani and Iranian purchases 
also have grown in the past 2 years, with Pakistan signing arms 
contracts worth almost $3 billion and Iran almost $1.7 billion.
    Russia and China are of particular note as proliferators of 
conventional weapons. Russia is a leading arms exporter, with major 
sales of advanced weapons and military-related technology to China, 
India, Iran, and Venezuela. Items include multi-role fighter aircraft, 
ground equipment, major surface combatants and submarines, advanced air 
defense systems, and sophisticated communication and radar systems. 
Chinese sales declined to approximately $500 million in 2006 after 
surging to over $2 billion in 2005. China is a leading supplier to sub-
Saharan Africa.
International Crime
    Some terrorist organizations, primarily the FARC and the Taliban, 
derive income from opiates and stimulants in drug-producing regions, 
like Afghanistan, South America, and Asia. In addition to direct 
profits from drug sales and the distribution of opiates and narcotics, 
some groups, like the Taliban, derive income from taxation along the 
drug trafficking route. For the FARC, the drug-trade is an integral 
source of revenue. Some South American based supporters of Lebanese 
Hizballah are suspected of sending a portion of their profits from 
narcotics trade to the group in Lebanon.
Space and Space-Denial Capabilities
    Russia and China continue to be the primary states of concern 
regarding military space and counterspace programs. As the availability 
of space technology and services continues to increase, other nations 
already possessing capabilities in key areas will acquire military and 
commercial space-based assets. Increasing levels of international 
cooperation, along with the growing number of commercial space 
consortia, is allowing the proliferation of advanced satellite 
technologies and knowledge of space systems operations to become 
available to nations lacking a domestic space capability. These 
developments provide some countries new or more capable communications, 
reconnaissance, and targeting capabilities as most space systems have 
dual-use, military-civilian applications.
    Several countries continue to develop capabilities that have the 
potential to threaten U.S. space assets, and some have already deployed 
systems with inherent anti-satellite capabilities, such as satellite-
tracking laser range-finding devices and nuclear-armed ballistic 
missiles. A few countries are seeking improved space object tracking 
and kinetic or directed energy weapons capabilities. Earlier this year 
China successfully tested an anti-satellite (ASAT) weapon system that 
destroyed an old Chinese weather satellite in orbit. This successful 
test demonstrates China's capability, should it choose, to eventually 
deploy an ASAT system that could threaten U.S. satellites. However, 
developing these technologies is financially taxing, and most countries 
other than China assessed to be pursuing these capabilities are not 
expected to acquire them within the next few years. Other states and 
non-state entities are pursuing more limited and asymmetric approaches 
that do not require excessive financial resources or a high-tech 
industrial base. These efforts include denial and deception, electronic 
warfare or signal jamming, and ground segment physical attack.
Information Operations (IO)
    Information technology (IT) is integral to virtually all aspects of 
U.S. national and economic security. IT also is a truly global 
industry, and the U.S. is growing ever more dependent on foreign 
suppliers in order to maintain our political, military, and economic 
position. The increasing role of international companies and foreign 
individuals in information technologies and services used by U.S. 
critical infrastructures raises the specter of persistent, stealthy 
subversion, particularly by hostile foreign intelligence and military 
services with computer network operations (CNO) capabilities, but also 
by international terrorist or criminal organizations. The exclusion of 
foreign-origin products from sensitive networks or applications will 
become increasingly difficult to implement or verify.
    Russia has the most highly developed, capable, and well-resourced 
IO capability among potential foreign adversaries. Russian foreign and 
military intelligence, as well as the Russian Security Service, have 
active offensive and defensive CNO programs. Assessed capabilities 
include insider recruitment, cryptology, viruses, software and hardware 
attacks, and remote penetration.
    China has developed an apparent large scale CNO program, including 
military exercises to refine and implement concepts. China's robust 
presence in the global IT hardware and software supply chain enhances 
its technical expertise and IO capability. China is the number one IT 
hardware provider for U.S. consumers, accounting for 42 percent of U.S. 
IT hardware imports in 2005. As such, U.S. dependence on China for 
certain items critical to the U.S. defense industry and the waning of 
U.S. global IT dominance are valid concerns that demand vigilance.
Public Health Security
    The uncontrolled spread of disease remains a significant 
international health concern. A nation's inability to control or 
contain diseases within its borders can have a negative impact 
worldwide. Conversely, rapid and effective responses enhance 
international safety. Thailand recently limited the spread of the H5N1 
avian influenza by rapidly controlling outbreaks among poultry. 
Indonesia's continued struggle to control H5N1 raises the risk for an 
international pandemic. H5N1 remains a serious threat, with 
approximately 110 human infections and 80 deaths in 2006. H5N1 is only 
one of many potential infectious threats.
    Damage to industrial or hazardous material storage facilities 
during armed conflict also poses catastrophic health risks. During 
Hizballah missile attacks in July 2006, Israel moved significant 
amounts of potentially hazardous materials from the Haifa area to 
prevent the potential release of toxic industrial chemicals. Trans-
boundary environmental issues also pose health and security threats. In 
2006, in Cote d'Ivoire, the illegal dumping of hazardous waste shipped 
from other countries resulted in 10 deaths and triggered mass 
demonstrations.
Underground Facilities
    The rising importance of hardened or deeply buried facilities to 
potential adversarial nations and non-national organizations is 
becoming more apparent each year. Whether those nations and non-
government organizations are classified as rogue, major, or emerging 
powers, or terrorist groups, their critical military, leadership and 
national security assets are increasingly protected by these 
facilities. The growth and sophistication of hard and deeply buried 
targets is especially significant among countries whose support for 
terrorism and potential possession of WMD constitute threats to world 
peace and U.S. security. Of concern is what these countries have 
learned from U.S. military successes over the last decade in the 
Balkans, Afghanistan, and Iraq. Their new and modified facilities 
incorporate features that make them more survivable against known U.S. 
weapons. Moreover, these countries are exporting underground 
construction techniques, and construction equipment.

                               CONCLUSION

    Our Nation is engaged in a long war against terrorism and violent 
extremism. We are faced with a multitude of issues and events that 
affect our national security. The intelligence professionals of the DIA 
will continue to provide critical information to our warfighters, 
defense planners, and national security policymakers. In concert with 
our fellow Intelligence Community members and allies, we are supporting 
our soldiers, sailors, airmen, and marines engaged in combating 
insurgents in Iraq and Afghanistan and terrorists globally. This effort 
remains our first priority. We are also focusing considerable resources 
to prevent or counter the proliferation of WMD. Finally, we are 
carefully monitoring states of concern and other transnational issues.
    Over the past few years, the DIA, like the rest of the Intelligence 
Community, has made major strides to improve our core business 
processes of intelligence collection, all-source analysis, and 
information management. With your support, the DIA has expanded our 
human and technical collection. Our human intelligence collectors are 
better trained, supported, and integrated with their Intelligence 
Community counterparts and our own military forces across the globe. In 
all-source analysis, we have increased the number of analysts with 
advanced and technical degrees. Those analysts are equipped with better 
IT systems and more rigorously trained in the use of cutting edge 
analytic techniques. Improvements in our information management systems 
and procedures are critical to achieving the information sharing 
environment mandated by the Intelligence Reform and Terrorism 
Prevention Act. Today analysts, collectors, and our customers, to 
include national security policymakers, warfighters, the weapons 
acquisition community, law enforcement agencies, and our coalition 
partners, are better connected and have greater access to our 
information and all-source analysis. Much has been accomplished; 
however, more needs to be done. With your continued support, I am 
confident we will achieve greater levels of security for our citizens, 
our national interests, and those of our allies. Thank you.

    Chairman Levin. Thank you, General.
    Dr. Fingar, do you have a statement?
    Dr. Fingar. I do not, Senator. I contributed to Mr. 
McConnell's statement.
    Chairman Levin. Thank you so much.
    Why don't we try a 6-minute round for our first round.
    Director McConnell, let me first note that in your opening 
statement you made the following point, that, ``as the IC 
states in the recent NIE, the current security and political 
trends in Iraq are moving in a negative direction.'' I am 
wondering, General Maples, whether you agree with that 
assessment.
    General Maples. Sir, I do agree with that assessment.
    Chairman Levin. Director, there has been a number of 
statements made by just about every one of our military 
leaders, our civilian leaders, that without a political 
settlement in Iraq there will not be an end to the violence in 
Iraq. Do you agree with that assessment?
    Admiral McConnell. Yes, sir, I do agree with that.
    Chairman Levin. The Prime Minister of Iraq has said that 
the failure of political leaders in Iraq to reach a political 
settlement is the main cause for the continuance of the 
bloodletting in Iraq. Is that something you agree with?
    Admiral McConnell. I would agree that the failure to reach 
national reconciliation is a major cause and the sectarian 
nature of the various parties causes such deep distrust that it 
will make it very difficult to achieve that reconciliation over 
the next year or so.
    Chairman Levin. General Maples, the testimony of the 
Director is that the ``term `civil war' accurately describes--
key elements of the Iraqi conflict, including the hardening of 
ethno-sectarian identities, a sea change in the character of 
the violence, ethno-sectarian mobilization, and population 
displacements.'' Do you agree with that assessment?
    General Maples. Yes, sir.
    Chairman Levin. I would like to ask you next, Director, 
about the Iraqi view of what our commitment is. The President 
of Iraq has said following his meeting with our President that 
President Bush assured him that we will remain in Iraq until 
the Iraqis ask us to leave. President Bush indeed himself has 
said that we will remain in Iraq until or as long as needed or 
until the Iraqis ask us to leave, words to that effect.
    Does that continue to be the Iraqi appraisal of what our 
commitment is? Does it continue to be that open-ended in their 
mind?
    Admiral McConnell. I would believe that that continues to 
be their understanding. However, I would highlight that we are 
seeing now some questions and some comments about various 
players. I think publicly, officially that is their announced 
policy, but we do see questions.
    Chairman Levin. Questions in their minds?
    Admiral McConnell. Yes, sir.
    Chairman Levin. Now, the New York Times reported on 
February 23 that in the first few days of the operation 2,500 
American troops took part, but only about 300 Iraqi forces 
participated. That is very different from what the expectation 
was when the surge was announced. My question is, is it your 
understanding, Director, that Iraqi troops are taking the lead 
yet or is it still U.S. forces that are acting as the tip of 
the spear?
    Admiral McConnell. Sir, my understanding is that they are 
in the process of taking the lead. One of the problems was 
having fully manned units when they arrived in Baghdad to take 
up defensive positions. So it is a work in progress is how best 
to describe it.
    Chairman Levin. As of this point, have they taken the lead 
yet?
    Admiral McConnell. In some places, yes, sir.
    Chairman Levin. In Baghdad?
    Admiral McConnell. In some places in Baghdad, yes, sir.
    Chairman Levin. Would you let us know for the record what 
those places are where the Iraqis have taken the lead in 
Baghdad?
    Admiral McConnell. All right.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. What is Sadr's position on the surge? We 
have read different things in the past 2 days actually as to 
whether he opposes the surge, whether he opposes the United 
States' increased number of troops, which is what was in the 
press yesterday. Today in the media it suggests that maybe he 
does not oppose it. What is Sadr's position?
    Admiral McConnell. Sir, the answer to the question is I do 
not know what Sadr's position is. We have seen a variety of 
reporting in one direction or the other, so I would be guessing 
if I gave you a definite answer. We have seen it both ways.
    Chairman Levin. I would like to ask you about the weapons 
that are coming into Iraq. What terms would you use to 
characterize the IC's confidence that the weapons that are 
going to the Shiite militias, which are the most deadly type of 
explosive weapons, are coming with the knowledge of the top 
Iranian government officials?
    Admiral McConnell. I would answer it at three levels, 
Senator. First of all, we know there are Iranian weapons 
manufactured in Iraq. We know that Quds Forces are bringing 
them into Iran. Now, if the question is, is there a direct link 
from Quds Forces delivering weapons to the most senior 
leadership in Iran, we do not have evidence that there is or 
there is not. My assessment would be that that would be the 
awareness, with the awareness, of the knowledge. But there is 
not a direct link that we can point to.
    Chairman Levin. Without a direct link, would it be not your 
assessment that it is probable that the top leaders in Iran 
would know of that activity?
    Admiral McConnell. Yes, sir, exactly. I would phrase it as 
probable, but again no direct link.
    Chairman Levin. Because that is very different from what 
the White House was saying the other day, where they were just 
simply saying we do not have a direct link, but without being 
apparently willing to characterize the likelihood of leadership 
knowledge in Iran of those deliveries as probable. But you do 
not have reluctance to do that, and I, by the way, must tell 
you I am not surprised by your assessment. But you apparently 
do not have a reluctance. You are confident or you are 
comfortable saying it is probable?
    Admiral McConnell. Yes, sir, I am comfortable saying it is 
probable, and I took part in some of those discussions and so 
we looked at the evidence, did we have a clear direct link that 
we could point to, and high-confidence intelligence was not 
there. So that the sense was we could conclude, since these are 
Iranian weapons, this is an official Iranian body, it would be 
unlikely that they would be coming in without senior awareness.
    Chairman Levin. Has Iran's influence in Iraq grown since 
the fall of Saddam?
    Admiral McConnell. Yes, sir, it has.
    Chairman Levin. Would you say it has increased 
significantly?
    Admiral McConnell. I would agree with the word 
``significantly,'' yes, sir.
    Chairman Levin. Now, what assistance is flowing from Iraq's 
neighbors to the Sunni insurgents, including funding, weapons, 
and recruits?
    Admiral McConnell. Less defined. The information is less 
clear. But I would say in all those areas there is some flow to 
the Sunni side in terms of funding and weapons and recruits.
    Chairman Levin. What countries are those weapons coming 
from?
    Admiral McConnell. Weapons could come from a variety of 
countries. Syria probably is one of the major places. There is 
very close cooperation between Iran and Syria with regard to 
providing arms to Hezbollah. So there are a number of channels 
that it could come from around Iraq.
    Chairman Levin. What countries other than Syria could 
either weapons or funding for the Sunni insurgents come from?
    Admiral McConnell. I do not have any direct information to 
tell you that we have clear evidence that it is definitely 
coming from any one particular government. But there are 
indications that it could be a variety of countries around 
Iraq, and also from private donors, as opposed to----
    Chairman Levin. What other countries besides Syria?
    Admiral McConnell. Sir, I do not have----
    Chairman Levin. You said a number of countries.
    Admiral McConnell. Private donors that live--
    Chairman Levin. Oh, no, not donors; countries. You said 
that there is evidence that weapons or money for weapons is 
coming from a number of countries. The one you singled out was 
Syria, but what other countries?
    Admiral McConnell. Maybe I misspoke, Senator. What I was 
attempting to say is donors from countries around the area. One 
would be inside Saudi Arabia, as an example.
    Chairman Levin. What is your assessment as to the 
likelihood that Iraq will make the political compromises that 
are essential in everybody's mind on the sharing of power, 
particularly on de-Baathification, on a militia law, and on the 
provincial election law, those four items? There has apparently 
been progress now on the petroleum revenue divisions, that has 
now been cabinet-approved. But on those other four critical 
political issues, what is your assessment as to the likelihood 
that those political issues will be resolved this year?
    Admiral McConnell. Senator, I think it would be a very 
difficult challenge to get them all closed out with a 
reconciliation that would meet the compromise interests of each 
party. If I could expand on that just for a second, the Shiites 
in my view are not confident of their position and their 
majority, and are worried that the Sunnis may come back and 
dominate the country. The Sunnis in fact are not yet willing to 
admit that they are no longer in charge and are going to be 
hard-pressed to meet an agreement in a government of 
reconciliation.
    My view is the Kurds are participating and biding their 
time to protect Kurdish interests, and it could happen, but it 
will be fraught with difficulty.
    Chairman Levin. Is it your assessment that pressure is 
useful to be placed on the Iraqi political leaders in order to 
achieve those political compromises?
    Admiral McConnell. I think the Iraqi political leaders have 
close to impossible tasks. One, the sectarian violence on the 
one hand; and two, pressure to make progress. The question is 
will leadership emerge and be capable of taking the country to 
the next level.
    Chairman Levin. Is it useful that there be pressure placed 
on them to make compromises?
    Admiral McConnell. Pressure in any situation is always 
useful, sir, to keep people focused on the objective and moving 
forward.
    Chairman Levin. I am going to call on Senator Warner. 
Although I do not have my blue card, I think I must be way over 
because I have a sense of the clock usually.
    Senator Warner. Do not forget you are now chairman. I would 
not worry about it. [Laughter.]
    Chairman Levin. I am going to follow your lead, Senator 
Warner, and worry about my colleagues the way you always did.
    Senator Warner. I want to pick up on the chairman's 
observation with regard to the active participation now or the 
nonparticipation now of the Iraqi forces in this Baghdad 
campaign referred to as the surge. Some of us have expressed 
concerns about the addition of 21,500 new American forces in 
this campaign. I speak for myself. My concerns are that the 
American GI does not have the experience to understand the 
cultural differences between the Shiite and the Sunni; and why 
some individuals go forth with their wanton killing activities 
after we have, as a Nation together with our partners, 
sacrificed so much life, blood, and treasure to give that 
nation sovereignty. It is highly perplexing.
    So my question goes back to the President's statement on 
January 10 in which he said: ``Now let me explain the main 
elements of this effort. The Iraqi government will appoint a 
military commander and two deputy commanders for their capital. 
The Iraqi government will deploy Iraqi army and national police 
brigades across nine districts. When these forces are fully 
deployed, there will be 18 Iraqi army and national police 
brigades committed to this effort, along with the local police. 
These Iraqi forces will operate from local police stations--
conducting patrols and setting up checkpoints, and going door-
to-door to gain the trust of the Baghdad residents.''
    Next paragraph. Now he refers to the American troops: ``Our 
troops will work alongside the Iraqi units and be embedded in 
their formations. Our troops will have a well-defined mission: 
to help Iraqis clear and secure neighborhoods, to help''--I 
repeat, ``to help them protect the local population, and to 
help ensure that the Iraqi forces left behind are capable of 
providing the security Baghdad needs.''
    Now, I have been working as hard as I know how to get a 
better picture of this situation since this program is well 
under way. I hope I am wrong, and that the operation will 
succeed, but I do not see strong evidence that the Iraqi forces 
are measuring up in any amount to what the President laid down 
on January 10, and then subsequently the President as Commander 
in Chief ordered our troops to go in.
    There are brave, very brave journalists embedded with our 
troops who are a good source of information. The New York Times 
on February 23 reported as follows: ``For the first few days of 
the operation, 2,500 American troops took part, compared with 
about 300 Iraqi forces and a mix of police and army personnel. 
The original plan called for Iraqis to work with the United 
States troops throughout the night to enforce curfews and 
otherwise ensure that gains of the previous day were not lost. 
But the Iraqis were shifted to buttress a day force.''
    Then on February 26, the Washington Post reported: 
``Obviously, the soldiers lacked the necessary information 
about where to look and whom to look for, said the government 
engineer,'' talking about our troops there. ``But U.S. troops, 
Iraqi soldiers, and officials in Baghdad say the plan is 
hampered because security forces cannot identify, let alone 
apprehend, the elusive perpetrators of the violence. Shiite 
militiamen in the capital say they are keeping a low profile to 
wait out the security plan. U.S. commanders have noted 
increased insurgent violence in the Sunni-dominated belt around 
Baghdad and are concerned the fighters are shifting their focus 
outside the city.''
    One of our officers called up the Iraqi commander and he 
would not even answer the telephone. I do not see that level of 
participation as going forward.
    Again, another quote from the Washington Post: ``U.S. 
troops, Iraqi soldiers, and officials in Baghdad say the plan 
is hampered because security forces cannot identify, let alone 
apprehend, the perpetrators. U.S. commanders have noted 
increased insurgent violence,'' and so forth.
    I do not find where the plan as laid down by the President, 
clearly delineating what the Iraqi forces should be doing, is 
carrying forward. I hope you can correct this, General Maples. 
You should have a good understanding of what the Iraqis are 
doing and not doing as a part of this surge plan today, 
tomorrow, in the immediate future. General?
    General Maples. Senator, I believe we are in the early 
stages of the implementation of the Baghdad security plan, and 
we are in transition right now. The first thing that you 
mentioned was the appointment of a commander, and in fact 
General Abboud has been appointed as the commander. He is 
taking charge. He has been very active, and he apparently is 
demonstrating a very level approach to his command. That is, he 
is not showing a sectarian bias in his approach to the command.
    His subordinate commanders have been appointed. His command 
post has been established and the command and control 
architecture is starting to be put into place.
    Senator Warner. Why didn't we start the program after these 
components were in place, before we put U.S. forces in harm's 
way? That is my question. Do you have any further facts to 
share with this committee and Congress about the participation 
today of the Iraqi forces?
    General Maples. Sir, the Iraqis have moved two of the three 
brigades they said they would move into Baghdad.
    Chairman Levin. But they showed up with half force levels, 
did they not?
    Admiral McConnell. Sir, the range that I have seen in the 
battalion manning is between 43 and 82 percent of manning in 
those battalions.
    Chairman Levin. I will ask you to amplify this question for 
the record, because I think it is extremely important.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. Admiral McConnell, do you see any linkage 
in the Iranian activities in the Iraqi arena? First we have 
this information about weapons that seem to be manufactured in 
Iraq coming in, and they are among the most lethal weapons, 
rendering the utilization of some of our heaviest and most 
vital equipment somewhat precarious, and other activities. Is 
there any linkage between that and our effort jointly with the 
security council partners to bring about a cessation of Iran's 
capability to manufacture nuclear weapons?
    In other words, are these two actions related in any way?
    Admiral McConnell. First of all, Senator, I do not see any 
direct linkage from Iran dictating events inside Iraq. Now, 
that said, the fact that Iran could contribute weapons, 
particularly weapons that can penetrate armored vehicles and so 
on, raises the cost to the United States. So I do believe there 
is a connection. I believe Iran because of a variety of 
reasons--the potential for nuclear weapons, increased oil 
revenues, pain for the United States--is seeing itself in a 
different light.
    So I think there is a connection in that the weapons 
inflict pain on U.S. forces and potentially Iraqi forces, but 
not directly tied to nuclear weapons.
    Senator Warner. I read carefully the testimony of both 
witnesses on North Korea. You recognize that on February 13 the 
Six-Party Talks resulted in an agreement. What does our 
intelligence show that the North Koreans will likely carry out 
this agreement? Do you have any consensus at this time that 
this first step--which I applaud the administration for taking 
and I think it is a concrete first step--that the successive 
steps will take place?
    General Maples?
    General Maples. Sir, we are seeing the North Koreans take 
the initial steps to comply with the agreement, particularly 
with respect to the inspection of the Yongbyon reactor. There 
are a number of successive steps, as you have noted, that we 
are going to pay very close attention to. As the chairman 
mentioned, there are parts of this nuclear program that we have 
to pay a lot of attention to to see if we have the kind of 
disclosure and the inspection capabilities that we are looking 
for.
    Senator Warner. Do we have in place the intelligence 
infrastructure to deliver on this information, Admiral 
McConnell, in North Korea?
    Admiral McConnell. Not at the level we would like, sir. We 
can verify many of the conditions from external observation, 
but not at the level you are asking about in terms of detail. 
There are some open questions, but so far the indications are 
in the positive direction.
    Senator Warner. Remember the old phrase, ``Trust but 
verify.''
    Admiral McConnell. Yes, sir.
    Senator Warner. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    Senator Bill Nelson.
    Senator Bill Nelson. I am stunned by the candor of the 
Admiral and the General and want to thank you for this candor, 
the likes of which has been lacking enormously in the past by 
previous witnesses.
    I am enormously gratified to the chairman and Senator 
Warner for the directness of their questions. It has led this 
Senator to the conclusions which you have corroborated, that 
these additional troops are not going to work until there is a 
political settlement. Now, as a follow-up to questions that you 
have already postured, let me ask you about Iran. Do we know 
how many Iranian agents are operating in Iraq?
    Admiral McConnell. Sir, I have some information in a 
general sense. Let me ask Dr. Fingar, who would have more of 
the details and may have a more precise number than I do.
    Dr. Fingar. Senator, unfortunately we do not have a good 
number. The Iranians have been active in Iraq since the Saddam 
era. They have supported members of the Shiite coalition, 
Supreme Council for the Islamic Revolution in Iraq, and now 
support the Sadrists. We know they have many channels of 
influence. We do not have a good estimate on how many and 
precisely where they are.
    Senator Bill Nelson. Let us go back to Iran. Admiral, 
General, give us a sense of President Ahmadinejad's power base 
in Iran. Is he likely to lose power to some of the moderate 
forces, and what is the prospect that those moderate voices 
would start to be heard in the Iranian government?
    Admiral McConnell. Sir, I took a look at this question just 
recently because of interest as I am coming up to speed as the 
new DNI. Unfortunately, I did not like what I found. He remains 
popular. He has staffed the cabinet and those around him with 
hard-liners.
    The economy is strong because of the oil revenues. There 
are inherent systemic problems in the economy, but oil revenues 
are making the programs work at some level.
    He is promising in a populist way to alleviate poverty and 
do training and so on. The long-range plan he cannot execute, 
but in the short-range he is currently popular and those around 
him have the reins of power.
    I would ask General Maples if he has additional 
information.
    General Maples. I agree with that assessment.
    Senator Bill Nelson. Back to Iraq. In response to the 
leaders' questions, you mention that the Iraqi units reporting 
in Baghdad are manned at the rates from 43 to 82 percent. That 
of course is quite to the contrary of what we had been told, 
not only on this committee but in the Senate Select Committee 
on Intelligence (SSCI) and in the Senate Foreign Relations 
Committee, that indeed they were going to be fully manned and 
that the ratio was going to be much more Iraqis, some 60 to 65 
percent, to 40, to 35 percent of American forces going in to a 
particular area.
    Now, given your testimony that they are only manned 
somewhere between 43 and 82 percent, the question is the 
quality of that capability, the reliability of that capability, 
would the two of you please give your assessment to that 
question?
    General Maples. Sir, the first comment I would make is 
there is another piece of this, of course, in the security plan 
and that is the national police, the Iraqi national police, and 
the Iraqi police, who are also a part of the equation in the 
Baghdad security plan and will be counted in the overall 
numbers, because they will be involved in the security process.
    Back to your specific question, the units that were chosen 
to move to Baghdad were based on the leadership of the units, 
the cohesion of those units, and the loyalty of those units. So 
the assessment by those who are embedded with the units and our 
commanders on the ground is that the units that are moving into 
Baghdad are in fact capable units. There are some limitations 
associated with that and in fact two of the three brigades are 
Kurdish brigades and so you have some issues associated with 
language, with cultural understanding, and with serving in an 
area in which the individuals were not recruited, and that will 
be an issue that has to be worked through.
    Senator Bill Nelson. Admiral?
    Admiral McConnell. Sir, what I would add is, having watched 
it from afar, I had an interest, an inside interest, in the 
problem years ago when I served on the Joint Staff during the 
First Gulf War, so I had some awareness. As I attempted to come 
up to speed now, the way I would assess it is they are better 
today than they were a year ago, but they are still not where 
we need them to be. So I would expect in time they will get 
better.
    But it is not unusual for an Iraqi force to be normally 
manned at about 75 percent. They would plan for having 25 
percent on leave or away or something else. So the numbers can 
be a little bit confusing. I have seen in a couple of cases 
where they planned for one brigade, they just put two, just to 
get closer to the manning levels that we would be familiar 
with.
    Senator Bill Nelson. There is a report out that there are 
14,000 U.S.-provided small arms that are missing in Iraq. What 
do you know about where these weapons are going and who is 
using them?
    General Maples. Sir, I do not have any knowledge of that.
    Admiral McConnell. I have no knowledge of it. I can take 
the question and see if we can get something.
    [The information referred to follows:]

    [Deleted.]

    Senator Bill Nelson. Would you, please?
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me first of all just ask a couple of things. I have had 
occasion to be in the area of responsibility I believe 12 times 
now and so I have watched it as the years have gone by and the 
months have gone by. One of the things most recently that I 
heard when I was over there from some of our people and the 
Iraqis is that they are starting to come up with more usable 
intelligence about the insurgency than they were before. Do you 
see a trend in this direction, the Iraqis' capability in 
gathering intelligence?
    General Maples. Yes, sir, I think both on the national 
basis and on a military basis their intelligence capabilities 
are growing.
    Senator Inhofe. Then also, Senator Warner was talking about 
getting a lot of his information from some of the embedded 
journalists. Frankly, I get most of mine from our embedded 
troops that are working with the Iraqis. All the way from the 
marines up in Fallujah down through Baghdad and elsewhere, up 
until the time of the bombing of the Golden Mosque, which was 
about a year ago, I guess now, I was on regular trips getting 
better and better information in terms of the amount of the 
burden that is being assumed by the Iraqis and their 
capabilities, not--I think we all tend to try to compare them 
to our troop capabilities and they are not there and they will 
not be there. But they were improving.
    I can remember talking to Mr. Jassim and Dr. Rubae the 
first week that they were in office and they gave stories about 
how, yes, we are offering the support, but they are on the tip 
of the spear and they are growing.
    Did you see that up until I believe it was February 2006, 
the bombing of the Golden Mosque, that we were making a lot 
more progress and that we took a real hit in terms of utilizing 
their capability at that time?
    General Maples. Sir, I think they have continued to grow in 
capability, in particular in organizational capability. It is 
different when you train individuals and when you train an 
organization, a battalion or a company, to conduct operations 
and you get that kind of cohesion in the organization. Our 
trainers who are working with the Iraqi security forces on a 
regular basis are coaching and mentoring and training those 
organizations to be more effective, and when we gave them more 
responsibility they began to develop in a much greater way in 
the last year.
    Senator Inhofe. That is what I have gotten consistently 
from our troops working with them.
    Let me ask you another thing and, General Maples, I have 
talked to you about this in my office many times. My concern 
has always been, my great concern has been China. During our 
drawdown of the 1990s of our military, China increased its 
military procurement by about 1,000 percent. We have problems 
with not just their nuclear capability and the potential WMD 
capability, but also their conventional forces.
    It is my understanding that al Qaeda is attempting to get 
biological, radiological, chemical, and nuclear capability. Do 
you think that China is aiding them or is helping in our 
efforts against it? Where is China in all of this?
    General Maples. I do not see any evidence that China is 
supporting al Qaeda in developing WMD capabilities. China has 
their own issues in terms of terrorists, particularly with the 
Uighars within China, that is of concern to them.
    Senator Inhofe. I know that is true. Admiral, I think we 
also know that China is competing with us out there. I spend 
quite a bit of time in Africa in these oil nations. They are 
our chief competitor there and I have been very much concerned 
about that.
    Each one of you was in a position and will remember my 
predecessor, David Boren. I promised David I would ask this 
question. When I took over his seat in 1994 when I came from 
the House to the Senate, we had a long visit. We had been good 
friends for a long time. He was chairman of the SSCI when he 
left. He said: ``We have an area where I have really failed and 
I would like to have you become aware of it.'' He was talking 
about the various intelligence groups that are not 
communicating to each other and all of this.
    We saw that an attempt was made to correct that. I would 
like to know--and I think, Admiral, in your opening statement 
you addressed this, that our increased capability of working 
with each other, all the different intelligence organizations--
could the three of you assess where you think we are right now 
and are we making a lot of progress in that? Can I report back 
to former Senator Boren that we are making some progress after 
all these years?
    Admiral McConnell. Sir, I would start off by saying we are 
making progress. Quite frankly, one of the reasons I agreed to 
come back into government was to focus on that issue, to see if 
we could make more and better progress. I have a game plan for 
attempting to change the culture. We grew up in a time of 
legitimate reason for need to know and protecting and not 
sharing information in the context of the Cold War and that 
came to be known as ``need to know.'' What I want to try to do 
is transform this culture so that we think of it in terms of 
responsibility to provide.
    Now so if you think about it, if you have a customer, you 
have capability, you have a responsibility to provide, then by 
definition you have to collaborate with those who are 
collecting information and so on. So I think we are making 
progress. I think the things that have been done have started 
us and positioned us in the right way. But I think we need to 
stay the course and bear down very hard to get the 
transformation.
    I would make a comparison. What the Goldwater-Nichols bill 
did for the Department of Defense (DOD), we need to have a 
similar transformation in this community.
    Senator Inhofe. I saw an improvement, going all the way 
back to Bosnia and seeing up in Tuzla, working together that I 
had not seen before.
    When you were talking about Central America, Mexico, South 
America, you mentioned Chavez and Castro. You did not say 
anything about Ortega. Where do you think he figures into this? 
He was out of office for 15 years. He is back now, they say, 
and a lot of people think that he is a different person now, he 
has gone through a conversion. What do you think?
    Admiral McConnell. Sir, I think the jury is still out. We 
know where he came from and knew what he stood for, so watch 
him closely. But he is making some of the right statements. The 
jury is still out is probably the best way to answer that one.
    Senator Inhofe. I hope it comes in.
    Thank you very much. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    [Whereupon, at 11:55 a.m., the hearing was recessed and the 
committee proceeded to other business, then reconvened at 11:56 
a.m.]
    Chairman Levin. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
join you in welcoming General Maples and Dr. Fingar, and I want 
to thank you for your service to our country, for your 
leadership as well, and for being here today with us. We know 
with you that strong and reliable intelligence information is 
one of our most important weapons in both protecting and 
securing our country and fighting the global war on terror.
    Admiral McConnell, in your testimony you mention that there 
are growing threats to American forces in the Middle East by 
Iran's increasing military capability. Could you please comment 
on Iran's missile development. Specifically, the 2002 
unclassified intelligence assessment stated that Iran is 
unlikely to achieve a successful test of an ICBM before 2015. 
Is that still the IC's judgment?
    Admiral McConnell. Sir, let me give a general statement on 
it and then my colleagues will probably have better details 
than I have because, as I mentioned, I am still coming up to 
speed.
    Let me speak to their ability to restrict movement of 
forces into the area. They put a great deal of concentration 
into things like submarines and cruise missile-equipped patrol 
boats that could go out to sea to be able to attack naval 
forces that might be approaching. They have also recently 
acquired surface to air missiles in the country to be able to 
repel an attack on the country.
    Ballistic missile development has been a focus. I am aware 
of missiles that can reach as far as Israel, but an ICBM, my 
awareness, I do not know of one. Let me turn to my colleagues 
if they have better, more complete information.
    General Maples. Sir, that is our assessment still, that 
they are continuing to develop an ICBM. 2015 is still our 
target date that we would expect to see that. We are seeing 
them develop some space launch capability and you have heard 
that recently. They recently did launch a sounding, what we 
believe was a sounding rocket, that reached sub-orbit. So they 
have not gone to the space level yet.
    But as they continue to develop that technology, it could 
change our assessment on their ability to deliver the ICBM. 
They are investing very heavily in ballistic missile 
capabilities that pose a regional threat and, as Director 
McConnell mentioned to you, a capability to reach Israel is 
well within their means.
    Senator Akaka. Dr. Fingar, do you have any comments?
    Dr. Fingar. No. That is still our assessment. There is an 
estimate in process looking at this question, but our current 
assessment is the same.
    Senator Akaka. Admiral McConnell, I share your concern that 
Iraq's internal conflict may adversely impact the Middle East. 
As you noted, many of our Arab allies are concerned about 
Iran's increasing influence in the region as a result of the 
support of Iraqi Shiites. My question to you, is there any 
indication that our allies, specifically Saudi Arabia, have 
been providing financial support for some of the Sunni militias 
in Iraq, including the militias that American forces are 
fighting?
    Admiral McConnell. Sir, I have no awareness at this point 
that there is any direct flow. Now again, I do not know 
everything that I need to know yet, so I am still coming up to 
speed. But let me turn to my colleagues to see if there is 
something that they are aware of which I am not.
    Senator Akaka. General Maples?
    General Maples. Sir, Director McConnell mentioned earlier 
that there are charitable organizations that appear to be 
providing financial support. Do not know about the linkage of 
those organizations to governments in the area, in particular 
within Saudi Arabia. But there are charitable organizations 
that we do see funding coming from.
    Senator Akaka. Dr. Fingar?
    Dr. Fingar. Yes. It is important to distinguish between 
national governments and people resident in them, Saudi Arabia 
and some of the other Gulf states. We judge that Saudi Arabia 
as a government is not providing funding, that the Saudis are 
doing more and are better at stopping the flow of funding 
through charitable private means, but they still do flow to 
some extent.
    Sir, I would add just as an awareness, there has been 
dialogue about increasing that pressure and from what I have 
been able to observe, the Saudis, for example, are stepping up 
their efforts to prevent that sort of thing from happening.
    Senator Akaka. Let me turn to chemical weapons. Admiral 
McConnell, recent media reports discuss the use of chlorine gas 
in attacks in Iraq. While these incidents were only partially 
successful, they demonstrate an enemy capable of experimenting 
and learning from their mistakes. I am very concerned about 
this issue, especially since we know that there were a number 
of Iraqi scientists experienced in WMD.
    Admiral, do we know who these scientists are and where they 
are now? Have any of these scientists disappeared or have some 
of them joined al Qaeda or militia groups?
    Admiral McConnell. Sir, I am unaware if any have joined al 
Qaeda. I knew at one time we had good tracking and 
understanding of--again, let me turn to my colleagues to see if 
they have any more precise information to answer your question.
    Senator Akaka. Dr. Fingar?
    Dr. Fingar. This is one, Senator, I think is best discussed 
in the closed session.
    Admiral McConnell. I think what Dr. Fingar is saying is he 
knows something I do not know yet, so we will take it in closed 
session.
    Senator Akaka. Thank you very much. We will wait for that.
    Thank you, Mr. Chairman.
    Chairman Levin. Senator Akaka, thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Admiral, in your testimony you describe Iran and North 
Korea as the states of most concern to us. Both are determined, 
it appears, to pursue nuclear capability. We hope that the 
recent agreement with North Korea will help in that regard. You 
have described Iran as, ``determined to develop nuclear 
weapons.'' Do you have evidence that North Korea is assisting 
Iran in developing its nuclear capabilities?
    Admiral McConnell. No, ma'am, I am not aware of anything. 
Let me turn to my colleagues if they are. I do not know of any 
connection between the two.
    Senator Collins. General?
    General Maples. No, Senator.
    Dr. Fingar. No, ma'am.
    Senator Collins. The reason I ask is there was a 
Congressional Research Service report that was issued back in 
October of last year that says the evidence suggests that North 
Korea has had extensive dealings with Iran on missiles and 
other weapons. General?
    General Maples. That is correct, they have had extensive 
interaction on the development of missile systems and Iran in 
fact has purchased missiles from North Korea.
    Senator Collins. But there is no concern that North Korea 
may be helping Iran develop nuclear capabilities?
    General Maples. There is a concern, but we have not seen 
that.
    Senator Collins. But no evidence to support it?
    Dr. Fingar. No, that is correct, Senator.
    Senator Collins. Thank you.
    Admiral, your predecessor described President Chavez as 
``among the most stridently anti-American leaders anywhere in 
the world.'' You talked in your testimony that Chavez purchased 
a large amount of modern military equipment from Russia, and 
there is evidence that he is developing his own weapons 
production capability. What is the IC's assessment of Chavez's 
intentions in going forward with this sizable military 
purchase?
    Admiral McConnell. First of all, his intentions with regard 
to positioning and so on, I think he sees himself as 
potentially the replacement for Castro in terms of leading a 
block that would be opposed to the United States. That said, 
his power base is oil revenue and from having looked at that 
question fairly close, the current path he is on is starting to 
degrade and denigrate the ability to extract oil inside 
Venezuela. So on a long-term basis he is going to have 
difficulty sustaining the current path he is on.
    With regard to his military buildup, I think it is a show 
of force and flexing muscles. I am not aware of any specific 
threat to countries around him, but I think he wants to build 
up a large inventory. Now, years ago we used to talk about 
building up such an inventory in a place like Venezuela; once 
they would build it, they would not be competent in maintaining 
it and operating it, so it would tend to be imported, shown, 
and then just sit.
    Dr. Fingar. I would add, Senator, that one objective is to 
free himself of dependence on American-supplied weaponry and 
systems by buying one that is self-standing and can obtain the 
parts, the maintenance, the training, without U.S. approval.
    A second would be to arm the militia, the Bolivarian 
Circles within Venezuela, the idea of a citizen militia, some 
similarities to what Tito did in former Yugoslavia.
    The third I would judge is to have them available in some 
numbers on the shelf should they become useful in assisting 
allies elsewhere in the hemisphere, sort of trading material, a 
means of exerting influence.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Webb is next.
    Senator Webb. I am surprised, Mr. Chairman, being all the 
way down here at the end of the pipeline.
    Chairman Levin. The early bird.
    Senator Webb. Gentlemen, I am struck actually listening to 
the testimony and the questions that have come out of it, with 
how much of it is unfortunately being focused on the situation 
in Iraq, unavoidably but unfortunately. I was among a number of 
people who were saying before we went into Iraq that in terms 
of the actual threat to the United States it was probably at 
best maybe fifth on the priority list. North Korea, Pakistan, 
Afghanistan, Iran, al Qaeda come to mind in no particular 
order.
    But here we are in basically a strategic mousetrap, where 
we have had so much of our resources and national energy tied 
into one situation that we are going to have to find a way to 
get out of it.
    I will join the parade here. What is your evaluation of the 
scope of influence of the current Iraqi government? What I mean 
by that is how much control do you really believe it has in 
terms of implementing the requirements that we are attempting 
to put on it?
    Admiral McConnell. Senator, I do not think they yet have 
the kind of scope and influence that we would hope they would 
have or that they could be successful in the short-term.
    Senator Webb. Would you compare the situation to, say, the 
situation in Lebanon?
    Admiral McConnell. Going back in time, I would compare it 
to Lebanon, yes, sir, primarily because of such deep divisions 
within the country with regard to the sectarianism and one 
force, Sunni on Shiite, Shiite on Sunni. I tried to go back 
after I had worked this problem years ago to understand it a 
little bit better and I did have the opportunity to live in 
that region for a couple years, so I got to know a number of 
the Sunni and Shiite population to understand how they were 
thinking about it and so on.
    The biggest fear on the part of the Shiite is they are not 
sure of their position and they feel like they must dominate, 
and the Sunnis are so concerned that they will be overwhelmed 
and not a part of the government. So when you set up a 
condition like that, there is suspicion and strife.
    Senator Webb. As in the NIE, it breaks down even further 
than that in terms of competition among the different sectarian 
groups. To me it is very similar to what I saw in Lebanon in 
1983 as a journalist over there, with a weak central government 
and factions that had military power all around them, and it is 
not even realistic to assume in the short-term you are going to 
be able to disarm these militias, as people keep talking about, 
because there is no trust factor with the central government. 
That seems to me to be the reality.
    Would you agree with that?
    Admiral McConnell. Sir, I would agree with that and I think 
that is the objective of the current effort, is to see if we 
cannot allow them to rise to the next level so that they would 
have enough confidence to in fact have a central government 
that would govern across the whole state of Iraq.
    Senator Webb. I am curious, having been in Afghanistan as a 
journalist embedded--I was in nine different places. You get a 
different look than, obviously, I am going to be able to get as 
a Senator going on one of these trips over there. I was struck 
in the different places I went with the extent of the opium 
production. This was in 2004. I am wondering to what extent you 
believe the insurgency in Afghanistan right now is being fueled 
by the drug lords, not simply by the Taliban, or how you view 
their connection.
    Admiral McConnell. Sir, let me turn to my colleagues for 
that first. I have a point of view, but I think they probably 
have better information.
    Dr. Fingar. Despite the Taliban having cracked down quite 
far on opium production when they were in control of the 
country, they now are enmeshed with opium producers with 
local--your term--warlords, local power brokers. The production 
and the sale of opium is a major source of revenue. Some of 
that is going to the Taliban for its purposes. It goes to 
regions that cannot be reached by the central government in 
Kabul, so it may be less important as a direct source of 
support to Kabul than it is filling a vacuum where the writ of 
the central government simply does not reach.
    The extent of opium production, as you noted, in 2004 was a 
very, very wide area. This year's production, although a 
smaller area, is higher.
    Senator Webb. Like my colleague from Oklahoma, I had a 
great concern about China over the years. I have written about 
it many, many times. I have two questions I hope I can get out 
today.
    The first is, I am always struck when we start comparing 
the United States military budget with other countries, that we 
do not do a better job of breaking down things like manpower 
costs in the United States budget compared to these other 
countries. I do not know how we could realistically do that, 
but when you talk about China's 2006 budget being $35 billion, 
there is a huge portion of their manpower costs that do not 
directly correlate when we are trying to compare what they are 
doing to what we are doing.
    Do you have a way to level that or help people understand 
that this disparity is not as great as it appears?
    General Maples. Sir, we would have to go back and work that 
piece, but I think you are exactly right, because the 
investment in our Armed Forces in manpower is a very high cost, 
and we see very direct investments on the part of the Chinese 
military in hardware and capability.
    Senator Webb. The way we account our manpower budget is 
different. Retirement costs, we pay in advance and on an 
accrual basis on our retirement in the programs, where these 
other systems, those are totally separate from the way they 
compile their military costs and the wages that they pay for 
their military people, et cetera.
    There ought to be a better way to break that out so that 
people in this country can understand that these disparities 
are not as great as they appear on paper. I would encourage you 
to do that.
    The other question I have, and I am not sure how this 
relates to your function, is when we are defining strategic 
threat, we should be also taking into account the vulnerability 
that we have when we have the inequality of economic systems in 
terms of balance of payments and trade deficits and the ability 
of countries such as China to take the trade deficits that are 
in place, take the trade surplus in place, and invest in places 
like Africa and in our own continent.
    Do you take these things into account when you are judging 
a strategic assessment?
    Dr. Fingar. Yes, sir, we do. As you indicate, this is both 
very important and very tricky. Using your China example, a 
very large trade surplus that they have, the largest way in 
which they are investing it is in our own country, in U.S. 
Treasury bonds and so forth. That makes it of course very 
tricky to assess mutual hostage, mutual vulnerabilities. 
Investments in Latin America to buy raw materials, the profits 
of which are then used to buy products from the United States--
it is both highly important and very difficult to make the kind 
of net assessment, but it is necessary to try.
    Senator Webb. Just to finish the thought, we are in my view 
squandering our national wealth in Iraq, while they are taking 
this trade surplus and these sorts of things and increasing 
their leverage around the world in trade deals.
    My time has expired, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Director McConnell, if the United States decides to adopt 
the policy of withdrawing troops from Iraq before it is secure, 
do you believe that Iraq will become a failed state?
    Admiral McConnell. I think that is a very, very likely 
possibility, at least the way we think of Iraq today, yes, sir.
    Senator Thune. Has the IC wargamed the possibility of Iraq 
as a failed state, the opportunity that that will create for 
Islamic extremists, the role other Middle Eastern states will 
have to play, given the rising tension between the Sunni and 
the Shiite, Iranian nuclear ambitions, and the increasing 
legitimacy of sub-national groups like Hamas and Hezbollah?
    Admiral McConnell. Sir, we have not wargamed it the way you 
described it, but the analytical process is ongoing to address 
just those kinds of questions; yes, we are.
    Senator Thune. What is being done to increase tactical 
intelligence collection to benefit individual units that are 
operating at that neighborhood level in Baghdad? Are there 
steps being taken to improve that or increase that?
    Admiral McConnell. Let me provide an overview and I will 
turn to General Maples to get more specific detail because he 
would know more of the details.
    There was an effort several years ago to put more focus 
into tactical intelligence. It used to be handled by the 
Services, spread across the various Services, and there was an 
attempt inside the DOD to create a unified program called the 
Military Intelligence Program. It was to get more focus and 
attention to the tactical systems that you would need to 
provide support.
    In addition to that, the program I am responsible for, the 
national intelligence program, is looking at ways that we 
harness national sensors in support of tactical operations. I 
am very pleased to report to you that there are many situations 
now where from Washington with national sensors we are in 
contact with, talking to, forces on the ground, and sometimes 
actually helping them as they proceed through a neighborhood or 
a compound to complete their actions.
    So let me turn it over to General Maples for more details.
    General Maples. Actually, exactly right. At the lower 
tactical level, tactical HUMINT is critically important. One of 
the approaches the Army has taken, every soldier is a sensor, 
and so everything that is observed, everything that is learned, 
has to be a part of our intelligence process. In addition to 
that, we have pushed tactical HUMINT teams down to the lowest 
tactical level to try to enable obtaining the information that 
will make our units successful at that level.
    We are also looking for tools that will help them at that 
lower tactical level, whether they are translation tools that 
will enable them to get by the language issue, biometric tools 
that we can put into their hands so they can identify 
individuals and record those individuals. We have tools that we 
can get in the hands of our soldiers to help enable them.
    Senator Thune. It seems like for the success of this 
mission that is going to be critically important.
    Congress is likely later this year to take up the issue 
once again of immigration and border control. I think that 
immigration has arguably moved from being simply a domestic 
issue to a national security issue. Can you share with the 
committee the threat posed to the United States by our southern 
border and is there any intelligence to verify that Islamic 
extremists are going to try and capitalize on that border issue 
and get people into the country that way.
    Admiral McConnell. Sir, we know that they are aware of it 
and we know that they talk about it. There is not any specific 
evidence that I am aware of now--and I will turn to my 
colleagues if they are aware of something that I am not. But it 
is something that is in their planning. So as I come up to 
speed looking at the various organizations doing their 
planning, they are looking to any avenue into the United States 
and the southern border would be one that would be a potential 
for them.
    Dr. Fingar. I would agree on both the desire of the 
terrorists to consider all avenues of entrance into the United 
States, including illegal entry through our southern border or 
through the northern border with Canada; that there of course 
is good reason for concern. If drugs can be smuggled across, 
weapons can be smuggled across. The number of illegal aliens 
that come through, it is not hard to imagine terrorists or 
others who would do more than seek economic opportunity coming 
through.
    As Director McConnell noted, the important development of 
the new government in Mexico working on problems in the border 
area that affect Mexican security as well as our own is a very, 
very welcome development.
    Senator Thune. I appreciate that and look forward to 
working with you. I think homeland security and national 
security and this border issue are all very closely related.
    Last year I had the opportunity to travel to Latin America 
and, while I know that many Americans are aware of the threat 
that militant Islam poses in the Middle East, I think that they 
are probably less aware of the increasing activities undertaken 
by Hezbollah and Hamas in the triborder area of Argentina, 
Paraguay, and Brazil. I guess I am wondering in open session if 
you might be able to comment on what the IC is observing in the 
triborder area?
    Dr. Fingar. Very briefly because it is in open session, the 
triborder area has a certain ungoverned character to it--
smuggling and lack of controls. A number of those involved in 
grey area or illicit activities are of Middle East extraction. 
Some of them have relations with Hezbollah. It is a base that 
we watch carefully and with concern.
    Senator Thune. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Admiral McConnell, the NIE did not evaluate the effect in 
Iraq of a phased redeployment of American forces, is that 
accurate?
    Admiral McConnell. Yes, sir, I am sure that is accurate, 
and Dr. Fingar was the coordinator for that, so we can go 
specifically to your question.
    Senator Reed. Why was that not done, Dr. Fingar?
    Dr. Fingar. The estimates, Senator, do not look at U.S. 
policy or military options. We were looking for those factors, 
those drivers, that would have to be taken into consideration 
in the development of any policy or any military strategy, and 
we bounded that with the military presence, the coalition 
presence, as it existed when we were doing the estimate. 
Because it had been hypothesized that the presence of coalition 
troops was in itself a major cause of violence in an effort to 
expel the occupying nation and so forth, the estimate said, 
what if we take them out of the equation.
    When we tested that hypothesis, we came to the conclusion 
that if they were not there the level of violence would 
actually go up.
    Senator Reed. Taking them out precipitously, as you 
injected into the NIE, is different than taking them out in a 
phased manner, leaving residual forces to do missions.
    Dr. Fingar. I will ask General Maples to correct me if I am 
wrong, but the rapid withdrawal within the period of the 
estimate, which was 12 to 18 months, to move that number of 
troops and equipment safely out of Iraq we estimated would take 
the entire period of the estimate.
    Senator Reed. So that approach was driven, not by any sort 
of strategic sense, but simply by the time limits that you 
self-imposed on the estimate?
    Dr. Fingar. Correct.
    Senator Reed. Thank you.
    Some recent reports suggest, Admiral McConnell--and if 
anyone has insights, please feel free--that al Qaeda is 
reconstituting itself in Pakistan, beginning to show enhanced 
operational capability, not only within Pakistan but outside 
the region. Most disturbing is that there are indications that 
the recent operations in Europe had some linkage back into 
Pakistan, which seems to be, as in the immortal words of Yogi 
Bera, ``deja vu all over again.'' It is not Afghanistan, now it 
is Pakistan.
    It was there, not Iraq, that the attack on September 11 was 
originated or at least encouraged. Are we in danger of 
repeating the mistakes that led to September 11?
    Admiral McConnell. Sir, I have taken a hard look at what we 
know and what we believe with regard to al Qaeda in Pakistan, 
because I was trying to come up to speed to understand the 
various issues. Let me summarize it this way. I was asking 
myself the question, are they more capable or powerful today 
than they were before September 11? I sat down with some of the 
analysts and tried to work through this to understand the facts 
and then where could we go from the fact base that we had.
    First of all, just let me say that al Qaeda leadership as 
it existed prior to September 11 and prior to going into 
Afghanistan, somewhere in the neighborhood of three-quarters of 
the leadership have been killed or captured. Now, does that 
mean that those members have not been replaced? Yes, they have 
been replaced.
    The down side from the terrorists' point of view is they 
have been replaced, but they do not have the experience. That 
said, they are no less committed to the kind of heinous acts 
that were carried out on September 11. The camps that have been 
established in Pakistan are in an area that has never been 
governed by any power, a state, or outside power in that 
region, because it is such rugged country and fierce individual 
tribal interests. So to the best of our knowledge, the senior 
leadership, number one are there and number two, they are 
attempting to reestablish and rebuild and to establish training 
camps.
    Now, when I looked at--prior to going into Afghanistan 
there were literally thousands of those forces in training, 
with multiple camps. That is gone. They are attempting to 
rebuild in the northwest frontier of Pakistan. The numbers are 
not the same, but there are volunteers who are attempting to 
reestablish it. So it is something we are very worried about 
and very concerned about.
    Senator Reed. It seems that the scale of possible 
operations that would confront us here in the Homeland does not 
involve the thousands of potential trainees that they had in 
Afghanistan, just small groups. In fact, there is increasing 
concern of individual operatives coming in, being able to use 
the Internet for instructions and coordination, and coming in, 
and likely not coming from Iraq or places where they would be--
obviously have cultural difference there, but from Great 
Britain, from other countries.
    So it seems, unfortunately, that this capability still 
exists, and it might have taken on an even more sinister aspect 
with the use of individual operatives and sophisticated 
communications. Is that a concern?
    Admiral McConnell. Yes, sir, it is a concern. I would say 
first and foremost these are very committed individuals and 
they are very smart and adaptive. I think what we are seeing is 
we inflicted a major blow, they retreated to another area, and 
they are going through a process to reestablish and rebuild, 
adapting to the seams or the weak spots as they might perceive 
them.
    I am aware in our effort to focus on this with great 
intensity there are a number of plans and activities that have 
been shut down or disrupted or interrupted, and the intent on 
our part, of course, is to do that more and more and better and 
better, and hopefully at some point either killing or capturing 
the senior leadership.
    Senator Reed. This of course raises the question that the 
huge efforts that are undertaken today in Iraq, 140,000 
American troops, billions of dollars a year, are tangential to 
these operations or this activity in Pakistan. Is that a fair 
comment?
    Admiral McConnell. Sir, that is a fair comment, and a 
variety of the members of the panel would have perhaps a 
different point of view on that.
    Senator Reed. What is your point of view, Admiral?
    Admiral McConnell. What is the question, sir?
    Senator Reed. The question would be, if you had to 
establish the probability of a successful attack being 
organized and directed against the United States, would it 
emanate from Pakistan with this newly revised al Qaeda 
leadership or would it come out of Iraq?
    Admiral McConnell. Two ways, two lines of reasoning to 
answer that. First of all, Iraq is a cause celebre for the 
jihadists in creating forces. My belief is the attack most 
likely would be planned and come out of the leadership in 
Pakistan.
    However, that said, there are al Qaeda elements in Iraq and 
in Syria and other places, and even in Europe, and our 
information tells us they also are planning. Many would think 
of this as a command and control, global net controlled from 
Pakistan. It is not. There is some central planning and control 
and funding and so on, but individual home-grown elements that 
are inspired by that vision are also a big problem for us.
    Senator Reed. Thank you, Admiral.
    My time has expired.
    Chairman Levin. Thank you, Senator Reed.
    Senator Martinez.
    Senator Martinez. Director McConnell, just following on 
that line of questioning, I guess the common denominator to al 
Qaeda's opportunity is ungovernable areas.
    Admiral McConnell. Yes, sir, that is in fact true.
    Senator Martinez. Sir, you earlier discussed the issue of 
Venezuela and their activities of weaponry and the capacity to 
manufacture weapons. I was wondering if you viewed it as an 
offensive capability as opposed to what they would need for 
their own national defense?
    Admiral McConnell. It goes significantly beyond what they 
would need for their own national defense, yes, sir, that is in 
fact true.
    Senator Martinez. So it is clearly an effort on the 
Venezuelan government's part to project into the region, 
particularly militarily?
    Admiral McConnell. Yes, sir, I would agree with that.
    Senator Martinez. One of the things that--and I believe 
this may have been Dr. Fingar--I just want to clarify is that 
my understanding is that the Venezuelans do provide sanctuary 
to the Revolutionary Armed Forces Colombia (FARC) as they cross 
from the border between Colombia and Venezuela, and that they 
do find sanctuary in Venezuela, from where they then regroup, 
resupply, and go back into Colombia.
    Dr. Fingar. Yes, sir.
    Senator Martinez. So in that way, Venezuela is already 
projecting their presence and in fact meddling in their 
neighbor's affairs in a very direct and military way.
    Dr. Fingar. I do not disagree with that assessment, 
Senator. But the nature of border areas in many parts of the 
world in the area around Colombia, FARC, National Liberation 
Army, the paramilitaries that have spread over into Ecuador, 
sometimes into Brazil, into Venezuela--I do not disagree with 
the point that the Chavez government appears to have turned a 
blind eye more so than others. But there is a difficult 
situation along all of these border areas.
    General Maples. Sir, could I comment?
    Senator Martinez. Yes.
    General Maples. I think we do see Venezuela projecting 
military capability in terms of trainers and advisers in the 
region, and influencing other countries in that way. The arms 
that they are purchasing, the multi-role aircraft, utility 
helicopters, attack helicopters, patrol boats, largely----
    Senator Martinez. Rifles.
    General Maples. Yes, sir, and I will get to the rifles in a 
second.
    Senator Martinez. Okay.
    General Maples. But largely, those kinds of capabilities 
could be seen largely as self-defense or immediate area, not 
offensive in a larger sense, I do not think. However, the 
assault rifles and the ability to produce assault rifles in 
large numbers provides a very difficult capability that could 
affect other nations in the region, as Director McConnell 
mentioned, could be used to affect other nations and other 
causes in the region.
    Admiral McConnell. Sir, if I could just add to that, one of 
the things that struck me since I have come back and had more 
focus on this is the rhetoric from Chavez, which you can read 
in the press, but then the activities where he is using his 
influence and money to control or influence events in other 
countries, attempting to land more allies for his vision of 
anti-Americanism.
    Senator Martinez. I would agree with you completely, and 
also suggest that perhaps while Mr. Ortega's rhetoric may have 
implied some of the right things, I do believe that there is a 
great deal of influence both emanating from Cuba, Venezuela, 
and to Nicaragua as well. So I do believe that that is of some 
concern.
    The other area in which there seems to be cooperation is 
between Iran, Venezuela, and Cuba; for some time there has been 
some political alliance. I am wondering if that in your mind or 
in anything that you can see through our intelligence also 
translates into a budding military alliance, beyond the 
political? To any one of you.
    Dr. Fingar. If so, it is at a very, very nascent stage. One 
of the characteristics of the three countries that you 
mentioned is that rhetoric is often somewhat excessive in 
comparison to the reality, and Hugo Chavez has depicted, in my 
view, the military and political and other dimensions of the 
relationship with Iran, with North Korea, as if it had more 
content than it yet does.
    On the military dimension, though, there appears to be a 
very concrete reason in turning to the Iranians for help in 
maintaining U.S.-provided weaponry, which would increase the 
capability of the Venezuelan forces. I think at this stage we 
are watching it, we are concerned about it, but it has not 
moved very far.
    General Maples. I agree.
    Senator Martinez. Thank you.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks, Admiral McConnell, General Maples, Dr. Fingar. I 
wanted to make a statement at the beginning which in some 
sense, I think, Admiral McConnell, is directed towards you, in 
welcoming you to this new position. I do not think I am telling 
you anything you do not know. It seems to me that the reaction 
that our intelligence--the credibility of our IC has been 
affected both by the disputes about pre-Iraq war intelligence 
and about the excessive partisanship in the conduct of and 
debate of our foreign policy.
    It leads to events that are recurring in our history, such 
as when the NIE on Iraq came out, each side on the war, whether 
you are for it or against it, chose the part of the report that 
they would like to embrace and the part that argued against 
their position to debunk. That will happen, and the result of 
that really depends on the strength of the report. I thought 
that was an excellent report.
    I thought that the reaction to the briefing first given in 
Baghdad and then later here about Iranian involvement in Iraq 
showed two danger points. The first was that a lot of people 
responded, both in government, in Congress, and in the media, 
with a suspicion to the intelligence that came out, that I 
thought was unwarranted.
    We give a lot of money to the IC, taxpayer money, every 
year. You are on our side. It does not mean you are flawless. 
We make mistakes. We have seen that over our history. But I 
would not start with suspicion toward what you are 
recommending, and I thought we had that there.
    The other part of it was also troubling, which was what 
Senator Levin referred to before, the reluctance of people in 
the administration to draw a conclusion that I would call 
highly probable, in other words a kind of defensiveness--I dare 
not call it timidity--based on previous criticism of 
conclusions drawn from intelligence.
    So what I am saying more specifically is that the 
intelligence, our intelligence, has shown, at least to the 
extent that I have read about it in the paper, but I have been 
briefed on it, with a high certainty that at least 170 
Americans in uniform in Iraq have been killed as a result of 
weapons that we know with a reasonable certainty have been 
supplied by the al Quds Force of Iran and those weapons have an 
Iranian origin.
    Then the question is, does Ayatollah Khameini know about 
it. That is where there was reluctance. That is why I greatly 
appreciated Senator Levin's question when he said, you do not 
have, I gather, direct intelligence in which you see Ayatollah 
Khameini, the Supreme Leader of Iran, saying to the al Quds 
Force: ``Bring these weapons into Iraq to kill American 
soldiers.'' But when Senator Levin asked you, ``is it not 
probable that he knew about it,'' you said yes, and to me it is 
highly probable, because do we not know that the Quds Force 
reports to Ayatollah Khameini? Is that not right, General 
Maples?
    General Maples. That is correct.
    Senator Lieberman. So it would be to me shocking if the 
Quds Force was carrying out this mission in Iraq without 
Ayatollah Khameini knowing it. I just think we have to count on 
you at moments like that to tell us what may not be certain, 
but is highly probable based on everything we know.
    Having made that statement, I would ask one more question 
if you are able to answer this in open session, which is, do we 
have evidence that the Iranians are training Iraqi militia or 
extremists or terrorists in the use of these weapons outside of 
Iraq? General Maples?
    General Maples. Yes, sir, we do.
    Senator Lieberman. We do, and some of that training is 
occurring in Iran?
    General Maples. Yes, sir.
    Senator Lieberman. Am I right, because I have heard 
reports, that some may be occurring in Lebanon in Hezbollah 
training camps?
    General Maples. We believe that Hezbollah is involved in 
the training as well.
    Senator Lieberman. To me that is very important evidence. 
No one wants to see another major military involvement by the 
U.S. against Iran, but if Iran is training Iraqi militants in 
the use of Iranian weapons, which are then being used to kill 
Americans in Iraq, I think that is a very serious act and one 
that we ought to consider taking steps to stop in defense of 
our soldiers who are there.
    I am not going to invite any response, but I thank you for 
your answers.
    I want to go to another point. General Maples, I want to 
read from your testimony on page 5: ``AQI's attacks against 
Iraqi government targets and coalition forces continue, with a 
particular intent to accelerate sectarian violence and 
destabilize Baghdad.'' That is on page 5. On page 9 you say: 
``AQI is the largest and most deadly of the Iraq-based 
terrorist groups that continues to target Iraqi government 
interests and coalition forces. AQI conducts the most 
provocative anti-Shiite attacks in Iraq, a hallmark of its 
strategy since 2003. It has instigated cycles of sectarian 
violence.''
    So my question is, is it not correct that we have concluded 
that one of the major goals of AQI is to stimulate the 
sectarian violence that some describe as a civil war? Is that 
correct?
    General Maples. Yes, sir, that is correct.
    Senator Lieberman. Admiral McConnell?
    Admiral McConnell. Yes, sir, I would agree with that. There 
has been some evidence that those in Pakistan and those in Iraq 
had some disagreements, but I would agree with exactly the way 
you described it, that the major effort is to prompt sectarian 
violence, to keep the violence at an increasing level going 
forward.
    Senator Lieberman. I appreciate it.
    My time is up. I would say that I asked the question 
because I know some of our colleagues are contemplating 
attempting to limit the American mission in Iraq to 
counterterrorism, to get us out of the middle of the civil war. 
I am quoting there, and I understand. I think the motivations 
are well-intentioned, but in my opinion, based on your 
testimony, the answers you have given, it is impossible to 
separate counterterrorism from the civil war because one of the 
main motives of the terrorists, AQI, is to stimulate the 
sectarian violence that some call civil war. Is that correct?
    General Maples. Yes, sir.
    Admiral McConnell. That is correct.
    Senator Lieberman. I thank you.
    I thank the chair.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Sessions.
    Senator Sessions. I just want to thank the panelists and 
thank Senator Lieberman for noting that you are on our side. 
When I have traveled around and had the opportunity to meet our 
intelligence officers, and you think about they are at personal 
risk, they are out meeting with people that could provide 
danger to themselves, they are out there because we ask them to 
be. They never credit themselves and they are never mentioned 
in the paper unless something were to go wrong. Then when 
something is not found, you are always criticized for not 
telling us.
    So I think we need to affirm those men and women, thousands 
of them, that are all over the globe right now, at great risk 
often times, serving our country in a way that could avoid war 
and help us achieve legitimate goals for the United States and 
the world without war.
    Admiral McConnell. Thank you, sir.
    Senator Sessions. Admiral McConnell, with regard to al 
Qaeda, I just want to mention a couple questions, just briefly. 
Is it not true that for over a decade they have plotted and 
overtly talked about a declaration of war against the United 
States and have set about long before September 11 in their 
efforts to attack the United States?
    Admiral McConnell. Yes, sir, that is true.
    Senator Sessions. So this is not something new, that they 
would attempt to reconstitute themselves after we have 
destroyed their bases in Afghanistan, captured what, two-thirds 
or three-fourths of their leadership, and put them on the run. 
But they certainly have not reconstituted a training base, I do 
not think, in this border area that would compare with what 
they had in Afghanistan before September 11, is it?
    Admiral McConnell. That is correct, sir.
    Senator Sessions. Is it not true that the American people 
need to be aware that for decades this entity is going to be 
there or something like it, that poses a threat to our country, 
and every day we have to figure out what they are doing and how 
they are doing it and try to work to counter it?
    Admiral McConnell. Yes, sir, that is in fact true, and the 
current leadership goes back to observations of the bombing of 
the Marine barracks in 1983 as a way to inflict mass 
casualties, and if you track it over time that has been 
consistent in attacking embassies, attacking the U.S.S. Cole, 
and so on. So it goes back over an extended period of time.
    Senator Sessions. There is some suggestion that if we had 
not invaded Iraq that we would not have al Qaeda. This group is 
out there and they are serious.
    Let me ask this, and I do not want any overly optimistic 
views. I really want the truth. Senators Warner, Levin, Pryor, 
and I were in al-Anbar in October, early October of last year. 
The Marines gave us an honest and realistic briefing that was 
very troubling, frankly. General Conway a few weeks ago 
indicated that this area where al Qaeda is most active, where 
the Sunni base is and so much of the violence has occurred, has 
made some progress.
    General Maples, would you share with us, is that true and 
what can we say about what has happened in al-Anbar?
    General Maples. Sir, it is true that we have made progress 
in al-Anbar. We see levels of violence that are going down. 
Most importantly, we see cooperation out of the Sunni tribal 
leaders, the sheiks, who have taken an opposite stance to al 
Qaeda in al-Anbar, largely for tribal reasons, but also to our 
benefit. In doing that, they have encouraged young men to join 
the Iraqi police forces, the national police, and to come on 
board as a part of the security elements there.
    So I think there are some very positive developments in 
that regard in al-Anbar. Now, I say that, and in the last week 
I have started to see some trends that start to trouble me now, 
that some things are starting to move in the other direction, 
because for that action there is a counter-action. So I am 
starting to see some things happen that give me a little cause 
for concern. But I do think we have made progress in al-Anbar.
    Senator Sessions. Now we have a new strategy, a 
substantially increased number of United States and Iraqi 
forces in Baghdad. They are striving to have a much higher 
degree of coordination and effectiveness in the overall 
strategy for the city, an enhanced partnership and embedding 
relationship among those units. Would you say we ought to give 
that new strategy a chance before we precipitously discuss some 
withdrawal?
    General Maples. Sir, I think we are in the very early 
stages of the implementation of that strategy and the 
transition to the kind of force structure that is envisioned in 
the Baghdad security plan. We are seeing some successes. We are 
seeing some other things that are not going according to the 
plan. But the structure is just now going into place. The 
forces are just now arriving. So it is going to take time for 
the Baghdad security plan to be implemented.
    I have been looking at statistics also, both in Iraq and in 
Baghdad, and I am not seeing any trends yet. Too soon to see 
any trends. In some areas I see a reduction in the 
ethnosectarian violence. On the other hand, the number of 
attacks are at the same level that are going on. So it is too 
soon to really understand what is happening, I think.
    Senator Sessions. You would not have expected a significant 
change this early in the operation at any rate, would you?
    General Maples. No, sir, not at this point.
    Senator Sessions. I thought after this--I got somewhat 
troubled, frankly, with that Marine briefing, and now that 
things have made some progress I thought, why would I want to 
bet against the American soldier? Why would I want to doubt 
their capability? I believe General Petraeus and his team does 
have a realistic chance to change the dynamics in Baghdad and 
that can be a critical event in the stabilization of Iraq.
    I will submit some written questions to you about Iran and 
North Korea and the missile systems, the potential threat to 
Europe, the need for a European site, which I think the 
Europeans are indicating they are more amenable to or it seems 
good. I believe that we need to think about a national missile 
defense site in Europe. I think it would be important for them 
as well as to the United States.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions. We will have 
an executive session following this session. We are not sure 
where it is going to be yet. We are trying to arrange for it to 
be in Hart, but it may have to be in S-407 of the Capitol.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to our country. I 
would like to begin with a comment and then a question. Dr. 
Fingar, I think it would be for you. Nothing is more important 
to our Nation's security than the credibility of our 
intelligence services. It is not helpful, to say the least, 
when the motivation of our analyses are questioned or 
suggestions of political motivations creep into the public 
dialogue. It is just not very helpful.
    Dr. Fingar, I think you know that some of that has 
surrounded at least part of the NIE. I refer to the question 
that Senator Reed asked you. There are several members of the 
SSCI that are upset about the fact that the hypothetical of a 
precipitous withdrawal was posited in the NIE, but other 
hypotheses which in fact were more likely were not considered 
in the NIE. There are Central Intelligence Agency (CIA) 
analysts who participated in authoring the draft who will say 
that they were ordered to include that hypothesis even though 
they felt it to be very unlikely.
    Now, I understood your answer to Senator Reed to be that it 
was included because it was out there that the presence of our 
troops was perhaps contributing to the problem, so you had to 
entertain the thought of, what if the American troops were not 
there. But that does not get to the way in which they are 
withdrawn. There are a lot of options other than ``precipitous 
withdrawal'': partial withdrawal, gradual withdrawal, 
withdrawal to other parts of the country, things along those 
lines.
    So I would like to ask you to respond to that, and I would 
encourage you strongly that in the future if you are going to 
consider hypotheticals you at least consider those that are 
more likely than less likely. No one is to my knowledge, at 
least very few people suggesting a ``precipitous withdrawal.''
    Dr. Fingar. ``Precipitous withdrawal'' is not the 
terminology used in the estimate, Senator. It was ``rapid 
withdrawal.''
    Senator Bayh. We will not argue about the distinction 
there.
    Dr. Fingar. Let me begin by repeating the answer to a 
question I had in the open SSCI hearing, questions about were 
we under political pressure to shape this estimate, were we 
advised to have a certain outcome. The answer is unquestionably 
and categorically we were not. This estimate is the product of 
the IC.
    As I responded to Senator Reed, the purpose of the estimate 
is not, has not been, to evaluate options for United States 
policy or for----
    Senator Bayh. Then why did you consider rapid withdrawal?
    Dr. Fingar. As I explained, the effort was to both bound 
the problem and situation, with the coalition presence and what 
happens if the coalition is not there. Since, again, when the 
estimate was undertaken there was the argument that violence in 
Iraq was substantially a function of the presence of coalition 
targets, if the targets were not there----
    Senator Bayh. I heard your answer to Senator Reed. I am 
just telling you the way in which the estimate was done has 
opened you up to this kind of critique.
    Dr. Fingar. It was unanticipated that we would be subjected 
to that critique. Again, I will invite General Maples to 
correct me if he thinks I am wrong, that in choosing the term 
of a ``rapid withdrawal'' over the period of this estimate, 
which was 12 to 18 months, that under General Landry's 
guidance, who was working this part of the estimate, that to 
remove entirely the coalition presence within the period of 
this estimate would by definition be rapid.
    Senator Bayh. Look, I do not want to just devote all my 
time to this, but I am--very few people are suggesting that the 
entire coalition presence be removed in that timeframe. Perhaps 
our combat role, that sort of thing, changing our role to 
training troops and a variety of other things, hunting al Qaeda 
operatives, that sort of thing.
    But my point simply is that if your position is you do not 
consider policy options, you put one policy option on the 
table, and I think in fairness to avoid these kinds of 
critiques you ought to put other policy options on the table, 
particularly those that more people are espousing than fewer. 
So that is just my observation.
    I am concerned about--I want to be fair about this. I am 
not criticizing your bona fides, but I do care about the 
credibility of your work product. I know you do, too. When you 
start down that slippery slope you just get into these kind of 
arguments. So enough said about that.
    Admiral, I would like to ask you about our situation in the 
world today compared to a year or 2 ago. As I understand your 
testimony, I think the words that you used were we are moving 
``in a negative direction.'' You said this in response to a 
question--in Iraq, I am talking about Iraq now. We are moving 
in a negative direction.
    I think you also said--I think all of you indicated that 
Iraqi political developments were ultimately the key for a 
positive resolution in that country; is that correct?
    Admiral McConnell. That is correct.
    Senator Bayh. I think the direct quote you used is that the 
Iraqi leader faced a ``close to impossible task.'' I wrote 
those words down when you spoke them. Is that a correct 
transcript?
    Admiral McConnell. With 20-20 hindsight, I probably would 
have said very difficult task. But difficult nonetheless.
    Senator Bayh. I think ``very difficult'' was the wording of 
the NIE. So my question is, if the political situation in Iraq 
is the key, if the Iraqi leaders face a ``close to impossible 
task'' or ``very difficult task,'' how then do you characterize 
our task?
    Admiral McConnell. Our task with regard to----
    Senator Bayh. Iraq.
    Admiral McConnell.--stability? My reading of this, 
Senator--and I talked with Ambassador Negroponte as I relieved 
him in this process, and I was trying to understand the timing 
and why did we choose the options you were just asking Dr. 
Fingar about. When we started that estimate we had a set of 
conditions and as we worked through the estimate our strategy 
in fact changed and the options considered by this body started 
to change. So we were at a point in time where we were trying 
to do an estimate.
    Now, that said, your question to me is our task.
    Senator Bayh. You have been very candid here and I would 
associate myself with Senator Nelson's remarks and compliment 
you for your openness and your forthrightness. It just seems to 
me that if the Iraqi political situation is the key to this and 
they face either a ``very difficult task'' or a ``close to 
impossible task,'' we need to be honest with the American 
people and say that our task then logically it must follow is 
somewhat similar.
    Admiral McConnell. Our task is similar in that it is very, 
very difficult. The key to the situation now is stability 
because we could not make progress without some level of 
stability, and that is the question.
    Senator Bayh. But this difficulty that we are experiencing 
in Iraq I would assume has not occurred overnight. It has been 
in the process for some time now, the better part of a year or 
maybe longer. Is that a fair assessment?
    Admiral McConnell. I would agree with that, yes, sir.
    Senator Bayh. So if someone indicated in the last 4 months 
or so, let us say, that we were absolutely winning in Iraq, 
that is a mistaken assessment?
    Admiral McConnell. I would not agree that we were winning. 
I think the conditions in 2006 were where it became most 
dramatically evident that the strategy was not being successful 
and my sense is that is why there were adjustments made to the 
strategy.
    Senator Bayh. Based upon your understanding today, if in 
the last couple of months someone came to me and said that we 
had absolutely had enormous successes in Iraq, what would your 
response to that be?
    Admiral McConnell. Enormous successes in previous years?
    Senator Bayh. That the bottom line in Iraq was that we had 
had enormous successes.
    Admiral McConnell. Sir, as we said in the estimate, it was 
going in a negative direction and sectarian violence was 
increasing. My view is that is why the policy changed.
    Senator Bayh. I would encourage you to communicate, and I 
am sure you will, forthrightly with the higher reaches of our 
government. Those statements were made by both the President 
and the Vice President of the United States in the last 4 
months.
    Chairman Levin. Senator Bayh, thank you very much.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    For the record, I would like to acknowledge Admiral 
McConnell's South Carolina roots. We are very proud of you.
    Admiral McConnell. Thank you, sir.
    Senator Graham. To build upon Senator Bayh's questions 
here, what would winning be in Iraq? What is winning?
    Admiral McConnell. In my view, sir, winning would be a 
stable situation that would allow the government to mature to 
the point where they could have a national reconciliation to 
have a nation.
    Senator Graham. They would be an ally in the war on terror?
    Admiral McConnell. If that came to pass the way I described 
it, yes, sir, I believe that.
    Senator Graham. The biggest impediment to political 
reconciliation is the violence, do you agree with that 
statement?
    Admiral McConnell. I agree with that.
    Senator Graham. Political will has to be mustered, but with 
the level of violence it is very difficult to put political 
coalitions together?
    Admiral McConnell. That is correct.
    Senator Graham. In terms of the surge, General, are the 
Iraqis meeting their end of the bargain more or less?
    General Maples. Yes, sir, they are.
    Senator Graham. So your comment regarding the Iraqi 
participation militarily, politically, and economically is that 
they are meeting their end of the bargain?
    General Maples. At this point, yes, sir.
    Senator Graham. Do you agree with that, Admiral?
    Admiral McConnell. I do, sir. It is early in the stage, but 
trends are going in the right direction.
    Senator Graham. I believe you were asked by Senator Thune 
that there had been no wargaming of a failed state in Iraq; is 
that correct?
    Admiral McConnell. Not that I am aware of, sir. There may 
have been.
    Senator Graham. Can I suggest that we do one?
    Admiral McConnell. Yes, sir. We would be happy to do that.
    Senator Graham. Thanks.
    Would Turkey stand on the sidelines and watch an 
independent Kurdistan be formed in the north without going to 
war?
    Admiral McConnell. In my opinion, no, sir.
    Senator Graham. Would the Sunni Arab states sit on the 
sidelines and watch an all-out slaughter of the Sunni minority 
in Iraq without getting involved?
    Admiral McConnell. I think they would be involved.
    Senator Graham. So we are beginning to war plan here.
    Now, Iran. What is the Iranian goal when it comes to Iraq?
    Admiral McConnell. Ultimately Iran, in my view, would like 
to have a Shiite state dominate in Iraq.
    Senator Graham. So it is not the Iranian goal to have a 
functioning democracy on their border, would you agree with 
that, where all groups live in peace?
    Admiral McConnell. Absolutely not their goal to have a 
functioning democracy.
    Senator Graham. The reason it is not their goal, it would 
be a threat to their own theocracy; is that correct?
    Admiral McConnell. That is correct, sir.
    Senator Graham. So can we say with a degree of certainty, 
as long as we are trying to create a functioning democracy 
where different religious groups can live in peace, Iran will 
be a problem?
    Admiral McConnell. I would agree with that statement.
    Senator Graham. Syria. Is it Syria's goal to see a 
functioning democracy emerge in Iraq?
    Admiral McConnell. It is not Syria's goal to see a 
functioning democracy in Iraq.
    Senator Graham. One of the biggest nightmares for the 
Syrian regime, which is a police state, is to have a 
representative government on their border, whether it be 
Lebanon or Iraq; do you agree with that?
    Admiral McConnell. I would agree with that.
    Senator Graham. Do you think it is an accident that Syria 
is trying to interfere with Lebanese democratic efforts?
    Admiral McConnell. Not an accident.
    Senator Graham. Do you believe Iran wants a nuclear weapon?
    Admiral McConnell. Yes.
    Senator Graham. Do you think they are lying when they say 
they do not?
    Admiral McConnell. I do believe they lied.
    Senator Graham. Is it true that the leader of Iran, the 
president, has denied the Holocaust exists?
    Admiral McConnell. It is true that he denied that.
    Senator Graham. So the world has this dilemma: Should we 
allow a person who denies the Holocaust exists have nuclear 
materials? Is that the dilemma the world faces?
    Admiral McConnell. Indeed.
    Senator Graham. So if someone came to the United Nations 
requesting a nuclear program and the application said, does 
your leader deny the existence of the Holocaust, should we go 
to the next question?
    Admiral McConnell. I think we should.
    Senator Graham. So my statement is that anybody that wants 
a nuclear program, for whatever purpose, if the leader of your 
nation denies the Holocaust exists, you do not get it. Is that 
an unreasonable request?
    Admiral McConnell. It sounds reasonable to me, Senator.
    Senator Graham. Good.
    Economically, could we affect--if the world came together 
and put sanctions on Iran, could it work to change their 
behavior?
    Admiral McConnell. It could have significant impact. I 
think it might have dramatic impact.
    Senator Graham. Has that been done yet?
    Admiral McConnell. It has not been done.
    Senator Graham. The Iranians depend on gasoline coming 
outside their country because they do not have refining 
capacity?
    Admiral McConnell. Yes, sir, that is correct.
    Senator Graham. So to the world, if you would like to 
change the behavior of the Iranian regime, you believe economic 
sanctions properly applied could work?
    Admiral McConnell. Would have a very dramatic impact.
    Senator Graham. If Iran developed a nuclear weapon, what is 
the likelihood they would use it against Israel?
    Admiral McConnell. They have stated that they would 
consider that, that Israel should not exist, should be wiped 
off the map. I do not know that I would conclude that they 
would use it in a prescribed period of time, but certainly the 
risk would be there.
    Senator Graham. Can you tell me they would not?
    Admiral McConnell. No.
    Senator Graham. Can you tell the state of Israel they would 
not?
    Admiral McConnell. No.
    Senator Graham. If you were the Israeli prime minister, 
what would you do?
    Admiral McConnell. I would react in a way to protect my 
country.
    Senator Graham. Thank you.
    Chairman Levin. Thank you, Senator Graham.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I want to thank Senator Graham for those great questions, 
excellent as always, great content.
    Senator Graham has touched on a lot of extremely important 
issues, as other Senators have. So let me change gears and 
change the focus just for a moment. I would like to ask about 
the greater Horn of Africa. There has been a lot of discussion 
about this. It is lower level in terms of visibility, but it 
may be just as great of a challenge as we see in other parts of 
the world. We all know the history in Somalia. We can look at 
countries like Ethiopia and Eritrea and other nations there 
that have had either involvement in other countries, proxy 
wars, et cetera, funding various things, and maybe even some of 
these nations being involved in attacking other countries in 
one way or another.
    Anyway, we do not have to go through all that today. But I 
would like to get the panel's thoughts if I could on the 
region. Some of the news, when you read it, it sounds pretty 
bleak out of Africa, especially the greater Horn of Africa. My 
sense is that instability means opportunity for terrorists and 
terrorism.
    So if I could, I would just like to ask, how can we more 
effectively address the growing threat that is coming out of 
the greater Horn of Africa? Whoever wants to go first, go 
ahead.
    Admiral McConnell. Sir, let me start. I lived in that 
region for a period of my life and visited a number of those 
countries. My view is both stability and cultural--let me just 
use Somalia as an example--tribal, clans, sub-clans. As I 
mentioned in my remarks, one group would rather suffer than see 
another group prevail. So there are inherent difficulties in 
the Horn of Africa.
    But the current level of stability and strife and poverty 
and so on just foments additional problems for us. So in my 
view, if we have a way to establish a level of stability there 
may be a path then to rebuild the nation.
    Senator Pryor. Anybody else want to comment?
    General Maples. I think it remains an area of concern, in 
particular in the sense that we talked earlier about ungoverned 
spaces, and the fact that there is no control just provides the 
opportunity for al Qaeda or al Qaeda affiliates and East 
African al Qaeda to operate from there, to plan from there, and 
to create instability in the rest of Africa.
    Dr. Fingar. I would echo that. The region as a whole, even 
those areas that are not currently affected by the kind of 
violence we see in Somalia and Sudan, are fragile. The tribal 
character spilling across the borders, the ungoverned spaces, 
the fragility; the danger of the instability and therefore the 
ungoverned spaces expanding is very high. As General Maples 
said, we know that al Qaeda has been involved with the Islamic 
Courts. We judge that some of those responsible for the attacks 
on the American embassies were present in Somalia, had a degree 
of safe haven.
    It is very easy to make a long list of the maladies, the 
dangers in the region. It is much more difficult analytically 
to say precisely what would be most effective in redressing 
those difficulties.
    Senator Pryor. Let me follow up on that if I may. General 
Maples, you mentioned that this area remains an area of 
concern. How high a priority, though, is it in the IC? Are we 
allocating enough resources on the intelligence side for that 
region of the world?
    General Maples. I believe from a military standpoint that 
we are, and in those times when we need to increase that we are 
taking the appropriate actions to support the commander, who 
has a focus on this area right now, the Central Command 
commander.
    Senator Pryor. Admiral McConnell, do you agree with that?
    Admiral McConnell. Sir, what I was going to observe from 
long years of experience in this, there have been times when we 
tried to be clairvoyant, to pick the places to focus our 
attention, and more often than not we focused in one area and 
we had a problem somewhere else. We have a new process now 
called our national intelligence priorities framework. What we 
do with that is engage with the policymakers on a regular basis 
to get them to validate where we focus and so on.
    So I think we are better than we were. We have reasonable 
focus on the area, but in all candor, given the focus on Iraq 
and al Qaeda and other places, it probably is not as robust as 
we would all like it.
    Dr. Fingar. I would actually go a little further than that, 
the area that we, the Office of the DNI, have chosen to focus 
on for rebuilding capability is Africa, where the drawdown of 
capability occurred in order to shift analysts to higher 
priorities, counterterrorism, counterproliferation, later Iran 
and Iraq. We really have a rebuilding challenge here, because 
the level of expertise required to get arms around the 
religious, tribal, ethnic, and economic cleavages in the 
region, to understand and identify the more capable leaders 
with whom one might work, to devise strategies, we do not have 
the analytic expertise that we need.
    We have launched an effort to rebuild it. So we are able, 
as General Maples indicated, to move short-term stopgap, to 
answer very immediate questions, but this is an area that as a 
function of higher priorities over a decade or more has the 
fewest analysts, the most junior analysts, and the ones with, 
the nature of it, the least experience on the ground.
    Senator Pryor. That is very concerning, what you are 
saying. I would just encourage you to work with us to try to 
get the proper amount, the proper level of resources and 
attention on that area, because I think, not right now, but in 
the future, this is going to be a major problem for the United 
States.
    Dr. Fingar. Senator, I would be happy to meet with you with 
my Africa staff to explain the initiative we have and seek your 
help.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    Admiral McConnell, the annual threat estimate characterizes 
Iran as determined to obtain nuclear weapons. In response to 
the series of questions from my colleague, Senator Graham, you 
obviously agree with that assessment. I want to ask it a little 
bit differently. What is the best estimate of the U.S. IC for 
how long it would take for Iran to develop nuclear weapons and 
the capacity to deliver them, and what degree of confidence do 
you have in that estimate?
    Admiral McConnell. The earliest they could produce a 
nuclear weapon would be early next decade, more likely mid-next 
decade.
    Senator Clinton. By mid-next decade, are we talking 2015?
    Admiral McConnell. We would be talking 2015.
    Senator Clinton. When that date is reached, 2015, which is 
the earliest that they could produce a nuclear weapon, would 
they then have the capacity to deliver that nuclear weapon?
    Admiral McConnell. It depends on how they develop their 
program. If they were to start the program for delivery 
consistent with the development of a nuclear weapon, they could 
match and marry up in the same timeframe. Normally it would 
take a little longer to have a delivery capability.
    Senator Clinton. Thank you, Admiral McConnell.
    General Maples, in 2005 Admiral Jacoby told me in testimony 
before this committee that North Korea had the ability to arm a 
missile with a nuclear device. I think it was the first time 
that testimony had ever been given in public. Last year, 
General Maples, you told me that North Korea is ``in the 
process of developing an ICBM capable of delivering a nuclear 
warhead, but they have not done so yet, nor have they tested 
it.''
    Given the July 2006 missile test, would you revise your 
assessment of whether North Korea has developed an ICBM capable 
of delivering a nuclear warhead to the United States? If not, 
how many more years before North Korea has this capability?
    General Maples. I believe they have the technical 
capability, as we saw by the Taepodong, but they have not 
successfully tested it yet.
    Senator Clinton. I just want to be clear that when we are 
talking about the technical capability we are talking about a 
missile launched from North Korea that could reach California.
    General Maples. That is correct.
    Senator Clinton. With your assessment, do you have any best 
estimates as to how many more years before they would have a 
deliverable capability?
    General Maples. I would probably estimate it is not a 
matter of years, but in fact they will have learned from the 
Taepodong launch of this last summer and gone back to try to 
make corrections to whatever the failure was and apply that to 
the missile systems that they already have.
    Senator Clinton. I would like to ask Dr. Fingar, because I 
understand you are an expert in China, and also General Maples. 
In your written statement that was submitted to the committee 
regarding China's military modernization, you state that you 
assess ``China's aspirations for great power status, threat 
perceptions, and security strategy would drive China's 
modernization efforts even if the Taiwan problem were 
resolved.'' is that correct?
    Dr. Fingar. That is correct.
    Senator Clinton. Your written statement, however, fails to 
mention China's January 11 anti-satellite test. So perhaps this 
goes more to General Maples, but obviously I would be pleased 
to hear from anyone on the panel. Given China's recent anti-
satellite test and the Chinese government's professed 
opposition to the weaponization of space, what explains, in the 
opinion of any of you, the government's decision to permit the 
military to conduct such a test? Do you believe that the 
leadership, either civilian or military, was aware of the 
potential negative implications in terms of U.S. diplomatic and 
potential military response? Or was there some other motive at 
work?
    General Maples, Dr. Fingar?
    General Maples. I would just start. I believe the Chinese 
and the Russians to some extent will continue to pursue space 
and counterspace capabilities, as they demonstrated by the 
launch of the SC-19.
    Senator Clinton. Do you see that as fitting into your 
assessment that they are going to continue to modernize 
regardless of any other factor that is going on, including the 
status of Taiwan?
    General Maples. I believe they will continue to modernize, 
yes, ma'am.
    Senator Clinton. Let me ask each of you to briefly respond. 
In your opinion, under what circumstances would China become a 
military threat to the United States?
    Admiral McConnell. China today could be a military threat. 
They have ICBMs, nuclear warheads, and so on. So it is a matter 
of their building their military, in my view, to reach some 
state of parity with the United States. So in a threat sense, 
it becomes intentions. So they are a threat today. They would 
become an increasing threat over time.
    Senator Clinton. Dr. Fingar?
    Dr. Fingar. They've certainly had the capability for 
decades. But they have appeared to have decided that we are not 
an enemy, that they require a peaceful international 
environment in order to proceed with their own efforts for 
economic modernization in order to address their very severe 
social problems. But they are a country with a history of, in 
their view, having been victimized by stronger external powers 
and they take national defense, including lessons learned out 
of Operations Desert Shield and Desert Storm, to heart.
    Senator Clinton. I appreciate your comments and perhaps 
this is an issue that we can explore further, because obviously 
both within their government as well as within ours there is a 
debate occurring as to how to view each other. I personally 
think it is one of the most important debates for us to get 
right.
    Finally, Dr. Fingar, in response to a series of questions 
about the NIE on Iraq, do you have an opinion about the impact 
on Iraq's potential for stability and security of a phased 
redeployment versus a rapid withdrawal?
    Dr. Fingar. Senator, I do not. It is not a question that I 
have looked at or that we have looked at.
    Senator Clinton. I think that is important, and I 
appreciate your candor on that issue, because clearly the 
conclusion some are drawing from the NIE would suggest that 
there was an opinion and that you had such an opinion, and I 
appreciate your response to my question.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Clinton.
    Just a very brief second round, perhaps a couple minutes 
each.
    Admiral, I think that your statement that China will be an 
increasing threat is not really what you intend, but if it is, 
so be it. Did you not really mean that they will have an 
increasing capability?
    Admiral McConnell. Yes, sir, better stated. What I was 
attempting to say was they will improve their capability over 
time. My view, the greater threat to us as a Nation is internal 
issues in China. They have a growth plan that they have to meet 
or they will have internal strife. So capability growing. 
Threat is more internal; it could be a problem for us.
    Chairman Levin. Could be, but you did not----
    Admiral McConnell. I misstated it.
    Chairman Levin. Thank you.
    Now, in terms of the weapons coming in from Syria, those 
weapons which you have described as coming in from Syria and 
perhaps other Sunni neighbors are killing our troops. Do we 
have a plan to address the Syrian weapon source of killings of 
our troops?
    Admiral McConnell. Sir, I know the military is working that 
border area to close it down from not only weapons but 
jihadists coming in.
    Chairman Levin. That is more than just--we are trying to 
close down the Iranian border area, too.
    Admiral McConnell. Yes.
    Chairman Levin. The problem is that these weapons are 
coming from a state which does not recognize Israel either, 
just like Iran does not. We have to try to stop weapons coming 
into Iraq from any source that are killing our troops. I agree 
with the comments about trying to stop them coming in from 
Iran, but I think we have to try to stop them that are going to 
the Sunni insurgents as well as to the Shiite. I am just 
wondering, does the military have a plan to, if necessary, go 
into Syria to go to the source of any weapons coming from Syria 
that are going to Sunni insurgents, that are killing our 
troops? General or Admiral, either one?
    Admiral McConnell. There is an attempt to stop the flow of 
any traffic across that border, but most of the weapons that 
are being used inside Iraq are there now. It is not a matter of 
resupply. It is just the stocks that were there from the Saddam 
era are huge.
    Chairman Levin. I understand that, but there also are 
weapons, you have testified, coming in now from Syria. Is that 
true?
    Admiral McConnell. Some, yes, sir.
    Chairman Levin. I think we ought to take action on all 
fronts, including Syria and any other source of weapons coming 
in. Obviously, Iran is the focus, but it should not be the sole 
focus.
    The economic sanctions answer that you gave is a very 
significant answer, as to whether or not economic sanctions, if 
applied against Iran, could stop them from pursuing any nuclear 
program. Your answer was, as I understand it, yes, that strong 
economic sanctions could have an effect. Is that what your 
testimony is?
    Admiral McConnell. My answer was that strong economic 
sanctions would have dramatic impact. Now, whether it would 
change or not, that is to be determined.
    Chairman Levin. Unless their policy might change, their 
direction might change, what is the relevance of the impact? 
That is the source of it.
    Admiral McConnell. It would make them be more mindful of 
continuing a policy that causes sanctions, because 
international economic sanctions that were significant would 
cause them stress and pain.
    Chairman Levin. Might that have an impact on whether they 
continue to pursue a nuclear program?
    Admiral McConnell. It could have impact, yes, sir.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. I will defer to my colleague from South 
Carolina since I am going to stay for the entire second round.
    Chairman Levin. We are going to meet in S-407 of the 
Capitol, by the way, immediately after this second round.
    Senator Warner. I just have one question.
    Chairman Levin. Senator Graham.
    Senator Graham. Thank you. Thank you, Mr. Chairman.
    The point about economic sanctions I think--I do not think 
anyone here wants to have another engagement with another 
country in the Middle East unless we have to. The point is, at 
what point do we have to? It goes back to Senator Clinton's 
question: What time period do we have left reasonably speaking 
before Iran procures a nuclear weapon, if we all agree they are 
trying? To me, the first thing we have to come to grips with, 
is it the intent of the regime to develop a nuclear weapons 
program in your opinion, not a nuclear power program?
    Admiral McConnell. My opinion is they are pursuing a 
nuclear weapon, yes, sir.
    Senator Graham. So the intent is there for this country to 
have a nuclear weapon, we believe?
    Admiral McConnell. In my judgment.
    Senator Graham. So we have several alternatives to stop 
that. Do you believe it is in the world's best interest for 
Iran not to have a nuclear weapon?
    Admiral McConnell. I would agree with that.
    Senator Graham. It would be one of the most destabilizing 
events in modern times, is that correct?
    Admiral McConnell. Particularly in this part of the world.
    Senator Graham. It could create potentially an arms race in 
the Mideast?
    Admiral McConnell. Could be.
    Senator Graham. So we have a window of time left here. Now, 
you answered Senator Clinton's question some time between now 
and 2015 is our best guess as to when they would have a nuclear 
weapon?
    Admiral McConnell. Early to mid next decade.
    Senator Graham. Now, the Israelis have a different view of 
that. Do you know why?
    Admiral McConnell. I do not know why, sir. I know they 
think it may be a little earlier.
    Senator Graham. Can you go down and talk?
    Admiral McConnell. We do.
    Senator Graham. Good, because to be wrong here is to be 
wrong big time.
    Now, getting back to the economic sanctions. I do believe 
they could work. I just do not believe they have been tried 
yet. Do you agree with that statement?
    Admiral McConnell. The United Nations and the IC have not 
applied the kind of economic sanctions you are describing, sir, 
no.
    Senator Graham. So would you agree that economic sanctions 
are the last best hope short of military action to prevent a 
nuclear weapons program from occurring in Iran?
    Admiral McConnell. Sir, that goes to a policy level 
question. I am making the judgment based on what I have 
observed in other situations that it would have a dramatic 
impact.
    Senator Graham. Fair enough, okay.
    Redeploying. Regardless of the timeframe, if it is 
perceived by the militants of the region and al Qaeda in 
particular that we left Iraq because we were driven out, what 
effect would that have on the overall war on terror?
    Admiral McConnell. It would certainly encourage those that 
are inside Iraq who are stimulating sectarian violence.
    Senator Graham. Do you believe the outcome in Iraq is part 
of the overall war on terror?
    Admiral McConnell. A stabilized Iraq would be in our 
interest in terms of fighting the overall global war on terror.
    Senator Graham. Do you believe that Iraq is a central 
battlefront in the overall war on terror?
    Admiral McConnell. The outcome of Iraq makes it so today, 
based on where we are today.
    Senator Graham. Does al Qaeda believe that the outcome in 
Iraq is part of their overall strategy?
    Admiral McConnell. I would not go so far as to say al Qaeda 
would necessarily believe that. Al Qaeda may have designs----
    Senator Graham. Have they not said that?
    Admiral McConnell. They want to reestablish their base and 
their objective could be in Afghanistan.
    Senator Graham. Okay, so you do not think al Qaeda sees 
democracy in Iraq as a threat to their agenda?
    Admiral McConnell. You described al Qaeda as one large 
organization. There are elements of AQI and----
    Senator Graham. I do not want to use any more. The bottom 
line is if we withdraw to Kuwait what is the likelihood that al 
Qaeda-type elements would follow us to Kuwait?
    Admiral McConnell. Unlikely.
    Senator Graham. Unlikely? Is it not the stated policy as an 
organization to drive us out of the region and to destroy 
Israel?
    Admiral McConnell. It is.
    Senator Graham. Why would they not likely follow us to 
Kuwait?
    Admiral McConnell. In time they would try to do that. But 
the way you were framing your question, if we withdrew to 
Kuwait would they just follow right on, I do not----
    Senator Graham. No, I am saying that----
    Admiral McConnell. In time.
    Senator Graham. I guess, General Maples, maybe just end it 
with this: The big picture is, I believe if we withdraw from 
Iraq, whether it is a year, 6 months, 2 years, whatever number 
you want to pick, that if it is seen by the militant groups 
within the Mideast, no matter where we go in the Middle East, 
they are coming after us. Am I wrong?
    General Maples. It is our presence in the Middle East that 
they are concerned about.
    Admiral McConnell. They have already attacked inside Saudi 
Arabia, as an example. So, yes, they will come wherever we are.
    Senator Graham. Is there any safe place for us to go in the 
Mideast without being attacked?
    Admiral McConnell. I cannot think of one.
    Senator Graham. Thank you.
    Chairman Levin. Thank you.
    Senator Reed.
    Senator Reed. Admiral McConnell, we all recall about 6 
years ago when the administration essentially took apart the 
Agreed Framework with North Korea. The major rationale at the 
time was the discovery of a highly enriched uranium (HEU) 
program beyond the plutonium that had been capped, was being 
inspected by the IAEA. Now we have another agreement, looks 
somewhat like the Framework, maybe not entirely correct. But 
the question remains what of the HEU program?
    Several possibilities exist. One, it was never really a 
real program. Or something has happened in the interim to 
change the program. Can you shed any light on the HEU program 
and why now we can enter into an agreement with the North 
Koreans?
    Admiral McConnell. No, sir, I cannot personally shed any 
light. But perhaps my colleagues can. I know that the primary 
focus in the current timeframe was on the plutonium in the 
reactor. I do not personally know and have not yet caught up to 
that intelligence if it exists with regard to the HEU.
    Senator Reed. I would be happy to have you defer to 
someone.
    Dr. DiTrani. Sir, I would only--I would add on that, sir--
--
    Chairman Levin. Would you identify yourself, please?
    Dr. DiTrani. Joseph DiTrani. I am the mission manager for 
North Korea with the Office of the DNI.
    Chairman Levin. If you could stand up and talk real loud.
    Senator Reed. Or take the mike from Dr. Fingar.
    Dr. DiTrani. If I might, sir, on the uranium enrichment 
program, in October 2002 we confronted the North Koreans in 
Pyongyang with information that they were acquiring material 
sufficient for a production-scale capability of enriching 
uranium, which was in violation of the North-South 
Denuclearization, the Non-Proliferation Treaty (NPT), and also 
the spirit of the Agreed Framework.
    They were confronted with that information in October 2002 
and at that time they admitted to having such a program, and 
immediately thereafter that is when they pulled out of the NPT, 
they asked the IAEA to leave, and so forth. The United States 
persists in our negotiations with them saying that we need a 
declaration that speaks to acquisitions, that addresses a 
production-scale uranium enrichment capability.
    My understanding is of the February 13 agreement, this 
agreement speaks of all nuclear programs. Indeed, the North 
Koreans are very aware that when we speak of all nuclear 
programs we are also including their acquisitions of materials 
necessary for production-scale uranium enrichment program, and 
indeed which they were making in the late 1990s through the 
early 2000s. We still see elements of that program.
    So the short answer to your question, sir, is that is still 
on the table and North Korea still must address the issue of 
their acquisitions of materials, to include centrifuges, that 
even President Musharraf in his book speaks to a few dozen 
centrifuges, P1s and P2s, that were in violation of all those 
agreements. They need to address that issue as part of the 
denuclearization process.
    Senator Reed. How different is that from 2002, when we 
confronted them and asked them to detail their experiments, 
their acquisition of centrifuges? It seems to be equivalent.
    Dr. DiTrani. We have never walked away from that issue, 
sir. We are still looking for them to----
    Senator Reed. But we walked away from the Agreed Framework.
    Dr. DiTrani. They pulled out of the NPT, they asked the 
IAEA to leave, after admitting to having made those 
acquisitions, sir. That is why the Six-Party Talks kicked in 
after the three parties met in April 2003.
    Senator Reed. Do you have any further indication of whether 
that program has progressed in the last 6 years, 1, or 2, the 
evidence, the credibility of the evidence that we had initially 
suggesting they had a program rather than aspirations?
    Dr. DiTrani. Sir, we had high confidence. The assessment 
was with high confidence that indeed they were making 
acquisitions necessary for, if you will, a production-scale 
program, and we still have confidence that the program is in 
existence at the mid-confidence level, yes, sir, absolutely.
    Senator Reed. Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Warner.
    Senator Warner. Thank you very much.
    Mr. Chairman, that was a very impressive bit of testimony. 
Do we have in our record the gentleman's name and his 
portfolio?
    Chairman Levin. We have his name and his portfolio.
    Senator Warner. All right, fine. Let's make sure the record 
reflects it.
    Chairman Levin. We asked him to state that for the record.
    Senator Warner. Thank you very much.
    Admiral McConnell, you were asked a question by my 
colleague from South Carolina, whether if the initiatives of 
the Security Council with regard to trying to restrain Iran 
from moving towards a nuclear weapon failed, then the next step 
would be a military action. I think you very carefully answered 
that that was a policy question.
    I have over the past year or 2, tried to draw the 
attention, both here and abroad, of those dealing with this 
problem, to the success that we had in containing the Soviet 
Union with NATO and indeed the concept of deterrence. I think 
there is another step between, say, the failure of this round 
of Security Council efforts, which I suggest at this time 
hopefully will be fruitful and that there will be a body of 
sanctions that will bring about the end result we desire. But 
failing that and if Iran continues to doggedly persist, then I 
would suggest we begin to think about the model of how we dealt 
with the Soviet Union, the NATO concept, that we would ask 
other nations to join us in a consortium of nations, since it 
is in their interest not to have this happen, and put offshore, 
primarily in naval platforms and others, such power as can be 
brought to bear at any time the region or indeed other parts of 
the world felt threatened by Iraq's nuclear program. So I just 
bring that forward as a suggestion.
    Chairman Levin. It is such an important question. I wonder 
if we could not ask the Admiral to respond. I happen to agree 
with what you said. I think it is very significant, that there 
is a deterrence possibility if economic sanctions fail. I think 
the question is so properly and strongly phrased, I would hope, 
Admiral, that you would respond in agreement. But nonetheless, 
I think it is important that you respond.
    Admiral McConnell. Sir, I promised to speak with all candor 
when I am appearing before you, but you have taken me now to a 
policy question. It is a fundamental policy issue of difference 
of opinion. Might it work? It could. It worked with the 
Soviets. But it is a policy question of whether we would pursue 
that goal or not.
    Senator Warner. Fair enough. But you will be sitting around 
the policy roundtable if we have the misfortune of having to be 
cast into that posture, where all efforts of the United Nations 
and the Security Council and indeed free nations fail, Germany 
has taken quite an active and strong role in this, in addition 
to the Permanent 5, and it is an option I think that not only 
the United States, but indeed the United Nations and others, 
should consider. We would just set up a separate framework, not 
to call it NATO, just some other framework.
    I want to turn to Russia. It is interesting, Mr. Chairman, 
when you and I came to the Senate some 29 years ago, we were 
always consumed with the Soviet Union and Russia. I would like 
to get the Admiral's views with regard to what President Putin 
had to say the other day.
    In your testimony, you said ``Russian assertiveness will 
continue to inject elements of rivalry and antagonism in U.S. 
dealings with Moscow, particularly our interactions in the 
former Soviet Union, and will dampen our ability to cooperate 
with Russia on issues ranging from counterterrorism and 
nonproliferation to energy and democracy promotion in the 
Middle East.''
    We had all been hopeful that Russia, as opposed to the 
former Soviet Union, would begin to bring itself into a 
stronger partnership with the free world to pursue these things 
like nonproliferation and the questions before the world with 
regard to Iran. It is not in Russia's interest in my judgment 
to see that Iran becomes a nation with a certain measure of 
capability utilizing nuclear WMDs.
    President Putin went to the Wehrkunde Conference this year. 
I have been to Wehrkunde in years past, but I cannot remember a 
more astonishing performance at Wehrkunde. We all know of one 
of the Russian presidents who came over and banged his shoe on 
the table before the United Nations and the world. Putin's 
performance was sort of a second cousin to banging the shoe.
    Admiral McConnell. Yes, sir. Sir, quite frankly, it 
surprised a number of us that have been observers of the old 
Soviet Union and the current Russia. When we looked at the 
speech, there was not anything dramatically new in the speech. 
It was just the first time it was put together that way and 
stated that way. So we were admittedly surprised.
    One of the lines of thought was Putin was leaving there to 
go to the Middle East to visit places he had never been before, 
and perhaps he was setting himself up for that particular 
visit. I have noticed that since that speech a number of public 
statements in Russia have walked away from it a bit, to back it 
back off just a bit.
    But that said, it stimulated me, because I used to focus on 
this area so much, to understand a little bit more about it. 
What I have learned so far is the march to democracy has taken 
a back step and now there are----
    Senator Warner. In Russia?
    Admiral McConnell. In Russia.
    Senator Warner. Regrettably.
    Admiral McConnell.--arrangements to control the process and 
the populace and the parties and so on, to the point of picking 
the next leader of Russia. I do not know that that has been 
done with 100 percent surety, but in fact we are seeing 
behavior that would take them down that path.
    They are doing a few things----
    Senator Warner. In other words, they may depart from their 
structure of laws with regard to the succession of Putin, which 
is to take place in the next 6 or 8 months?
    Admiral McConnell. Yes, sir, I think it is this year. I 
think it is this calendar year.
    Senator Warner. That is correct, and that they might just 
deviate and crown someone?
    Admiral McConnell. One way to think about it would be if 
you select your successor and put him in position and work the 
arrangements, might that successor be beholding to you? So that 
is my worry, is the march toward democracy the way we 
understood it now being controlled in a way that is less of a 
democratic process.
    They are doing some things to alleviate pressure. They set 
up a body that takes a look at extreme cases where the 
government had overreacted or it had conducted some activity 
that would not stand public opinion, and that allows a little 
bit of pressure relief. But by and large it is still a very 
controlled state.
    Senator Warner. We have this issue before us, which is a 
first cousin to this problem of our plans to put a missile 
defense system in Poland. Now you hear all these bellicose 
statements coming out of various areas of the Russian hierarchy 
on this. Do you think that is part of this problem?
    Admiral McConnell. Yes, sir. What I tried to do was get a 
little better understanding of the advice and counsel going to 
Putin. What I have been able to figure out so far is that those 
that he is listening to are extremely conservative and very 
suspicious of the United States and interpret things through a 
lens that portrays Russia as the downtrodden, or we are trying 
to hold them back, to the advantage of the United States. My 
reading of that is they are not interpreting the lens 
correctly. But they have renewed energy and vigor because of 
the high price of oil.
    Senator Warner. They are using that almost as a tool of 
their diplomacy now.
    Admiral McConnell. Exactly.
    Senator Warner. Thank you, Admiral. Bringing to the table 
your vast experience in this area will be very helpful.
    Admiral McConnell. Thank you, sir.
    Chairman Levin. Thank you, Senator Warner.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    Mr. Chairman, I think it would be useful to have the 
committee staff look into the chronology of the activities 
surrounding our statement back in 2002 about North Korea's HEU 
program. My recollection was that we stopped sending fuel oil 
before North Korea pulled out of the NPT and dismissed the IAEA 
inspectors. But I think this is very important because we have 
learned some lessons. I think we have learned some lessons 
about what not to do in dealing with serious threats such as 
that posed by a nation like North Korea and others obtaining 
nuclear weapons.
    But if we could get that chronology. Thank you.
    Chairman Levin. The committee staff will do that. By the 
way, my recollection is the same as yours, that we did stop 
sending the heavy fuel oil to North Korea before they withdrew 
from the Framework and left the IAEA. But we will have the 
staff doublecheck that.
    Senator Clinton. Thank you.
    Vice President Cheney was in Pakistan yesterday and from 
the news reports it appears that he delivered what is referred 
to as a stiff message, a stiff private message, to the 
Pakistani government to crack down more effectively on the 
Taliban and al Qaeda inside Pakistan. I assume, Admiral 
McConnell, that Vice President Cheney was briefed in an up-to-
date way about whatever intelligence assessments were 
attributed to our understanding of Pakistan before he went; is 
that correct?
    Admiral McConnell. That is correct, and in fact he was 
accompanied by the Deputy Director of CIA to ensure he had all 
the current information.
    Senator Clinton. So I just want to ask you therefore, based 
on that and based on Vice President Cheney's apparent mission 
there, is it the assessment of our IC, number one, that 
Pakistan is capable of doing more with respect to Taliban and 
al Qaeda than they currently have done; and number two, that 
President Musharraf's hold on power within Pakistan is firm 
enough for him to take such additional steps?
    Admiral McConnell. One, we believe they could do more. The 
issue of being elected for the next term is the issue that in 
my view the president of Pakistan is wrestling with. He signed 
the agreement with the tribal leaders in the frontier area, as 
you are aware, last fall. The question was, he was taking 
casualties for going into those areas attempting to chase al 
Qaeda. The President of Pakistan believed that he could be more 
effective by signing this peace agreement. From our point of 
view, capabilities of al Qaeda for training and so on 
increased. Therefore, the Vice President's visit and others' 
visit to make the case that we have to be more aggressive in 
going after al Qaeda in Pakistan.
    The balancing act, of course, is the president's standing 
in that country with an election coming up this fall.
    Senator Clinton. Thank you.
    Chairman Levin. Thank you, Senator Clinton.
    We will now adjourn to S-407 of the Capitol. We are not 
sure how long that will last. It should be fairly brief, but we 
will go immediately, those of us who are able to go, to S-407 
of the Capitol.
    Thank you all very much for your testimony. We stand 
adjourned.
    [Questions for the record with answers supplied follow:]

               Questions submitted by Senator Carl Levin

                           STABILITY IN IRAQ

    1. Senator Levin. Admiral McConnell, Senator Thune asked you the 
following question: ``If the United States decided to adopt the policy 
of withdrawing troops from Iraq before it is secure, do you believe 
that Iraq will become a failed state?'' You answered Senator Thune as 
follows: ``I think that's a very likely possibility, at least the way 
we think of Iraq today--yes, sir.'' I have a number of follow-up 
questions.
    President Bush's plan is for the surge of U.S. forces to be 
temporary, followed by a withdrawal of forces. If, during the surge, 
the violence subsides, and then the planned withdrawal begins, would 
you also expect the result to be a failed state?
    Admiral McConnell. [Deleted.]

    2. Senator Levin. Admiral McConnell, suppose the United States 
begins a phased redeployment of its troops as a way of pressuring the 
Iraqis to reach a political settlement, since there is a consensus that 
the sectarian violence won't end and the insurgency won't be defeated 
without a political settlement, and the Iraqis achieve a political 
settlement which results in major progress in ending the violence, do 
you also expect the result to be a failed state?
    Admiral McConnell. [Deleted.]

    3. Senator Levin. Admiral McConnell, suppose Iraq begins to make 
progress on political reconciliation without the pressure of a U.S.-
phased redeployment and starts to become more secure as a result. If 
the United States begins a phased withdrawal of forces, would your 
answer be the same?
    Admiral McConnell. [Deleted.]

    4. Senator Levin. Admiral McConnell, is there a difference between 
Iraq as a ``failed state'' and Iraq in a condition of civil war? If so, 
what is the difference? If the main difference is that in the case of a 
failed state, terrorist groups like al Qaeda in Iraq would have an 
uncontested sanctuary, would it not be possible to address that problem 
by keeping a sufficient force in the area to conduct operations against 
terrorists like al Qaeda in Iraq?
    Admiral McConnell. [Deleted.]

    5. Senator Levin. Admiral McConnell, what do you mean by ``the way 
we think of Iraq today?''
    Admiral McConnell. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                          REPORTS TO CONGRESS

    6. Senator Byrd. Admiral McConnell, the National Defense 
Authorization Act for Fiscal Year 2007 (P.L. 109-364) called for two 
key reports on Iran: an updated, comprehensive National Intelligence 
Estimate (NIE) on Iran, and a report on the objectives of U.S. policy 
on Iran and the strategy for achieving those objectives. The deadline 
for those reports has already been passed--they were due to Congress by 
mid-January. As administration officials continue to make public claims 
about Iran's interference in Iraq, its contribution to attacks on our 
soldiers, and its progress toward a nuclear weapons capability, it is 
all the more critical that Congress be given the information required 
in these reports. Why has there been a delay in delivering them, and 
what date will they be transmitted?
    Admiral McConnell. [Deleted.]

                            AL QAEDA IN IRAQ

    7. Senator Byrd. Admiral McConnell, during your testimony you noted 
that the preeminent challenge facing the United States is terrorism, 
and al Qaeda is the greatest threat. Does the Intelligence Community 
(IC) believe that the U.S. invasion of Iraq has diminished the capacity 
of al Qaeda to conduct terrorist attacks against U.S. interests?
    Admiral McConnell. [Deleted.]

    8. Senator Byrd. Admiral McConnell, does the IC believe that 
continued U.S. occupation of Iraq is constraining the strength of 
terrorist and extremist groups like al Qaeda, or contributing to it? 
Please respond in unclassified form to the extent possible.
    Admiral McConnell. The IC views the war in Iraq as one of several 
factors fueling the spread of the global jihad movement, which includes 
al Qaeda and numerous like-minded groups. The Iraq conflict has become 
a rallying point for the movement, breeding resentment of U.S. 
involvement in the Islamic world and feeding into fears of Western 
domination--sentiments that jihadists exploit to broaden their appeal 
and spur recruitment. Like previous jihads such as the one against the 
Soviets in Afghanistan, the war in Iraq is shaping a new generation of 
terrorists, providing rank-and-file operatives with indoctrination, 
training, and combat experience, and giving new leaders an opportunity 
to prove themselves. Although fewer foreign jihadists appear to be 
participating in the Iraq war than in the Afghan-Soviet conflict, the 
nature of their experience in Iraq--in particular, a greater emphasis 
on urban warfare, terrorist techniques, and anti-U.S. targeting than in 
Afghanistan--could make them a greater threat over the years to come.
    The ultimate impact of the war in Iraq on the terrorist threat will 
depend on the conflict's resolution. Should jihadists leave Iraq after 
concluding they failed to defeat the coalition, while Iraqis move 
toward establishing a stable political and security environment, we 
judge that fewer fighters will be motivated to continue the struggle 
elsewhere. However, if they perceive success in expelling the coalition 
from Iraq, many will be inspired to carry on the fight and will attempt 
to transform portions of the country into bases for training and attack 
plotting. In a letter captured in 2005 and subsequently released by the 
U.S. Government, Osama bin Ladin's deputy, Ayman al-Zawahiri, told AQI 
leader Abu Mus'ab al-Zarqawi that once coalition forces withdrew from 
Iraq, al Qaeda intended to use the country as a base to destabilize 
neighboring governments and launch attacks against U.S. interests 
further abroad.

                         NUCLEAR PROLIFERATION

    9. Senator Byrd. Admiral McConnell, you noted that the second-
greatest threat facing us is nuclear proliferation and the possibility 
that nuclear weapons could be used against us. We have focused a great 
deal on Iraq, and I am concerned that other threats have been neglected 
as a result. Do you believe that we are adequately responding to the 
risk of nuclear materials being smuggled from the former Soviet Union 
and elsewhere?
    Admiral McConnell. [Deleted.]

    10. Senator Byrd. Admiral McConnell, do you believe that India is 
prepared to increase its production of fissile material, and if so, 
could that constitute a greater risk of proliferation or lead to a 
nuclear arms race?
    Admiral McConnell. [Deleted.]

                          INTELLIGENCE SHARING

    11. Senator Byrd. Admiral McConnell, you have discussed the need 
for the IC to move from a ``need to know'' to a ``responsibility to 
provide'' culture. Beyond the improvements already achieved, which you 
noted in your testimony, do you have further plans for operationally 
accomplishing that fundamental change of mind-set? Are you supportive 
of the intelligence-sharing directives in S.4, the ``Improving 
America's Security Act'' of 2007?
    Admiral McConnell. The February 27, 2007, testimony reflected my 
initial plans for intelligence sharing; ODNI also recently notified the 
committee of reorganization plans, which include transferring 
responsibility for Strategy, Plans, and Policy to the Deputy Director 
of National Intelligence (Customer Outcomes). The reorganization is 
designed, in part, to improve communications and information sharing 
between elements of the IC.
    As noted in the Statement of Administration Position on S.4, the 
administration opposes the bill's State, local, and regional Fusion 
Center provisions. These provisions do not recognize or capitalize on 
the substantial progress that the administration has made in creating 
the government-wide information sharing environment established by the 
Intelligence Reform and Terrorism Prevention Act of 2004. These 
provisions would upset the coordinated government-wide approach to 
information sharing mandated by Congress and currently being 
implemented by the executive branch at the President's direction. By 
eschewing government-wide responsibility for information sharing, the 
proposed provisions would undermine the fundamental premise of 
information sharing reform--coordination among all Federal entities 
with counterterrorism responsibilities.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                      THREATS TO THE UNITED STATES

    12. Senator Akaka. Admiral McConnell, General Maples, and Dr. 
Fingar, there are many different threats against our security in the 
world today, and you have discussed quite a number of them in your 
statements. These threats come at us from a number of different sources 
and from different angles of attack. There are threats from different 
nations, different terrorist organizations, and threats to our economic 
security. Some threats may even be indirect, in that they may be caused 
by actions taken by our allies. Please list what you believe are the 
top five threats to our national security today, and why you believe 
that your choices are the most important threats plaguing our Nation.
    Admiral McConnell. [Deleted.]
    General Maples. My testimony outlined the most critical threats and 
challenges to our Nation's security. These can be broken down into both 
near-term focus as well as long-term concern. The insurgencies in Iraq 
and Afghanistan will remain our first priority and both situations 
reflect, to varying degrees, the threats and challenges listed below.

          a. Global Terrorism. Developments in this decade have 
        highlighted the continuing threat terrorism poses to the 
        security of the United States. Many of the root causes remain 
        in place, and the trend lines most likely will continue beyond 
        2010. Despite our best efforts at mitigation, the resiliency of 
        these groups and resonance of their extremist message foster 
        conditions that promote and sustain terrorist activity. The 
        failure of governments to adequately address key economic and 
        social issues such as systemic corruption and repression, 
        quality of life and economic security, perceptions of 
        injustice, and opposition to perceived apostate regimes and 
        Western-dominated globalization remain the key drivers in 
        global terrorism.
          b. Weapons of Mass Destruction. After global terrorism, the 
        proliferation of weapons of mass destruction (WMD) remains the 
        most significant threat to our Homeland, deployed forces, 
        allies, and interests. Increased availability of information 
        together with technical advances has the potential to allow 
        many new countries to develop nuclear, biological, and chemical 
        weapons. States such as North Korea and Iran remain convinced 
        of the perceived deterrent capabilities and international 
        stature that come with WMD programs and proliferation. 
        Individuals and groups can exploit this increased availability, 
        and the nexus of terrorism and WMD is a growing concern. 
        Acquisition of precursor chemicals, starter cultures, and 
        weapons-grade nuclear material remains the chief inhibitor to 
        this threat, though false flag or hoax operations could achieve 
        desired psychological results in targeted populations.
          c. Regional Instability. In my testimony, I express our 
        concern over the situation in a number of states and regions. 
        In part this is driven by systemic destabilizing factors. The 
        long-term net effect of this instability provides a drain on 
        economic resources and increasingly taxes local and regional 
        security. The Middle East, Africa, and South Asia will remain 
        the most prone to these conditions. Poor or inadequate 
        government management of demographic stress, access to goods 
        and services, and the political process will continue to 
        undermine states in these regions. Over the next decade, the 
        speed and pervasive influence of globalization will continue to 
        overrun the capacity of some states to transform or stabilize.
          d. Technology Advancements and Surprise. Selected 
        applications of evolving technologies and in some cases 
        existent technology most likely will emerge as threats and 
        challenges to the United States. As with WMD, the increased 
        availability of information together with technical advances is 
        promoting future enhancements to weapons characteristics and 
        performance such as I described in ballistic missiles. In my 
        testimony, I also addressed our judgments on foreign 
        improvements in space capabilities and information operations. 
        This trend is largely driven by rapid advancements in 
        technology. China, in particular, continues to improve its 
        ability to acquire, adapt, and develop new technologies 
        supported by its rapid economic development. The capabilities 
        of terrorist and international criminals also have been 
        significantly improved by the availability of advanced 
        technologies.
          e. Cultural and Religious Conflict. Globalization is the most 
        important driver of cultural and religious conflict. Political, 
        ethnic, and cultural groups with limited means to adapt are 
        increasingly left disenfranchised. The increased movement of 
        people--largely seeking labor--has caused a collision of 
        economics and culture. Tensions can and will result in 
        conflict. Oppressive governments and the persecution of 
        minority groups also remain key drivers, particularly in key 
        regions such as the Middle East. Although cultural and 
        religious violence and conflict often work in tandem with 
        regional instability, they have manifested themselves in 
        relatively stable states. This violence and conflict 
        increasingly are proving to be a drain on local and regional 
        security resources.

    Dr. Fingar. [Deleted.]

    13. Senator Akaka. Admiral McConnell, General Maples, and Dr. 
Fingar, of those threats, which are challenges that you feel are best 
addressed by our military?
    Admiral McConnell. [Deleted.]
    General Maples. From a Defense Intelligence Agency (DIA) viewpoint 
all of these threats are of concern and will remain a focus of our 
collectors and analysts. The application of national power is best 
addressed from a policy perspective.
    Dr. Fingar. [Deleted.]

    14. Senator Akaka. Admiral McConnell, General Maples, and Dr. 
Fingar, which should be addressed by diplomatic methods?
    Admiral McConnell. [Deleted.]
    General Maples. From a DIA viewpoint all of these threats are of 
concern and will remain a focus of our collectors and analysis. The 
application of national power is best addressed from a policy 
perspective.
    Dr. Fingar. [Deleted.]

    15. Senator Akaka. Admiral McConnell, General Maples, and Dr. 
Fingar, which should be addressed by other means such as through 
improved security measures here in the United States, or through 
economic sanctions?
    Admiral McConnell. [Deleted.]
    General Maples. From a DIA viewpoint all of these threats are of 
concern and will remain a focus of our collectors and analysis. The 
application of national power is best addressed from a policy 
perspective.
    Dr. Fingar. [Deleted.]

                       FOREIGN NUCLEAR FACILITIES

    16. Senator Akaka. Admiral McConnell, General Maples, and Dr. 
Fingar, an article in the Sydney Morning Herald last week stated that 
``Intelligence on Iran's nuclear facilities provided to United Nations 
inspectors by U.S. spy agencies has mostly turned out to be unfounded, 
diplomatic sources in Vienna say.'' The article says that most of the 
tip-offs have led to dead ends when investigated by the International 
Atomic Energy Agency (IAEA) inspectors, and that there has been no sign 
of ``banned'' nuclear activities being conducted by Iran. Can you 
please comment on the accuracy of these statements?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]
    Dr. Fingar. [Deleted.]

    17. Senator Akaka. Admiral McConnell, General Maples, and Dr. 
Fingar, the administration recently announced a breakthrough agreement 
with North Korea concerning its nuclear program in which the North 
Koreans agreed to disable its plutonium-producing nuclear program in 
return for heavy fuel oil. Our chief negotiator--Chris Hill--in his 
statements seems to indicate that the North Koreans may not be as far 
advanced as the administration previously indicated in its covert 
uranium enrichment program. Please clarify for the record what your 
assessment is concerning the North Korean uranium enrichment program, 
and how advanced is it?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]
    Dr. Fingar. [Deleted.]

                         U.S. STRATEGY IN IRAQ

    18. Senator Akaka. Admiral McConnell and General Maples, the war in 
Iraq has cost the U.S. taxpayers over $350 billion to date. Congress is 
currently considering a $100 billion supplemental funding package for 
fiscal year 2007. We have had over 3,000 American troops killed, and 
tens of thousands more have been seriously wounded or injured. The 
families of our deployed troops have suffered great hardship during the 
war. All of this to attack a nation that had nothing to do with 
September 11, and that the 9/11 Commission has told us had no 
operational ties with al Qaeda. Last year's NIE for Iraq included a key 
finding that said that ``The Iraq conflict has become the ``cause 
celebre'' for jihadists, breeding a deep resentment of U.S. involvement 
in the Muslim world and cultivating supporters for the global jihadist 
movement.'' You are both military officers and intelligence experts. 
You are, therefore, uniquely qualified to talk about the strategy for 
fighting the war on terror. For the moment, please forget about the 
debate on whether we should stay in Iraq or leave. My question to you 
is this: Looking forward, is the Iraq war really the model we want to 
use for fighting the global war on terror?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    19. Senator Akaka. Admiral McConnell and General Maples, could we 
use our resources more efficiently? Please give us your thoughts on the 
Iraq conflict as a model for the war on terror.
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    20. Senator Akaka. Admiral McConnell and General Maples, is it 
fair, in your opinion, that intelligence analysis be used as the basis 
for pre-emptive wars against other nations, especially since the data 
may be subject to different interpretations? Would it be more efficient 
to utilize intelligence to focus our resources on selective strikes to 
disrupt specific terrorist operations?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

                       U.S. INTERPRETERS IN IRAQ

    21. Senator Akaka. Admiral McConnell and General Maples, it is my 
understanding that part of our difficulties in Iraq stems from the fact 
that we do not have enough U.S. military personnel who are proficient 
in the different dialects in the Middle East. In all of the different 
military conflicts that the United States has been involved in, the use 
of interpreters has been a vital piece to success. Given the fact that 
the United States does not have sufficient numbers of interpreters, do 
you believe that our efforts in Iraq are somewhat compromised? What 
efforts are underway to address this deficiency?
    Admiral McConnell. I respectfully recommend that you submit your 
question to the Department of the Army, United States Central Command, 
or the Department of Defense senior leadership for discussions on this 
operational issue.
    General Maples. DIA does not have information concerning 
interpreter support to U.S. forces in Iraq. This is an operational 
matter. The DIA has sufficient interpreters to conduct our intelligence 
collection operations in Iraq.

                     CHINESE ANTI-SATELLITE WEAPONS

    22. Senator Akaka. Dr. Fingar, on a visit to Australia last week, 
the Vice President said that China's recent anti-satellite weapons test 
and rapid military buildup were ``not consistent'' with its stated aim 
of a peaceful rise as a global power. The Vice President raises an 
interesting point, and his remarks raise the question as to why they 
are doing it. In your opinion, what is behind the Chinese test and do 
you expect them to continue improving their capability?
    Dr. Fingar. [Deleted.]

                      WEAPONS OF MASS DESTRUCTION

    23. Senator Akaka. Admiral McConnell, on February 13, North Korea 
reached an agreement with China, Japan, Russia, South Korea, and the 
United States on initial steps towards North Korea abandoning all 
nuclear weapons and existing nuclear programs and returning to the 
Treaty on the Non-Proliferation of Nuclear Weapons and to IAEA 
safeguards. This is an important agreement that probably could have 
been reached much earlier if the administration had been willing to 
negotiate rather than dictate conditions for talks. Have you been asked 
to make an intelligence assessment as to what negotiating strategy we 
could use if we were to engage Iran and Syria in order to convince them 
to, first, end their interference in Iraq and, second, to end their 
weapons of mass destruction (WMD) programs?
    Admiral McConnell. [Deleted.]

    24. Senator Akaka. Admiral McConnell, what do you believe these 
countries would want from the United States in order to get them to 
shut down the programs or activities that are of concern to our Nation?
    Admiral McConnell. [Deleted.]

    25. Senator Akaka. Admiral McConnell, in your statement to this 
committee, you stated that the IC continues to ``receive reports 
indicating that al Qaeda and other groups are attempting to obtain 
chemical, biological, radiological, and nuclear weapons or materials.'' 
Who are these ``other groups''? From where are these groups attempting 
to obtain these weapons? What can we do to further reduce the 
possibility that these weapons fall into the wrong hands?
    Admiral McConnell. [Deleted.]

    26. Senator Akaka. Admiral McConnell, recent media reports discuss 
the use of chlorine gas in attacks in Iraq. While these incidents were 
only partially successful, they demonstrate an enemy capable of 
experimenting and learning from their mistakes. I am very concerned 
about this issue especially since we know that there were a number of 
Iraqi scientists experienced in WMD. Do we know who these scientists 
are and where they are now?
    Admiral McConnell. [Deleted.]

    27. Senator Akaka. Admiral McConnell, have any of these scientists 
disappeared or have some of them joined al Qaeda or militia groups?
    Admiral McConnell. [Deleted.]

                    NATIONAL COUNTERTERRORISM CENTER

    28. Senator Akaka. Admiral McConnell, I chair the Oversight of 
Government Management, the Federal Workforce, and the District of 
Columbia Subcommittee in the Homeland Security and Governmental Affairs 
Committee. One of my major concerns has been workforce recruitment, 
retention, and training. In your testimony you cite as a success a 
strengthened National Counterterrorism Center (NCTC). I am concerned 
about staffing shortages not only at the NCTC but throughout the IC. 
Since September 11, we have experienced a significant increase in 
demand for intelligence professionals and a shortage of trained 
personnel. Do you have any suggestions or recommendations on how we can 
do a better job of recruiting, training, and retaining these 
professionals?
    Admiral McConnell. The business of intelligence is all about 
people. The DNI's June 2006 Strategic Human Capital Plan outlines a 
comprehensive strategy to fulfill the DNI's statutory responsibility 
under the Intelligence Reform and Terrorism Prevention Act of 2004, 
which charged the DNI with recruiting, developing, and retaining an IC 
workforce sufficiently talented, trained, diverse, and ``joint'' to 
accomplish our critical national security mission. My 100-Day 
Integration and Collaboration Plan also includes human capital 
initiatives; both the Strategic Plan and the 100-Day Plan include 
initiatives specifically designed to make the IC an ``employer of 
choice,'' and recruit, train, and retain the professionals needed to 
execute the IC's national security mission.
    ODNI will develop a strategy to recruit and retain more first- and 
second-generation Americans from heritage communities--individuals 
whose native language skills and cultural experiences are indispensable 
to current and future national security challenges. We have already 
established a centrally-funded IC ``corporate'' recruiting strategy, 
executed annually by multi-agency recruiting teams that travel to 
target campuses and professional conferences; we have deployed an IC 
recruiting Web site; and we have established an IC-wide resume-sharing 
database that allows all IC elements to share and consider highly 
qualified applicants.
    Furthermore, we have more than doubled the number of minority-
serving institutions participating in the innovative Centers for 
Academic Excellence program, which provides financial and technical 
assistance to these institutions, with the objective of attracting 
those who complete a course of study under the program to high-demand 
IC positions. We also have expanded IC-wide diversity recruiting and 
outreach initiatives directly through campus visits with recruiting 
teams visiting 45 historically black colleges and universities. ODNI 
plans to publish the IC Equal Employment Opportunity and Diversity 
Cross Cutting Emphasis Area Plan during the 100-Day Plan to give these 
efforts further impetus.
    ODNI believes strongly a modern performance management and 
compensation system is key to recognizing, rewarding, and retaining the 
best and brightest employees. ODNI is on track to complete the final, 
detailed design of a common pay-for-performance system for IC civilians 
by mid-2007. The system eventually will replace the General Schedule 
with a more market- and performance-sensitive pay system to recruit and 
retain mission-critical IC talent. The foundation for that system--a 
new, IC-wide performance management system--is in final agency 
coordination, and represents a critical milestone in the 100-Day Plan. 
It will include a 360-degree assessment process that, beginning with 
senior executives, will dramatically strengthen IC collaboration and 
teamwork.
    Competitive benefits also are an important part of the IC's 
recruiting and retention equation. We must provide our employees with 
benefit options that address our unique requirements and build a sense 
of community. Last year, the DNI extended the CIA's health insurance 
program to all IC civilian employees, as well as access to its 
complementary life, accident, income replacement, and long-term care 
coverage plans. This year, we extended the FBI's health care plan for 
special agents to all IC employees. We have also approved a plan to 
give IC employees access to insurance and investment options now 
offered only to NSA employees under its Government Employee Benefit 
Association plan.
    The IC's groundbreaking civilian Joint Duty program will be a 
critical training and professional development opportunity for the IC's 
future leaders. The 100-Day Plan makes the Joint Duty program one of my 
top priorities. ODNI recently issued the implementing instructions and 
an aggressive timetable for the program. In so doing, civilian joint 
duty is an essential part of becoming (and being) a senior leader in 
the IC. Joint duty assignments are strictly voluntary, but some form of 
``joint'' experience will be mandatory for promotion to almost all 
senior IC positions. A directive establishes policies and procedures 
for identifying, applying for, serving in, and receiving credit for, 
joint duty assignments. The requirement for joint duty experience will 
be phased in over time, starting with the top echelons of our 
organizations. In addition, ODNI is completing an inventory of all 
senior IC positions, as well as ``feeder'' positions outside of the 
ODNI, that provide such experience, so that we can then develop 
appropriate career paths and leadership succession plans for employees 
who seek such experience.
    We have also established a National Intelligence Reserve Corps 
(NERC) to re-employ retired IC professionals with critical skills to 
augment the workforce. We are hoping to draw retirees back to the 
workforce where they will be able to mentor and train new employees.
    These programs and initiatives are indicative of the high 
importance that the ODNI places on recruiting, training, and retaining 
IC professionals, and we will build the future IC workforce on these 
programs.

    29. Senator Akaka. Admiral McConnell, could you provide for the 
record your current staffing levels at the Directorate of National 
Intelligence (DNI) and NCTC, and your anticipated needs in those areas?
    Admiral McConnell. The attached document provides a detailed 
outline, by ODNI component, of the current staffing levels of the 
Office of the Director of National Intelligence (ODNI). In summary:


Full Time Permanent Staff*.................................          565
Part Time Staff (non-count)................................           18
Detailees (reimbursable)*..................................          604
Detailees (non-reimbursable)...............................           54
Assignees (non-reimbursable)...............................           89
                                                            ------------
  Total Employees..........................................        1,330
------------------------------------------------------------------------
Authorized Ceiling.........................................        1,539
Total Count Employees (sum of * above).....................        1,169
Total Vacant Positions.....................................          370


    Each of the directorates, centers, and mission managers continue to 
aggressively recruit and hire staff to meet mission requirements. The 
NCTC is anticipating receipt of 117 new positions from the CIA 
effective fiscal year 2008 to enhance their analytic efforts.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                             IRAQI SECURITY

    30. Senator Akaka. General Maples, in your testimony you state that 
``recent developments [in Iraq] give hope for progress'' and you note 
that attacks against Iraqi security forces and civilians have gone down 
recently. How would you characterize attacks against coalition forces, 
mainly American forces? Have those attacks shown any decline?
    General Maples. [Deleted.]

    31. Senator Akaka. General Maples, you also characterize the 
conflict as a ``sectarian struggle for power'' while Admiral McConnell 
more clearly suggests it is a ``civil war.'' Please elaborate on this 
matter.
    General Maples. The term ``civil war'' is not a recognized U.S. 
military or U.S. Government term with a fixed definition and set of 
necessary criteria, and the Joint Staff Dictionary of Military 
Terminology does not mention the term. Accordingly, what constitutes a 
civil war is subjective, and that lack of precision is why I have tried 
to avoid using it. Moreover, no consensus exists on when ethno-
sectarian violence reaches a threshold that crosses into a civil war.
    I concur with the IC assessment in the recent Iraq NIE that 
although the term ``civil war'' could describe key elements of the 
Iraqi conflict, it does not adequately capture the complexity of the 
conflict.
                                 ______
                                 
               Questions submitted by Senator John McCain

                      CHINESE ANTI-SATELLITE TEST

    32. Senator McCain. Admiral McConnell and General Maples, when 
China destroyed one of its own satellites in January 2007, it 
demonstrated the growing prowess of its space program as well as a 
capability to defend against satellite observation. What is the IC's 
assessment of this anti-satellite missile test?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    33. Senator McCain. Admiral McConnell and General Maples, what was 
China's rationale for conducting this test and what are the 
implications for U.S. satellite capabilities?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    34. Senator McCain. Admiral McConnell and General Maples, what 
other space capabilities does China have?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    35. Senator McCain. Admiral McConnell and General Maples, how 
concerned are you about this action by the Chinese?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    36. Senator McCain. Admiral McConnell and General Maples, are we 
headed for an arms race in space?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    37. Senator McCain. Admiral McConnell and General Maples, what 
other countries are developing capabilities that have the potential to 
threaten U.S. space assets?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

                            IRAQ WITHDRAWAL

    38. Senator McCain. Admiral McConnell and General Maples, there 
have been proposals to withdraw our forces from Iraq by a specific 
date, as a way to force the Iraqis to take responsibility for their own 
governance and security. What is your assessment of what would happen 
if we completely pulled out our forces over the next 6 months?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

                               VENEZUELA

    39. Senator McCain. Admiral McConnell and General Maples, 
Venezuela's arms spending has risen to $4.3 billion in the last 2 
years. It spends more on arms than Pakistan ($3 billion) or Iran ($1.7 
billion). Venezuela's purchases include 24 Russian fighter jets, 50 
helicopters, and 100,000 Kalashnikov assault rifles. What are the 
implications of Chavez's military buildup?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    40. Senator McCain. Admiral McConnell and General Maples, how would 
you rate Venezuela's military power in the region?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

                                  SADR

    41. Senator McCain. Admiral McConnell and General Maples, on 
February 25, a New York Times headline read ``Iraq Rebel Cleric Reins 
in Militia; Motives at Issue'' and yesterday the New York Times 
headline was ``Militant Iraqi Shiite Cleric Denounces Security Push.'' 
How would you characterize Sadr's activities in recent weeks?
    Admiral McConnell and General Maples. The answer to this question 
was returned to the National Intelligence Council and the DIA for 
revision based on recent events. They will respond to this question 
under separate correspondence. [Deleted.]

    42. Senator McCain. Admiral McConnell and General Maples, has Sadr 
repudiated the security plan or has he allowed the arrest of his own 
militiamen?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    43. Senator McCain. Admiral McConnell and General Maples, what 
reporting do we have about the activities of Sadr's militia?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    44. Senator McCain. Admiral McConnell and General Maples, is Sadr 
in Iran? Can you describe Sadr's relationship with the regime in 
Tehran?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    45. Senator McCain. Admiral McConnell and General Maples, how much 
support does Sadr receive from Iran?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    46. Senator McCain. Admiral McConnell and General Maples, what 
position, if any, has the Grand Ayatollah Sistani taken on the new 
Baghdad security plan?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

                INSURGENCY TACTICS AND AL QAEDA IN IRAQ

    47. Senator McCain. General Maples, there was recently an attack by 
foreign jihadists and Sunni militants against a U.S. combat outpost 
north of Baghdad. There also appears to be a more coordinated effort to 
shoot down U.S. helicopters. Insurgents have also equipped car bombs 
with chlorine canisters which disperse toxic gas when exploded. Do you 
see this as part of an evolutionary tactical change?
    General Maples. [Deleted.]

    48. Senator McCain. General Maples, how has al Qaeda in Iraq 
changed since the death of Zarqawi in June 2006?
    General Maples. [Deleted.]

    49. Senator McCain. General Maples, how many al Qaeda associated 
operatives are part of the insurgency in Iraq?
    General Maples. [Deleted.]

    50. Senator McCain. General Maples, do Osama bin Ladin and Ayman 
al-Zawahiri continue to play a crucial role in inspiring jihadists to 
go to Iraq?
    General Maples. [Deleted.]

    51. Senator McCain. General Maples, how much influence do bin Laden 
and Zawahiri play in operations in Iraq?
    General Maples. [Deleted.]

    52. Senator McCain. General Maples, is there any recent evidence 
that al Qaeda in Iraq intends to use Iraq to launch attacks outside of 
Iraq's territorial borders?
    General Maples. [Deleted.]

                              AFGHANISTAN

    53. Senator McCain. General Maples, there has been speculation in 
the press that the Taliban is positioning itself for a large offensive 
in the spring. What is the IC's assessment of the Taliban's plans in 
the near-term?
    General Maples. [Deleted.]
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

            IRANIAN BALLISTIC MISSILE AND SPACE CAPABILITIES

    54. Senator Sessions. Admiral McConnell and General Maples, both of 
you note in your written testimony that Iran continues its efforts to 
develop and acquire ballistic missiles capable of striking Israel and 
Central Europe. You also note that Tehran views its growing inventory 
of ballistic missiles as an integral part of its strategy to deter, and 
if necessary retaliate, against forces in the region--including U.S. 
forces. What is your assessment of current and future Iranian 
capabilities to strike European countries with intermediate-range 
ballistic missiles?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    55. Senator Sessions. Admiral McConnell and General Maples, when 
does the IC estimate Iran will test a ballistic missile capable of 
reaching the United States?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    56. Senator Sessions. Admiral McConnell and General Maples, when 
does the IC estimate Iran will develop a space launch capability and 
the ability to target U.S. satellites in low earth orbit?
    Admiral McConnell. [Deleted.]
    General Maples. [Deleted.]

    [Whereupon, at 12:40 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
